No. 20A138
IN THE

Supreme Court of the United States
GATEWAY CITY CHURCH, ET AL.,
Plaintiffs-Applicants,
v.
GAVIN NEWSOM, ET AL.,
Defendants-Respondents.
APPENDIX OF RESPONDENTS’ EXHIBITS
OFFICE OF THE COUNTY COUNSEL
COUNTY OF SANTA CLARA
JAMES R. WILLIAMS*
County Counsel
GRETA S. HANSEN
DOUGLAS M. PRESS
TONY LOPRESTI
MELISSA KINIYALOCTS
HANNAH KIESCHNICK
70 West Hedding Street
East Wing, Ninth Floor
San José, CA 95110-1770
Telephone: (408) 299-5900
James.williams@cco.sccgov.org
*Counsel of Record
February 24, 2021

Attorneys for Defendants-Respondents
County of Santa Clara and Sara H.
Cody, MD

TABLE OF CONTENTS
Exhibit 1: County of Santa Clara Public Health Dep’t, Mandatory Directive for
Gatherings (July 14, 2020; last rev’d Feb. 12, 2021),
https://www.sccgov.org/sites/covid19/Documents/Mandatory-DirectivesGatherings.pdf.
Exhibit 2: Declaration of Dr. Sara H. Cody in Support of Defendants County of
Santa Clara and Dr. Sara H. Cody’s Opposition to Plaintiffs’ Motion for a
Preliminary Injunction, Gateway City Church v. Newsom, No. 20-cv08241-EJD, ECF No. 53-3 (N.D. Cal. Dec. 23, 2020)
Exhibit 3: Declaration of Dr. Marc Lipsitch in Support of Defendants County of
Santa Clara and Dr. Sara H. Cody’s Opposition to Plaintiffs’ Motion for a
Preliminary Injunction, Gateway City Church v. Newsom, No. 20-cv08241-EJD, ECF No. 53-4 (N.D. Cal. Dec. 23, 2020)
Exhibit 4: Federal Aviation Administration, Information for Airport Sponsors
Considering COVID-19 Restrictions or Accommodations (May 29, 2020),
Gateway City Church v. Newsom, No. 20-cv-08241-EJD, ECF No. 53-1
(N.D. Cal. Dec. 23, 2020)
Exhibit 5: County of Santa Clara Public Health Dep’t, Mandatory Directive on
Travel (Nov. 28, 2020; last rev’d Jan. 25, 2021),
https://www.sccgov.org/sites/covid19/Documents/Mandatory-DirectivesTravel.pdf.

i

Exhibit 1

MANDATORY
DIRECTIVE:

Gatherings

Issued July 14, 2020
sccgov.org/coronavirus

Revised and Effective: February 12, 2021

County of Santa Clara
Public Health Department
Health Officer
976 Lenzen Avenue, 2nd Floor
San José, CA 95126
408.792.5040

MANDATORY DIRECTIVE FOR GATHERINGS
*Please confirm that your gathering is allowed under the State Order. Where there is a
difference between the local County Order and the State Order, the more restrictive order
must be followed.*
Information on the State’s Order and State guidance is available at covid19.ca.gov.
Issued: July 14, 2020
Revised and Effective: February 12, 2021
Effective Upon Release
Every person, business, and entity in Santa Clara County must follow both the County and the
State Public Health Officer Orders. Below is information on: (1) the State’s general gathering
rules, and (2) the current rules for indoor gatherings in Santa Clara County.

1. General State Gatherings Rules:
As of January 25, 2021, the State’s Regional Stay at Home Order is no longer in effect in
Santa Clara County.
On August 28, 2020, the State issued a Statewide Public Health Officer Order (“State Order,”
available here and the Blueprint for a Safer Economy (“Blueprint,” available here). The State
Order and Blueprint establish statewide restrictions applicable to each “tier” to which counties
are assigned.
The State Health Officer has generally prohibited gatherings of all kinds statewide, with
limited exceptions for worship services, cultural ceremonies like weddings and funerals,
protest or political activities, and any gathering that is explicitly allowed by a State COVID-19
Industry Guidance document (https://covid19.ca.gov/industry-guidance/) or by the State’s
“Stay home Q&A” page (https://covid19.ca.gov/stay-home-except-for-essential-needs/). The
State also allows private gatherings consisting of no more than three households pursuant to
the State’s rules, but such gatherings must be outdoors while the County is in the Purple Tier.

Mandatory Directive on Capacity Limitations (Order issued Oct. 5, 2020)

Page 1 of 12

Board of Supervisors: Mike Wasserman, Cindy Chavez, Otto Lee, Susan Ellenberg, S. Joseph Simitian
County Executive: Jeffrey V. Smith

All gatherings are subject to the mandatory requirements in this Directive and any other
applicable County Health Officer Directive, the County Health Officer’s Revised Risk
Reduction Order issued on October 5, 2020, the applicable restrictions under the State Order
and Blueprint, the State’s COVID-19 Industry Guidance documents, and any applicable health
and safety regulations.
Note: While wedding ceremonies may occur outdoors subject to the mandatory requirements
of this Directive, the State has clarified that “[w]edding receptions/parties/celebrations are
NOT permitted at this time” under State Public Health Officer orders.

2. Current Rules for Indoor Gatherings in Santa Clara County:
Because indoor gatherings continue to pose a severe risk of COVID-19 transmission, all
indoor gatherings are currently prohibited.

While COVID-19 is still circulating in our community, the Health Officer strongly discourages
any gathering together with people from other households. Indoor gatherings are particularly
risky because COVID-19 transmission occurs more easily indoors than outdoors, and COVID-19
continues to circulate widely. The most recent scientific evidence underscores the risk of
transmission indoors, and indoor gatherings are always strongly discouraged, even when
allowed. But gatherings are not prohibited by this Directive as long as everyone attending the
gathering strictly complies with all the requirements set forth below to reduce risk and keep
everyone who attends as safe as possible.
A “gathering” is an event, assembly, meeting, or convening that brings together multiple people
from separate households in a single space, indoors or outdoors, at the same time and in a
coordinated fashion—like a wedding, banquet, conference, religious service, festival, fair, party,
performance, competition, movie theater operation, fitness class, barbecue, protest, or picnic.
Although the County allows all types of gatherings to occur in compliance with this Directive, at
this time the State generally allows gatherings only for purposes of worship services, cultural
ceremonies like funerals and weddings (but not wedding receptions, which are prohibited), and
protest or political activities. The State also allows gatherings for purposes identified in the
State’s Industry Guidance or any other State guidance document. The State also allows small
gatherings of any type with no more than three households. These gatherings must follow the
County’s rules (contained in this Directive) and the State’s rules, including the State requirement
that such gatherings must be outdoors when counties are in the Purple Tier. Because the stricter
of the requirements applies, the only types of gatherings allowed in the County are those allowed
by the State.

Mandatory Directive for Gatherings
(Order Issued October 5, 2020)

Page 2 of 12

This Directive does not regulate whether a facility is open or closed. For example, facilities that
are typically used for gatherings—such as places of worship, meeting halls, and event spaces—
may remain open for purposes that do not involve gatherings, even when gatherings are
prohibited indoors.
This Directive explains the local requirements for gatherings in Santa Clara County. This
Directive is mandatory, and failure to follow it is a violation of the Health Officer’s Order
issued October 5, 2020 (“Order”).
The Order Issued October 5, 2020
The Order imposes several restrictions on all businesses and activities to ensure that the County
stays as safe as possible. All persons and businesses (including nonprofits, educational entities,
and any other business entity, regardless of its corporate structure) that organize or host
gatherings—such as religious institutions, wedding venues, wedding planners/coordinators,
convention centers, and conference/meeting room rental facilities—must comply with the
following requirements, and must ensure that participants comply with all applicable
requirements:
•

Social Distancing Protocol: All businesses and governmental entities that have not
already done so must fill out and submit an updated Social Distancing Protocol under the
October 5, 2020 Health Officer Order. Social Distancing Protocols submitted prior to
October 11, 2020 are no longer valid. The Revised Social Distancing Protocol must be
filled out using an updated template, which is available here. The Protocol is submitted
under penalty of perjury, meaning that everything written on the form must be truthful
and accurate to the best of the signer’s knowledge, and submitting false information is a
crime. The Protocol must be distributed to all workers, and it must be accessible to all
officials who are enforcing the Order.

•

Signage: All businesses and governmental entities must print (1) an updated COVID-19
PREPARED Sign and (2) a Social Distancing Protocol Visitor Information Sheet, and
both must be posted prominently at all facility entrances. These are available for printing
after submission of the Revised Social Distancing Protocol online. The Revised Social
Distancing Protocol specifies additional signage requirements.

•

Face Coverings: Everyone must wear face coverings at all times specified in the
California Department of Public Health’s mandatory Guidance for the Use of Face
Coverings (“Face Covering Guidance”) and in any specific directives issued by the
County Health Officer. Unless otherwise stated in this Directive, face coverings must
be worn at all times when attending a gathering.

•

Capacity Limitation: All businesses must comply with the capacity limitations
established in the Mandatory Directive on Capacity Limitations.

Mandatory Directive for Gatherings
(Order Issued October 5, 2020)

Page 3 of 12

Mandatory Requirements for All Gatherings
In general, the more people a person interacts with at a gathering, the closer the physical
interaction is, the more enclosed the gathering space is, and the longer the interaction lasts, the
higher the risk that a person with an unknown SARS-CoV-2 infection (the infection that causes
COVID-19) might spread it to others. If not everyone follows the rules to safely gather, the risk
of spreading SARS-CoV-2 is even higher. Based on those principles, the Health Officer’s
directives for all gatherings are:
1. If Gathering, the Health Officer Strongly Urges You to Gather Outdoors
a. Gatherings that occur outdoors are significantly safer than indoor gatherings. To
qualify as an outdoor gathering, the gathering must be held entirely outdoors,
except that attendees may go inside to use restrooms as long as the restrooms are
frequently disinfected.
b. The maximum number of people allowed at an outdoor gathering is specified in
the Mandatory Directive on Capacity Limitations. This includes everyone
present, such as hosts, workers, and guests. The space must be large enough so
that everyone at a gathering can maintain at least 6-foot social distance from
anyone (other than people from their own household).
i. Example 1: A small church hosts a funeral ceremony in its churchyard.
The churchyard is only big enough to allow 25 people to easily maintain
6-foot social distancing between households at all times. No more than
25 people may be present at the funeral ceremony.
ii. Example 2: A couple holds their wedding ceremony outdoors at a historic
hotel. The outdoor ceremony space is big enough for 1,000 people to
maintain 6-foot distancing. Even so, no more than the maximum
number of people allowed by the Mandatory Directive on Capacity
Limitations may be present at the wedding ceremony.
c. A gathering is considered an outdoor gathering only if it is held at a facility that
allows the free flow of outdoor air through the entire space, as specified in the
California Department of Public Health’s mandatory guidance on Use of
Temporary Structures for Outdoor Business Operations.
d. Fences and screens that do not impede airflow are not considered walls or sides
for purposes of determining whether an area is outdoors. Partitions around or
within the facility may be used and do not qualify as sides so long as they are no
more than 3 feet in height as measured from the floor.
Mandatory Directive for Gatherings
(Order Issued October 5, 2020)

Page 4 of 12

2. The Health Officer Strongly Discourages Indoor Gatherings, Even When They Are
Allowed
a. Indoor gatherings may not be allowed depending on the County’s current tier
under the State’s Blueprint for a Safer Economy and other local factors. See the
“Current Rules for Indoor Gatherings in Santa Clara County” box at the top of
this Directive for information on current rules.
b. When indoor gatherings are allowed, the maximum number of people allowed at
an indoor gathering is specified in the Mandatory Directive on Capacity
Limitations. This includes everyone present, such as hosts, workers, and guests.
3. Don’t Attend Gatherings If You Feel Sick or You Are in a High-Risk Group
a. If you feel sick or have any COVID-19-like symptoms (fever, cough, shortness of
breath, chills, night sweats, sore throat, nausea, vomiting, diarrhea, tiredness,
muscle or body aches, headaches, confusion, or loss of sense of taste/smell), you
must stay home and may not attend any gatherings.
b. As explained on the People Who Need Extra Precautions page, people at higher
risk of severe illness or death from COVID-19 are strongly urged not to attend
any gatherings.
4. All Gatherings Must Have an Identified and Designated Host Who Is Responsible for
Ensuring Compliance with All Requirements
a. A specific person or business (including nonprofits, religious organizations,
educational entities, or any other business entity) must be the designated host for a
gathering and ensure compliance with all requirements in the Order and this
Directive. The host is responsible and subject to enforcement for any failure
by participants to comply with the Order and this Directive.
b. The host also must maintain a list with names and contact information of all
participants at the gathering. If a participant tests positive for COVID-19, the
host is legally required to assist the County Public Health Department in any case
investigation and contact tracing associated with the gathering. Public Health will
ask for the list of attendees only if an attendee tests positive for COVID-19. The
County Public Health Department will keep this information confidential and use
it only for case investigation and contract tracing purposes. Hosts must maintain
these records for at least 21 days. The host must provide the list to any County
Enforcement Officer immediately upon request.

Mandatory Directive for Gatherings
(Order Issued October 5, 2020)

Page 5 of 12

5. Practice Physical Distancing and Hand Hygiene at Gatherings
a. At all gatherings, everyone must stay at least 6 feet away from other people
(except people in their own household) at all times.
b. Seating arrangements must provide at least 6 feet of distance (in all directions—
front-to-back and side-to-side) between different households. This can be done
by spacing chairs apart, or for fixed seating like benches or pews, by marking off
rows and indicating seating areas with tape. Seating and tables must be sanitized
after each use.
c. Everyone at a gathering should frequently wash their hands with soap and water,
or use hand sanitizer if soap and water are not available. The host must make
handwashing facilities or hand sanitizer available for participants to use.
6. Rules for Face Coverings, Singing, Chanting, Shouting, and Playing Wind Instruments
Current scientific evidence shows that COVID-19 spreads primarily through respiratory droplets
and fine aerosols that are released from the body when people breathe, sing, shout, or otherwise
expel air from their lungs. Face coverings prevent many of these droplets and aerosols from
escaping into the air, and wearing a face covering has been shown to significantly decrease the
risk of COVID-19 transmission. Conversely, singing, chanting, shouting, and playing wind
instruments have all been shown to significantly increase the risk of COVID-19 transmission,
because these activities all release increased amounts of respiratory droplets and fine aerosols
into the air. To reduce the risk of spreading COVID-19, the following rules apply to gatherings:
a. For all indoor gatherings (when indoor gatherings are allowed):
i. Everyone, including performers/presenters, must wear a face covering
at all times (except for very young children, people for whom face
coverings are medically inadvisable, or for communication by or with
people who are hearing impaired).
1. Food and drink may not be served at indoor gatherings—including
at movie theaters—even when indoor gatherings are allowed,
except as necessary to carry out a religious ceremony.
2. Face coverings may be removed to meet urgent medical needs (for
example, to use an asthma inhaler, consume items needed to
manage diabetes, take medication, or if feeling light-headed).
ii. Singing, chanting, shouting, and playing wind instruments are strictly
prohibited.
Mandatory Directive for Gatherings
(Order Issued October 5, 2020)

Page 6 of 12

b. For all outdoor gatherings:
i. Except as described below or in other directives issued by the County
Health Officer, everyone must wear a face covering at all times (except
for very young children, people for whom face coverings are medically
inadvisable, or for communication by or with people who are hearing
impaired).
1. Attendees may remove their face coverings to eat or drink but must
put their face covering back on as soon as they are finished eating
or drinking.
2. Attendees may remove their face coverings to meet urgent medical
needs (for example, to use an asthma inhaler, consume items
needed to manage diabetes, take medication, or if feeling lightheaded).
ii. If an outdoor gathering involves a performance/presentation,
performers/presenters may remove their face coverings while they are
performing/presenting, but they must replace their face coverings after
they finish.
1. No more than 12 performers/presenters are permitted in the
performance/presentation area at a time.
2. Until their face covering is back on, any performer/presenter who
removes their face covering to speak must maintain at least 12 feet
of social distance from everyone not in their household.
3. Until their face covering is back on, any performer/presenter who
removes their face covering to sing, chant, shout, or play a wind
instrument must maintain at least 12 feet of social distance from all
other performers/presenters who are not in their household and at
least 25 feet from all attendees who are not performing/presenting.
4. Any performer/presenter playing a wind instrument must cover the
opening of the instrument (e.g., with cloth) to reduce the spread of
respiratory droplets from the instrument.

Mandatory Directive for Gatherings
(Order Issued October 5, 2020)

Page 7 of 12

5. Performers/presenters who are singing or chanting are strongly
encouraged to do so at a quiet volume (at or below the volume of a
normal speaking voice).
iii. All attendees who are not performing/presenting must wear a face
covering at all times while singing, chanting, or shouting. Because these
activities pose a very high risk of COVID-19 transmission, face coverings
are particularly essential to reduce the spread of respiratory droplets and
fine aerosols. People who cannot wear a face covering for medical or
other reasons are strongly discouraged from singing, chanting, or shouting.
1. Attendees who are singing, chanting, or shouting are strongly
encouraged to maintain increased social distancing greater than 6
feet to further reduce risk.
2. Attendees who are singing or chanting are strongly encouraged to
do so at a quiet volume (at or below the volume of a normal
speaking voice).
7. Stagger Attendance at Gatherings
a. For gatherings that have the potential to draw larger groups, like community
meetings or religious services, consider offering multiple sessions, requiring
reservations that cap attendance at each session, staggering arrivals and
departures, and encouraging or requiring that the same group stays together (for
example, Group A attends the Sunday morning worship service every week, and
Group B attends the separate Tuesday evening worship service every week).
b. There is no limit on the number of gatherings that may be held at different times
on a single day—for example, a mosque may hold prayer services five times a
day—as long as (i) each gathering follows all the rules, and (ii) restrooms, chairs
and tables, and any other high-touch surfaces are properly sanitized between
groups.
c. A venue may host multiple outdoor gatherings at the same time (for example,
multiple small barbecues in a large outdoor space like a 20-acre ranch)—as long
as:
i. Each gathering follows all the rules in the Order and in this Directive.
Each gathering must, for instance, have its own designated host who must
maintain a list of participant names and contact information.

Mandatory Directive for Gatherings
(Order Issued October 5, 2020)

Page 8 of 12

ii. Each gathering has its own area marked by prominent signage, barriers, or
ropes, and there is a buffer zone of at least 100 feet between the
boundaries of any two separate gatherings.
iii. The participants at a gathering, including hosts, workers, and guests, do
not mix between or among different gatherings and stay strictly in their
own area.
iv. There are sufficient restroom facilities, or a system of using the restroom
facilities, such that participants from different gatherings do not have
contact with one another when they use the restroom.
d. When indoor gatherings are allowed, a venue may host multiple indoor gatherings
at the same time (for example, multiple gatherings in separate rooms within a
building)—as long as:
i. Each gathering follows all the rules in the Order and in this Directive.
Each gathering must, for instance, have its own designated host who must
maintain a list of participant names and contact information.
ii. Each gathering is fully separated by solid, floor-to-ceiling walls or
partitions from any other gathering.
iii. Where possible, the HVAC system for each space with a gathering should
ventilate to the outdoors, rather than into a space with another gathering.
iv. The participants at a gathering, including hosts, workers, and guests, do
not mix between or among different gatherings and do not enter into a
common space with participants from any other gathering.
v. There are sufficient restroom facilities, or a system of using the restroom
facilities, such that participants from different gatherings do not have
contact with one another when they use the restroom.
//
//
8. Livestreaming, Broadcasting, and Recording with No Audience Present

Mandatory Directive for Gatherings
(Order Issued October 5, 2020)

Page 9 of 12

Businesses may livestream, broadcast, or record performances, services, and classes at indoor
facilities without live audiences or members of the public present. All such livestreamed,
broadcasted, or recorded events at indoor facilities must comply with the following rules:
a. When livestreaming under this provision, only personnel may be present at the
facility. Audiences or other members of the public are strictly prohibited. The
number of personnel inside the facility must be limited to the minimum necessary
to conduct the event (and may never exceed 12 people or the maximum number of
people allowed under the facility’s current capacity limitation as dictated by
the Mandatory Directive on Capacity Limitations, whichever is fewer).
b. All personnel, including performers/presenters in the performance area, must
maintain at least 6 feet of physical distance from everyone outside their household
at all times.
c. People performing or presenting during a livestreamed event may remove their
face coverings during the performance or presentation if everyone maintains at
least 12 feet of physical distance from everyone outside their household at all
times. Even so, the Health Officer strongly urges people performing or presenting
to wear a face covering whenever possible. All others on-site must wear a face
covering in compliance with State and County Health Officer requirements.
d. When livestreaming under this provision with no audience present, singing,
chanting, or playing wind instruments indoors is strongly discouraged but may
occur so long as everyone maintains at least 12 feet of physical distance from
everyone outside their household.
For clarity, the above rules for livestreaming, broadcasting, and recording do not apply if any
member of the public is present for the event. Businesses may livestream, broadcast, or
otherwise record an event at which members of the public are present (so long as current State
and County Health Officer orders allow members of the public to be present for such an event),
but there are no special rules that would apply to the livestream, broadcast, or recording. Instead,
these events must comply with all rules currently governing the business’s general operations.
Note that these rules may be stricter those listed above.
9. Maximize Ventilation for Indoor Gatherings (When Indoor Gatherings Are Allowed)
a. Open doors and windows to maximize circulation of outdoor air whenever
environmental conditions and building requirements allow. Consider
modifications to the facility to increase outdoor air exchange, such as replacing
non-opening windows with openable screened windows. Contact your local
Building Department for more information on permit requirements.
Mandatory Directive for Gatherings
(Order Issued October 5, 2020)

Page 10 of 12

b. Indoor facilities with central air handling/HVAC systems must ensure that HVAC
systems are serviced and functioning properly and, to the extent feasible and
appropriate to the facility:
i. Evaluate possibilities for and implement upgrades to the system to ensure
that air filters are functioning at the highest efficiency compatible with the
currently installed filter rack and air handling system (ideally MERV-13
or greater).
ii. Increase the percentage of outdoor air through the HVAC system,
readjusting or overriding recirculation (“economizer”) dampers.
iii. Disable demand-control ventilation controls that reduce air supply based
on temperature or occupancy.
iv. Implement the additional measures set forth in the County’s Guidance for
Ventilation and Air Filtration Systems.
c. Indoor facilities that do not have central air handling/HVAC systems or that do
not operate or control the system must take the following measures, to the extent
feasible and appropriate to the facility:
i. Set any ceiling fans to draw air upwards away from participants.
ii. If using portable fans, position them near open doors/windows and use
them to draw or blow inside air to the outside of the facility. Position fans
to minimize blowing air between occupants, which may spread aerosols.
iii. Consider installing portable air filters appropriate to the space.
iv. Implement additional applicable measures set forth in the County’s
Guidance for Ventilation and Air Filtration Systems.
d. Upon request by a County Enforcement Officer or County Public Health
Department Staff, the facility may be required to perform a comprehensive
evaluation of the facility’s ventilation and air filtration system by an appropriately
licensed professional, and produce documentation regarding this evaluation to the
County.
Stay Informed

Mandatory Directive for Gatherings
(Order Issued October 5, 2020)

Page 11 of 12

For answers to frequently asked questions about this industry and other topics, please see
the FAQs page. Please note that this Directive may be updated. For up-to-date information on
the Health Officer Order, please visit the County Public Health Department’s website
at www.sccgov.org/coronavirus.

Mandatory Directive for Gatherings
(Order Issued October 5, 2020)

Page 12 of 12

Exhibit 2

Case 5:20-cv-08241-EJD Document 53-3 Filed 12/23/20 Page 1 of 36

1
2
3
4

JAMES R. WILLIAMS, County Counsel (S.B. #271253)
HANNAH KIESCHNICK, Deputy County Counsel (S.B. #319011)
KARAN SINGH DHADIALLA, Deputy County Counsel (S.B. #296313)
OFFICE OF THE COUNTY COUNSEL
70 West Hedding Street, East Wing, Ninth Floor
San José, California 95110-1770
Telephone: (408) 299-5900
Facsimile: (408) 292-7240

5
6

Attorneys for Defendants
COUNTY OF SANTA CLARA and
DR. SARA H. CODY

7

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
(San José Division)

8
9
10
11

GATEWAY CITY CHURCH, et al.,
Plaintiffs,

12
13

v.

14

GAVIN NEWSOM, et al.,

15

Defendants.

No. 20-CV-08241-EJD
DECLARATION OF THE HEALTH
OFFICER FOR THE COUNTY OF SANTA
CLARA SARA H. CODY, M.D., IN
SUPPORT OF DEFENDANTS COUNTY
OF SANTA CLARA AND DR. SARA H
CODY’S OPPOSITION TO PLAINTIFFS’
MOTION FOR A PRELIMINARY
INJUNCTION

16

Date:
Time:
Courtroom:
Judge:

17
18
19

I, SARA H. CODY, M.D., declare as follows:

20

1.

21

I have personal knowledge of the facts set forth in this declaration. If called as a

witness, I could and would testify competently to the matters set forth herein.

22
23

January 15, 2020
10:00 a.m.
4
Hon. Edward J. Davila

Background and Experience
2.

I graduated from Stanford University, where I received a degree in Human Biology. I

24

received my Doctor of Medicine from Yale University School of Medicine. Following an Internship

25

and Residency in Internal Medicine at Stanford University Hospital, I completed a two-year

26

fellowship in Epidemiology and Public Health, as an Epidemic Intelligence Service (EIS) Officer

27

with the Centers for Disease Control and Prevention (CDC).

28

3.

I am currently the Director of the County of Santa Clara’s Public Health Department,
1

Declaration of Dr. Sara H. Cody in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-3 Filed 12/23/20 Page 2 of 36

1

as well as the Health Officer for the County and each of the 15 cities located within Santa Clara

2

County. I have held the Health Officer position since 2013 and the Director of Public Health

3

Department position since 2015. In these roles, I provide leadership on public health issues for all of

4

Santa Clara County and oversee approximately 400 Public Health Department employees who

5

provide a wide array of services to safeguard and promote the health of the community.

6

4.

Before becoming the Health Officer for the County and each of its cities, I was

7

employed for 15 years as a Deputy Health Officer/Communicable Disease Controller at the County’s

8

Public Health Department, where I oversaw surveillance and investigation of individual cases of

9

communicable diseases, investigated disease outbreaks, participated in planning for public health

10

emergencies, and responded to Severe Acute Respiratory Syndrome (SARS), influenza A virus

11

subtype H1N1 (also known as “swine flu” or H1N1), and other public health emergencies.

12

5.

The mission of the Public Health Department is to promote and protect the health of

13

Santa Clara County’s population of approximately 1.9 million people. None of Santa Clara

14

County’s 15 cities has a health department. All 15 cities, and all Santa Clara County residents, rely

15

on the Public Health Department to perform essential public health functions. The work of the

16

Public Health Department is focused on three main areas: (1) infectious disease and emergency

17

response; (2) maternal, child, and family health; and (3) healthy communities. The Public Health

18

Department’s work is guided by core public health principles of equity, collaboration and inclusion,

19

and harm prevention. This work—in particular, infectious disease control and emergency

20

response—is critical to the health of the entire community countywide.

21

The Novel Coronavirus and COVID-19

22

6.

The current pandemic—from a novel coronavirus that was first identified in

23

December 2019—has spread to most countries in the world, including the United States.

24

Worldwide, as of December 23, 2020, authorities had confirmed at least 78,320,614 cases, and

25

1,723,502 deaths. The United States reported its first case on January 21, 2020. The disease has

26

since spread rapidly throughout the country. As of December 23, 2020, public health authorities had

27

confirmed at least 18,281,597 cases in the United States, and 323,682 deaths. Starting November 4,

28

2020, the United States has recorded more than 100,000 new cases each day with many days
2
Declaration of Dr. Sara H. Cody in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-3 Filed 12/23/20 Page 3 of 36

1

surpassing the previous single-day record and each day’s total eclipsing the summer’s single-day

2

record of 77,300 new cases in mid-July. And on December 16, 2020, there were 245,000 new cases

3

and over 3,600 deaths reported. Experts consider this epidemic to be the worst public health

4

epidemic since the influenza outbreak of 1918, and recent case numbers, hospitalizations, and deaths

5

confirm the epidemic is worsening.
7.

6

Coronaviruses are a large family of viruses that can cause illness ranging from the

7

common cold to more severe diseases such as Middle East Respiratory Syndrome (MERS-CoV) and

8

Severe Acute Respiratory Syndrome (SARS-CoV). A novel coronavirus is a new coronavirus that

9

has not been previously identified in humans. SARS-CoV-2 refers to the novel coronavirus

10

currently spreading throughout the world, and Coronavirus Disease-19 (COVID-19) is the disease

11

caused by SARS-CoV-2. The World Health Organization has deemed COVID-19 a pandemic. One

12

vaccine for SARS-CoV-2 received an Emergency Use Authorization on December 12, and a second

13

vaccine received Emergency Use Authorization on December 18, 2020. A small number of vaccine

14

doses have been distributed and vaccination of people in the highest risk categories, including

15

healthcare personnel at acute care facilities and residents and staff of skilled nursing and other long

16

term care facilities, began last week. There is no specific cure for COVID-19.
8.

17

In mild cases, COVD-19 may cause fever, fatigue, and cough. In severe cases, it may

18

cause shortness of breath and pneumonia, multi-organ system failure, and death. In some cases,

19

COVID-19 can cause neurological symptoms such as inability to taste or smell, tingling or

20

numbness in the hands and feet, confusion, seizures, and stroke. Evidence has shown that COVID-

21

19 can also cause long-term chronic health conditions, such as cardiovascular, neurologic, renal, and

22

respiratory damage and loss of limbs from blood clotting.1 These conditions may be experienced not

23

only by those who become seriously ill from COVID-19 but also by those who experience only mild

24

symptoms.2 Public health and healthcare officials are still learning about the long-term

25
26

1

Del Rio, C., et al., Long-term Health Consequences of COVID-19, JAMA, Vol. 324, No. 17, pp.
1723–24,
Oct. 5, 2020, https://doi.org/10.1001/jama.2020.19719.
27
2
Id.; Tenford, Mark W., et al., Symptom Duration and Risk Factors for Delayed Return to Usual
28 Health Among Outpatients with COVID-19 in a Multistate Health Care Systems Network–United
3
Declaration of Dr. Sara H. Cody in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-3 Filed 12/23/20 Page 4 of 36

1
2

complications associated with COVID-19, which was first identified in late 2019.
9.

The SARS-CoV-2 virus is highly contagious, spreading easily between individuals.

3

While the exact mechanisms by which SARS-CoV-2 spreads are still being studied, there is

4

consensus among epidemiologists that SARS-CoV-2 is spread primarily via an airborne route. The

5

novel coronavirus is spread primarily from person to person through respiratory droplets and

6

aerosols (that is, smaller particles that travel farther than respiratory droplets) produced when an

7

infected person coughs, sneezes, sings, shouts, or talks. SARS-CoV-2 may spread to a much lesser

8

extent by touching objects or surfaces that have been contaminated with the novel coronavirus and

9

then touching one’s mouth, nose, or eyes.

10

10.

People who have symptomatic SARS-CoV-2 infection are contagious and can spread

11

the infection to others. People with SARS-CoV-2 infection can also spread the virus to others before

12

any symptoms develop. In addition, there is broad consensus among epidemiologists that some

13

people with SARS-CoV-2 infection never develop symptoms (i.e. asymptomatic infection) and still

14

spread the virus. An estimated 40% of people with SARS-CoV-2 infection are asymptomatic.3

15

11.

There is consensus among epidemiologists that social distancing helps reduce the risk

16

of transmission.4 This is in part because maintaining at least six feet of physical distance between

17

persons substantially decreases the likelihood that sufficient respiratory droplets carrying SARS-

18

CoV-2 will enter a person’s mouth, nose, eyes, or lungs to cause a person to contract a SARS-CoV-2

19

infection. However, six feet of social distance is likely not adequate to prevent spread of SARS-

20

CoV-2 via aerosols, which can travel greater distances and linger in the air for much longer. The

21

risk of transmission is greater in indoor environments with crowding and poor ventilation. This risk

22
23
24
25
26
27
28

States, March–June 2020, CDC Morbidity & Mortality Wkly. Rep., Vol. 69, No. 31, pp. 993–98,
July 31, 2020, http://dx.doi.org/10.15585/mmwr.mm6930e1.
3
Oran, Daniel P., et al., Prevalence of Asymptomatic SARS-CoV-2 Infection: A Narrative Review,
Annals of Internal Med., Vol. 173, Issue 5, pp. 362–67, Sept. 1, 2020, https://doi.org/10.7326/M203012.
4
Alagoz, Oguzhan, et al., Effect of Timing of and Adherence to Social Distancing Measures on
COVID-19 Burden in the United States, Ann. of Internal Med., Oct. 27, 2020,
https://doi.org/10.7326/M20-4096.
4
Declaration of Dr. Sara H. Cody in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-3 Filed 12/23/20 Page 5 of 36

1

increases when people gather in indoor environments for long periods of time. As discussed below,

2

the risk increases further when people are shouting, singing, or engaging in heavy breathing because

3

these activities produce more droplets and aerosols than normal speaking. And the likelihood of

4

transmission further increases where there is widespread community transmission as this increases

5

the probability that a person at the gathering will be infectious.
12.

6

There is also consensus among epidemiologists that wearing a face covering over the

7

nose and mouth reduces the number of SARS-CoV-2 infections.5 The CDC reports that

8

“[e]xperimental and epidemiological data support community masking to reduce the spread of

9

SARS-CoV-2” and recommends “[a]dopting universal masking policies.”6 The use of face

10

coverings alone, however, is not sufficient to eliminate the risk of transmission. Face coverings are

11

one prevention strategy and must be paired with other strategies such as social distancing, increasing

12

ventilation, etc. For instance, as discussed below, face coverings are not perfect at preventing

13

transmission from a person singing. Face coverings are less likely to prevent transmission if they are

14

loosely fit, as droplets or aerosols are more likely to escape.
13.

15

The finding that some people with SARS-CoV-2 infection are asymptomatic

16

underscores the importance of following social distancing, always using a face covering, and

17

limiting contact with people outside of one’s household to the greatest extent possible. Because

18

people can be infected and not have symptoms, they may be unaware they are infected and

19

contagious, and therefore less likely to take steps or precautions to limit the spread of infection, like

20

staying at home. The relatively high percentage of infections that are asymptomatic means that

21
22
23
24
25
26
27
28

5

Brooks, John T., et al., Universal Masking to Prevent SARS-CoV-2 Transmission—The Time Is
Now, JAMA, Vol. 324, No. 7, pp. 635–37, July 14, 2020, https://doi/org/10.1001/jama.2020.13107;
Wang, Xiaowen, et al., Association Between Universal Masking in a Health Care System and SARSCoV-2 Positivity Among Health Care Workers, JAMA, Vol. 324, No. 7, pp. 703–04, July 14, 2020,
https://doi.org/10.1001/jama.2020.12897.
6
Scientific Brief: Community Use of Cloth Masks to Control the Spread of SARS-CoV-2, CDC (Nov.
10, 2020), https://www.cdc.gov/coronavirus/2019-ncov/more/masking-science-sars-cov2.html; Lyu,
Wei, et al., Community Use of Face Masks and COVID-19: Evidence from a Natural Experiment of
State Mandates in the US, HealthAffairs, Vol. 39, No. 8, June 16, 2020,
https://doi.org/10.1377/hlthaff.2020.00818.
5
Declaration of Dr. Sara H. Cody in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-3 Filed 12/23/20 Page 6 of 36

1

SARS-CoV-2 can spread silently, fueling community transmission, increasing community

2

prevalence and risk for the most vulnerable members of a population.
14.

3

Because none of these measures on their own is sufficient to eliminate the risk of

4

transmission, the CDC promotes a multipronged application of evidence-based strategies that

5

includes restrictions on “nonessential indoor spaces that pose the highest risk for transmission” in

6

addition to universal mask policies and social distancing requirements.”7 The restriction of indoor

7

gatherings is particularly important because the location, type, size, and duration of activity all

8

impact the risk of transmission, and indoor gatherings where people from different households

9

interact and remain in close proximity for extended periods of time create a high risk of

10

transmission.
March 16, 2020 Shelter-in-Place Order

11

15.

12

Santa Clara County recorded the first known death from COVID-19 in the entire

13

United States (February 7, 2020) in a person who had not traveled or had contact with a known case.

14

The County also announced two of the earliest cases of travel-associated COVID-19 in the United

15

States on January 31 and February 2.
16.

16

To slow community-wide virus transmission as much as possible in order to protect

17

the most vulnerable populations, prevent deaths, and prevent the health care system from being

18

overwhelmed, and after consideration of epidemiologic trends in countries with active COVID-19

19

epidemics and recognition of the potential for exponential growth in the setting of a non-immune

20

population, on March 16, 2020, I issued a shelter-in-place order directing all individuals living in the

21

County to shelter at their place of residence. Six other Bay Area jurisdictions issued similar shelter-

22

in-place orders on the same day.
17.

23
24

The goal of sheltering in place was to reduce the number of infections, to slow the

spread of infection, to ensure that communities had enough hospital capacity to care for people who

25
26
7

Honein MA, et al., Summary of Guidance for Public Health Strategies to Address High Levels of
Community Transmission of SARS-CoV-2 and Related Deaths, December 2020. MMWR Morb
28 Mortal Wkly Rep 2020;69:1860-1867. DOI: http://dx.doi.org/10.15585/mmwr.mm6949e2.
6
27

Declaration of Dr. Sara H. Cody in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-3 Filed 12/23/20 Page 7 of 36

1
2

developed severe illness, and ultimately, to save lives.
18.

The March 16 Order prohibited all individuals from leaving their place of residence,

3

except for the limited purposes of performing listed essential activities. The order prohibited all

4

travel, except essential travel, such as to carry out essential activities. All businesses with a facility

5

in the County, except certain essential businesses, were required to cease all activities at their

6

facilities except certain minimum basic operations. The order also prohibited all public and private

7

gatherings of any number, except with members of individuals’ own households.

8
9

19.

The order was based on evidence of the exponential growth of COVID-19 within the

County and then-current scientific evidence and best practices regarding the most effective

10

approaches to slow the transmission of the virus. It was understood then, as it is now, that a proven

11

way to decrease the probability of SARS-CoV-2 being spread from person to person is to limit

12

interactions among people to the greatest extent practicable. At the time, allowing exceptions other

13

than essential activities, businesses, and travel—even with social distancing and face coverings—

14

would have resulted in more interactions among people and more opportunity for infection to spread

15

from person to person, ultimately resulting in more infections and more illness and deaths. Limiting

16

the number, duration, and proximity of contacts between people was critical in reducing the

17

probability that the virus would spread from one person to another. Ensuring that every person

18

sheltered in place to the maximum extent feasible, therefore, was expected to reduce the rate of

19

transmission of the SARS-CoV-2 infection (i.e., “flatten the curve”) more quickly than if we had not

20

sheltered in place. This is especially true in a population—like the County’s—with no immunity to

21

the novel coronavirus.
March 31, 2020 Order to Continue Sheltering in Place

22
23

20.

On March 31, 2020, I issued an updated shelter-in-place order that superseded the

24

March 16, 2020 Order, to reinforce social distancing requirements, and to further reduce the total

25

volume of person-to-person contact occurring in the County. The March 31 Order extended the

26

shelter-in-place requirements through May 3, 2020. Six other Bay Area jurisdictions extended their

27

shelter-in-place orders on the same day.

28

21.

At that time, the public health emergency had substantially worsened since the March
7

Declaration of Dr. Sara H. Cody in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-3 Filed 12/23/20 Page 8 of 36

1

16 Order, with a significant escalation in the number of positive cases, hospitalizations, and deaths,

2

and a corresponding increasing strain on health care resources. At the same time, evidence

3

suggested that the restrictions on mobility and social distancing requirements imposed by the prior

4

orders were slowing the rate of increase in new cases, consistent with models of infectious disease

5

transmission in a non-immune population.

6

22.

The March 31 Order was more restrictive than the March 16 Order in a number of

7

ways because it included, amongst other more restrictive provisions: (1) mandatory social distancing

8

requirements; (2) additional restrictions on essential business; (3) a prohibition on the use of

9

playgrounds, dog parks, public picnic areas, and similar recreational areas; and (4) a prohibition on

10

the use of shared public recreational facilities such as golf courses, tennis and basketball courts,

11

pools, and rock walls. As a condition to operate, all open essential businesses were required to

12

prepare a protocol to implement various social distancing measures, such as limiting the number of

13

persons in the facility at a time and regularly disinfecting high-touch surfaces (“Social Distancing

14

Protocol”).

15

23.

The shelter-in-place orders slowed the spread of the virus. When the March 16 Order

16

was put in place, the number of new cases was growing rapidly. That changed with the March 16

17

and March 31 shelter-in-place orders.

18

24.

One of the most important indicators of the rate of growth of the SARS-CoV-2 virus

19

is what is called the “doubling time,” i.e., how many days it takes for the number of cases to double.

20

A shorter doubling time means that the infection is spreading rapidly; a longer doubling time means

21

that the infection is spreading more slowly. On March 16, when the first shelter-in-place order was

22

issued, the case count was doubling approximately every five days—indicating rapid, exponential

23

growth. By the beginning of May 2020, however, the doubling time had slowed to around three and

24

a half months. The shelter-in-place orders had been successful in significantly slowing the spread of

25

the virus—that is, they had flattened the curve.

26

25.

Model projections prepared by the County’s Public Health Department in

27

collaboration with infectious disease modeling experts at Stanford University’s School of Medicine

28

estimated that over the six-week period from March 16 through April 25, 2020, the County and State
8
Declaration of Dr. Sara H. Cody in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-3 Filed 12/23/20 Page 9 of 36

1

shelter-in-place orders prevented approximately 80 percent of the infections that otherwise would

2

have occurred.

3

26.

Flattening the growth curve of confirmed cases not only prevented illnesses and

4

hospitalizations and saved lives, it bought the County time to significantly increase hospital capacity

5

and healthcare resources, to improve clinical management and treatment, to better understand routes

6

of transmission, to provide resources for vulnerable populations at high risk of infection, to increase

7

testing capacity across the County, and to take other critical measures to further slow the rate of

8

spread and prevent the healthcare system from becoming overwhelmed.
April 29, 2020 Extended and Revised Shelter-in-Place Order

9
10

27.

To continue these trends, on April 29, 2020, I issued a revised shelter-in-place order

11

that superseded the March 31 Order. The April 29 Order went into effect at 11:59 p.m. on May 3,

12

2020 and extended most shelter-in-place restrictions through May 31, 2020. Reflecting the regional

13

progress made under shelter-in-place orders, six other Bay Area jurisdictions also issued similar

14

orders extending most shelter-in-place restrictions.
May 22, 2020 Order to Continue Sheltering in Place

15
16

28.

To further continue these trends, and based on the available epidemiological

17

evidence, on May 18, 2020, I issued another shelter-in-place order that superseded the April 29

18

Order. The order went into effect at 12:01 a.m. on May 22, 2020 and extended most shelter-in-place

19

restrictions.

20

29.

By this time, we had achieved progress in slowing the spread of the SARS-CoV-2

21

virus in Santa Clara County and the neighboring counties. Even so, because widespread SARS-

22

CoV-2 diagnostic testing was still not available across the County or the Bay Area region, many

23

infections still went undetected and contributed to silent spread of infection. Thus, continuation of

24

the prior shelter-in-place order remained necessary to suppress the rate of community spread, to

25

preserve critical and limited healthcare capacity in the County, to protect vulnerable populations, and

26

to prevent death. However, in light of progress in slowing the spread of infection, the May 22 Order

27

allowed a limited number of businesses and activities to resume operations, subject to specified

28

conditions and safety precautions to reduce any associated risk of SARS-CoV-2 transmission.
9
Declaration of Dr. Sara H. Cody in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-3 Filed 12/23/20 Page 10 of 36

30.

1

I did not lift all the prior restrictions because accepted principles of infectious disease

2

epidemiology, as demonstrated by the experiences of other regions in the U.S. and countries

3

combatting the pandemic, counseled in favor of a cautious and incremental approach towards

4

relaxing public health measures, particularly since the virus continued to circulate in the community;

5

pre-symptomatic and asymptomatic transmission of the virus presented a significant risk of silent

6

spread; and researchers, clinicians, and public health officials were still learning about the virus and

7

the range of health outcomes of the disease it causes.
June 5, 2020 Update to Shelter-in-Place Order

8

31.

9
10

On June 1, 2020, I announced amendments to the May 22 Order that went into effect

at 12:01 a.m. on June 5, 2020.
32.

11

When I announced the June 5 Order, the County and the greater Bay Area had

12

continued to make substantial progress in slowing the spread of SARS-CoV-2. Because of that

13

progress, and based on our developing understanding of the virus, the June 5 Order allowed certain

14

additional businesses and activities to resume, subject to restrictions to reduce transmission risk.

15

The order also kept key restrictions in place, requiring people to stay in their homes except when

16

engaging in certain essential or allowed activities. Appendix C-2 to the order details the additional

17

activities allowed and the accompanying restrictions on those activities under the update. As with

18

the previous orders, the June 5 Order required all businesses to complete and implement a Social

19

Distancing Protocol as a condition to operate.
33.

20

The June 5 Order also permitted the resumption of certain outdoor activities,

21

including non-contact recreational and athletic activities, dog parks, automobile gatherings, and

22

some types of gatherings—again all subject to restrictions. For example, outdoor ceremonies and

23

outdoor religious gatherings were allowed, subject to restrictions to mitigate the risk of transmission,

24

including social distancing and face covering requirements to be enforced by a designated “host.”

25

The June 5 Order limited these outdoor ceremonies and gatherings to 25 attendees. The order also

26

prohibited singing and shouting at ceremonies and gatherings due to the significantly increased risk

27

of SARS-CoV-2 transmission from these specific activities, described below.

28

///
10
Declaration of Dr. Sara H. Cody in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-3 Filed 12/23/20 Page 11 of 36

Developing Evidence of Risk of Transmission Indoors and Through Singing and Shouting

1

34.

2

Since the issuance of the June 5 Order, the evidence has grown that the risk of

3

transmission is higher with indoor activities than outdoor activities.8 Research has confirmed that

4

the virus that causes COVID-19 is primarily airborne, and spreads from person to person through

5

respiratory droplets and aerosols released into the air when singing, shouting, talking, coughing, or

6

sneezing. It is more likely that one will inhale respiratory droplets and aerosols from an infected

7

person in an indoor setting because aerosols disperse less easily indoors and can remain in the air for

8

a longer period of time. When outdoors, more frequent air movement and greater air volume

9

disperse respiratory droplets and aerosols, making SARS-CoV-2 transmission less likely.
35.

10

A study of COVID-19 outbreaks in China reported that all of the identified outbreaks

11

of three or more cases occurred in an indoor environment, confirming that sharing indoor space is a

12

major infection risk.9 Other studies have suggested that normal speaking causes airborne virus

13

transmission in confined environments,10 and that closed environments contribute to transmission of

14

COVID-19 and promote superspreading events.11
36.

15

The CDC advises that activities are safer when they are “held in outdoor spaces.”12

16

The CDC’s guidance to the public regarding whether and how to engage in public activities

17

identifies “indoor space” as a factor that can increase the risk of SARS-CoV-2 spread.13
37.

18

Limiting the size of gatherings is another important public health intervention

19
20
8

21
22
23
24
25
26
27
28

Leclerc, Quentin J., et al., What settings have been linked to SARS-CoV-2 transmission clusters?,
Wellcome Open Res., Vol. 5, No. 83, June 5, 2020,
https://doi.org/10.12688/wellcomeopenres.15889.2.
9
Qian, Hua, et al., Indoor transmission of SARS-CoV-2, Indoor Air, Accepted Author Manuscript,
Oct. 31, 2020, https://doi.org/10.1111/ina.12766.
10
Stadnytskyi, Valentyn, et al., The airborne lifetime of small speech droplets and their potential
importance in SARS-CoV-2 transmission, Proc. of the Nat’l Acad. of Sci., Vol. 117, No. 22, pp.
11875–77, June 2, 2020, https://doi.org/10.1073/pnas.2006874117.
11
Nishiura, Hiroshi, et al., Closed environments facilitate secondary transmission of coronavirus
disease 2019 (COVID-19), Apr. 16, 2020, https://doi.org/10.1101/2020.02.28.20029272.
12
Deciding to Go Out, CDC, https://www.cdc.gov/coronavirus/2019-ncov/daily-lifecoping/deciding-to-go-out.html (last updated October 28, 2020).
13
Id.
11
Declaration of Dr. Sara H. Cody in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-3 Filed 12/23/20 Page 12 of 36

1

because the risk of transmission increases with the size of the gathering. The larger the gathering,

2

the higher the likelihood that an infected person will be present. In addition, the larger the gathering,

3

the greater the number of people at risk of becoming infected at the gathering, who may in turn

4

infect others in the community at large. Limiting the size of gatherings in Santa Clara County is

5

particularly important now, because, as of the date of this declaration, the prevalence of SARS-CoV-

6

2 virus is higher than it has ever been, and the rate of new cases per 100,000 population per day is

7

rising faster than it ever has.
38.

8
9

There is also evidence of risks associated with singing and shouting, which informed

the prohibition on singing and shouting in the June 5 order (and in subsequent orders). Research has

10

shown that singing produces more and smaller droplets, as well as aerosols that can travel a longer

11

distance, increasing the risk of infection even with social distancing.14 Research has also indicated

12

that wearing a mask significantly reduces but does not completely eliminate the increased risk from

13

singing.15 While loud singing is particularly problematic, shouting and loud talking produce more

14

and smaller droplets as well as aerosols, increasing the risk of transmission.16
39.

15

In June 2020, the available evidence regarding indoor singing included a study of a

16

SARS-CoV-2 superspreading event—that is, an event where one infected person infects a larger

17

number of other people—published by the CDC in May 2020.17 As reported in the study, 61 people

18

attended a March 10, 2020 choir practice at which one person was known to have COVID-19

19

symptoms. Following that choir practice, 53 cases of SARS-CoV-2 infection were subsequently

20

identified. Three people were hospitalized, and two ultimately died. The study suggested that the

21

act of singing might have contributed to disease transmission through emission of aerosols, which is

22

affected by loudness of vocalization; and it concluded that “[t]he potential for superspreader events

23
24
25
26
27
28

14

Alsved, M., et al., Exhaled respiratory particles during singing and talking, Aerosol Sci. & Tech.,
Vol. 54, No. 11, pp. 1245–48, Sept. 17, 2020, https://doi.org/10.1080/02786826.2020.1812502.
15
Id.
16
Id.
17
Hamner, Lea, et al., High SARS-CoV-2 Attack Rate Following Exposure at a Choir Practice—
Skagit County, Washington, March 2020, CDC Morbidity & Mortality Wkly. Rep., Vol. 69, No. 19,
pp. 606–10, May 15, 2020, http://dx.doi.org/10.15585/mmwr.mm6919e6external icon.
12
Declaration of Dr. Sara H. Cody in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-3 Filed 12/23/20 Page 13 of 36

1

underscores the importance of physical distancing, including avoiding gathering in large groups, to

2

control spread of COVID-19.”
40.

3

Since the issuance of the June 5 Order, additional published reports have also

4

addressed the role of singing in disease transmission. A report published by the CDC examined

5

multiple SARS-CoV-2 infections at an overnight camp in Georgia.18 Five hundred ninety-seven

6

Georgia residents attended the camp, and of the 344 attendees for whom test results were available,

7

260 were positive for SARS-CoV-2. According to the report, indoor cohabitation, singing, and

8

cheering likely contributed to this outbreak: “Relatively large cohorts sleeping in the same cabin and

9

engaging in regular singing and cheering likely contributed to transmission.”
41.

10
11

Public reports have detailed the role of “superspreader” events, including indoor

gatherings, in community spread of the virus.19 For example:

12

In South Korea, as of March 25, at least 5,080 confirmed cases of COVID-19 were

13

traced back to a cluster of cases at a church in Daegu, arising from one 61-year-old

14

person who attended a religious service;20

15

In California, 71 cases of COVID-19 were linked to a church in Sacramento;21

16

///

17
18
18

19
20
21
22
23
24
25
26

Szablewski, et al. (August 2020) SARS-CoV-2 Transmission and Infection Among Attendees of an
Overnight Camp — Georgia, June 2020,
https://www.cdc.gov/mmwr/volumes/69/wr/mm6931e1.htm.
19
Because SARS-CoV-2 infections in humans were first identified in December 2019, research into
the virus, its mechanisms of transmission, and the short, medium, and long-term consequences of
infection in humans remains ongoing. The same public health departments that are responding to an
unprecedented pandemic are also the ones trying to carve out time to publish outbreak
investigations, but the publication process takes time. While press reports are certainly not given the
same weight as peer-reviewed research, in the context of this novel pandemic and because public
action to stem the pandemic cannot always wait for the peer-review process, the experience of other
public health officials and the circumstances that they confront, do inform my thinking regarding
how to protect all people living and working in Santa Clara County.
20
Shin, et al., How a South Korean church helped fuel the spread of the coronarvirus, Washington
Post, March 25, 2020, available at
https://www.washingtonpost.com/graphics/2020/world/coronavirus-south-korea-church/.
21

Chabria, et al., Pentecostal church in Sacramento linked to dozens of coronavirus cases, Los
Angeles Times, April 2, 2020, available at https://www.latimes.com/california/story/2020-0428 02/pentecostal-church-in-sacramento-linked-to-dozens-of-coronavirus-cases.
13
27

Declaration of Dr. Sara H. Cody in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-3 Filed 12/23/20 Page 14 of 36

1

In Kentucky, a church revival was linked to at least 28 cases and two deaths;22

2

In Texas, about 50 people contracted the virus after a pastor told congregants they

3

could once again hug one another;23

4

In West Virginia, there were at least 51 confirmed cases and three deaths tied to the

5

resumption of mask-optional services at a church in late May,24 and as of October, 18

6

outbreaks in 13 counties have been traced to church services in the State;25

7

In Pennsylvania, a dozen congregants tested positive after a church resumed in-person

8

services; 26

9

In Ohio, one man with SARS-CoV-2 infection attending a single church service led to

10

91 other people becoming infected, included 53 people who had been at the same

11

service;27

12

In North Carolina, at least 187 cases and 8 deaths have been linked to a church

13

revival;28

14

///

15
16
17
18
19
20
21
22
23
24
25
26
27
28

22

Loosmore, et al., Kentucky county ‘hit really, really hard’ by church revival that spread deadly
COVID-19, Louisville Courier Journal, April 2, 2020, available at https://www.courierjournal.com/story/news/2020/04/01/coronavirus-kentucky-churchrevival-leads-28-cases-2deaths/5108111002/.
23
Conger, et al., Churches Were Eager to Reopen. Now They Are a Major Source of Coronavirus
Cases, New York Times, July 8, 2020, available at
https://www.nytimes.com/2020/07/08/us/coronavirus-churches-outbreaks.html.
24
Id.
25
Nakia McNabb, At least 18 West Virginia COVID-19 Outbreaks Linked to Church Services,
Governor Says, CNN, October 19, 2020, available at https://www.cnn.com/2020/10/19/us/westvirginia-covid-churches-trnd/index.html.
26
Whelan, et al., After Philly’s First Church-Linked COVID-19 Outbreak, Pastors Urge Prayers for
the Sick, Inquirer, August 21, 2020, available at https://www.inquirer.com/news/tacony-churchcovid-outbreak-philadelphia-20200821.html.
27
Peter Grieve, Defiant Pastor Dismisses COVID-19 as Milder than the Flu Despite Superspreader
Event that Led to 91 Cases, August 18, 2020, available at
https://spectrumnews1.com/oh/columbus/news/2020/08/18/after-91-cases--church-pastor-says-virusis-milder-than-flu.
28
Alison Kuznitz, More COVID-19 Deaths Linked to Super-Spreader Event at Charlotte Church,
Charlotte Observer, November 4, 2020, available at
https://www.charlotteobserver.com/news/coronavirus/article246965397.html.
14
Declaration of Dr. Sara H. Cody in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-3 Filed 12/23/20 Page 15 of 36

1

In Maine, at least 49 cases and three hospitalizations have been linked to a church

2

fellowship event and in-person services in which attendees did not regularly wear

3

masks; 29 and after 62 people attended an indoor church wedding, more than 180

4

people have been infected, including at a long-term healthcare facility and a jail, and

5

8 people have died, none of whom attended the wedding.30

6

In Michigan, 187 infections were connected to an indoor bar and restaurant with a

7

live DJ and an open dance floor.31 Of the total cases traced back to the restaurant,

8

144 were people who had been to the venue and 43 were family members, friends,

9

and other contacts who had not.

10

In La Cross, Wisconsin, there was a substantial spike in SARS-CoV-2 cases (more

11

than 2,000) with the return to in-person instruction at the community’s three

12

universities.32 Researchers were able to use SARS-CoV-2 genomic sequencing to

13

trace COVID-19 clusters at two skilled nursing facilities—and two patient deaths—

14

back to student gatherings and parties.

15

In Boston, Massachusetts, a single person infected with a strain of the virus that

16

contained a particular mutation (which allowed for tracking of related infections),

17

attended a 200-person conference in February 2020, leading to a local superspreading

18

event and ultimately downstream spread across the United States and Europe, likely

19
20
21
22
23
24
25
26
27
28

29

Dustin Wlodkowski, COVID-19 Outbreak Centered on Maine Church Grows Again, NBC
Boston, October 22, 2020, available at https://www.nbcboston.com/news/local/covid-19-outbreakcentered-on-maine-church-grows-again/2216323/.
30
Barbara A. Walsh, The Uninvited Tragedy: A wedding – then six funerals, The Maine Monitor,
September 17, 2020, available at https://www.themainemonitor.org/the-uninvited-tragedy-awedding-then-six-funerals/; Roz Plater, How a Small Wedding in Maine Became a Deadly COVID19 Superspreader, Healthline, September 20, 2020, available at https://www.healthline.com/healthnews/how-a-small-wedding-in-maine-became-a-deadly-covid-19-superspreader.
31
Ariana E. Cha, ‘Superspreading’ events, triggered by people who may not even know they are
infected, propel coronavirus pandemic, The Washington Post, (July 18, 2020),
https://www.washingtonpost.com/health/2020/07/18/coronavirus-superspreading-events-drivepandemic/.
32
Richmond, Craig S., et al., SARS-CoV-2 sequencing reveals rapid transmission from college
student clusters resulting in morbidity and deaths in vulnerable populations, Oct. 14, 2020,
https://doi.org/10.1101/2020.10.12.20210294.
15
Declaration of Dr. Sara H. Cody in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-3 Filed 12/23/20 Page 16 of 36

1

causing hundreds of thousands of cases.33

2

In Massachusetts, more than 200 cases (more than 80% of them asymptomatic) have

3

been traced to events held at a single church on or around one specific Sunday.34

4

In Ohio, a wedding with 83 attendees resulted in 32 of the guests becoming infected,

5

including guests that had worn face coverings except when eating.35

6

In Washington, an indoor wedding has been linked to one death and is suspected of

7

leading to 23 other deaths of persons in long-term care facilities who did not

8

attending the wedding, as well as to numerous infections.36

9

In Texas, a funeral attended by more than 100 people, at which most guests wore face

10

coverings but did not socially distance, has been linked to more than 40 infections in

11

guests ranging from age 3 to age 90.37

12

In California, at least 64 cases have been linked to outbreaks stemming from a church

13

that held indoor services at three of its locations.38

14

In North Carolina, at least 75 people tested positive for COVID-19 following and

15
16
17
33

18
19
20
21
22
23
24
25
26
27
28

Jacob E. Lemieux, et. al., Phylogenetic analysis of SARS-CoV-2 in Boston highlights the impact of
superspreading events Science, Dec. 10, 2020, available at
https://science.sciencemag.org/content/early/2020/12/09/science.abe3261.
34
Kaitlin McKinley Becker, More Than 200 COVID-19 Cases Linked to Fitchburg Church, NBC,
Nov. 7, 2020, available at https://www.nbcboston.com/news/local/more-than-200-covid-19-caseslinked-to-fitchburg-church/2225433/?amp.
35
Jatara McGee, Cincinnati couple shares story after wedding becomes a 'super spreader' event,
WLWT5, Nov. 18, 2020, available at https://www.wlwt.com/article/local-couple-shares-story-afterwedding-becomes-a-super-spreader-event/34694908.
36
Kristin M. Kraemer, 24 COVID deaths possibly tied to Eastern WA superspreader wedding, TriCity Herald, Dec. 11, 2020, available at https://www.tricityherald.com/news/coronavirus/article247689390.html.
37
Alexandria Hein, Texas funeral became coronavirus superspreader event after 42 were sickened,
family claims, Fox News, Nov. 27, 2020, available at https://www.foxnews.com/health/texasfuneral-became-coronavirus-super-spreader-event-after-42-were-sickened-family-claims.
38
Brenda Gregorio-Nieto et al., Health Officials Alert Public Over 2 Additional Outbreaks at
Awaken Church Locations, December 3, 2020, available at
https://www.nbcsandiego.com/news/local/health-officials-alert-public-over-2-additional-outbreaksat-awaken-church-locations/2460223/.
16
Declaration of Dr. Sara H. Cody in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-3 Filed 12/23/20 Page 17 of 36

linked to a holiday-themed indoor church event.39

1

July 2, 2020 Risk Reduction Order and Transition to Harm Reduction Model

2

42.

3
4

On July 2, 2020, I issued a risk reduction order that superseded the May 22 Order as

amended on June 5. The July 2 Order went into effect at 12:01 a.m. on July 13, 2020.
43.

5

By this time, we had significantly increased the County’s capacity to detect cases

6

through widespread testing and to contain disease spread through both broad and focused

7

interventions; expanded our case investigation and contact tracing program and workforce; and

8

increased hospital resources and capacity to treat infected patients. Scientific knowledge about the

9

relative risks of various activities and the primary modes of transmission had also grown

10

significantly (though in many areas it was and continues to be relatively nascent). In addition,

11

residents in the County and greater Bay Area were suffering from “pandemic fatigue.” To ensure

12

more sustained compliance, and in light of our better understanding of key routes of transmission,

13

we transitioned from the initial shelter-in-place model to a less restrictive, longer-term “harm

14

reduction” model—a well-established public health strategy aimed at reducing the risk associated

15

with certain behaviors.
44.

16

In light of these circumstances, the July 2 Order allowed most activity, travel, and

17

business operations to resume, but subject to significant conditions and limitations to reduce the risk

18

of SARS-CoV-2 transmission, prevent serious illness and death, and ensure that healthcare resources

19

and capacity remained sufficient to meet the needs of the population.
45.

20

The July 2 Order required facilities that pose a high risk of transmission to remain

21

closed to the public, including any indoor facility used for activities where face coverings must be

22

removed, such as indoor dining, bars, and swimming pools.
46.

23
24

The July 2 Order permitted indoor and outdoor gatherings, but because gatherings of

any size outside of a single household carry significant risk of exposure to SARS-CoV-2, those

25
26
39

Simone Jasper, 75 COVID Cases Linked to Church Event in North Carolina, Officials Say,
Charlotte Observer, December 17, 2020, available at:
28 https://www.charlotteobserver.com/news/state/north-carolina/article247921435.html.
17
27

Declaration of Dr. Sara H. Cody in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-3 Filed 12/23/20 Page 18 of 36

1

gatherings were subject to restrictions, including facial covering requirements and attendance limits.

2

Indoor gatherings were limited to a maximum of 20 people, or one person per 200 square feet of

3

indoor space, whichever was fewer. Outdoor gatherings were limited to areas large enough to allow

4

for social distancing of all attendees, up to a maximum of 60 people.
July 8, 2020 Mandatory Directive for Gatherings

5
6

47.

On July 8, 2020, prior to the effective date of the July 2 Order, I issued a Mandatory

7

Directive for Gatherings. The July 8 Directive prohibited indoor gatherings, regardless of size, but

8

permitted outdoor gatherings of up to 60 people, subject to social distancing, use of face coverings,

9

and other restrictions. Under the directive, singing and shouting were not allowed at gatherings,

10
11

because of the evidence that these activities increase the risk of COVID-19 transmission.
48.

The directive—including the prohibition on indoor gatherings—was part of a targeted

12

response to case counts that had abruptly started to rise again in the County, neighboring counties,

13

and the region overall. It was also based on my judgment that restrictions on gatherings of people

14

from different households continued to be necessary to reduce community transition of the virus.

15

Indoor gatherings present a relatively high risk of transmission and infection, particularly gatherings

16

that are large, conducted in a space with poor ventilation, longer in duration, and include activities

17

like loud talking and singing.
July 13, 2020 State Public Health Order

18
19

49.

Based on the trend of the number of new cases and hospitalizations per day, on July

20

13, 2020, the State Health Officer ordered the closure of indoor operations for particular sectors

21

across the state, including indoor dining, wineries and tasting rooms, family entertainment centers,

22

movie theaters, zoos, museums, and cardrooms. In addition, the State Health Officer ordered the

23

closure of indoor operations for additional sectors in certain counties, including Santa Clara County,

24

effective July 15, 2020. These additional closures included indoor gyms and fitness centers, worship

25

services, protest activities, personal care services, and malls.
July 14, 2020 Mandatory Directives

26
27
28

50.

On July 14, 2020, I issued a number of directives in order to tailor the State’s general

framework to local conditions. Among other directives, I issued an updated Mandatory Directive for
18
Declaration of Dr. Sara H. Cody in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-3 Filed 12/23/20 Page 19 of 36

1

Gatherings clarifying that, in addition to the County’s restrictions, the State also prohibited indoor

2

worship and indoor protest activities. Outdoor worship services and outdoor protests in Santa Clara

3

County remained subject to the mandatory requirements in the directive.40
The County Begins Civil Enforcement of Public Health Orders

4

51. On August 11, 2020, the County’s elected Board of Supervisors unanimously adopted

5
6

an ordinance authorizing civil administrative fines for violations of the State and County Health

7

Officers’ orders related to the COVID-19 pandemic, including the July 2 Order, the Mandatory

8

Directive for Gatherings, the July 13 State Public Health Order and subsequent orders, and the

9

mandatory provisions of the State’s industry-specific guidance. My goal has always been to inform

10

the public regarding the COVID-19 pandemic to achieve voluntary compliance and safeguard their

11

health, but I understand that enforcement may nonetheless prove necessary. The long-term viability

12

of the orders and directives I have issued depends upon robust compliance in the County.
August 28, 2020 State Public Health Order

13

52.

14

On August 28, 2020, the State Public Health Officer issued a superseding order,

15

effective August 31, 2020, referred to as the “Blueprint for a Safer Economy.” That order

16

established a procedure for assigning counties to one of four tiers based on average case rates and

17

positivity rates of SARS-CoV-2, which in turn determined what activities would be allowed in the

18

county. Santa Clara County was initially assigned to the most restrictive Tier 1 (Purple), classified

19

as “widespread” transmission of the novel coronavirus. In Tier 1 counties, indoor church services

20

are prohibited, but outdoor services are permitted.
53.

21

On September 8, 2020, the California Department of Public Health announced that

22

Santa Clara County had moved to Tier 2 (Red), classified as “substantial” risk of community disease

23

transmission. Tier 2 counties can allow indoor gatherings and dining of up to 100 people or 25% of

24

capacity (whichever is less) as well as indoor personal care services with modifications; however,

25
26
40

On July 20, 2020, a revised Mandatory Directive for Gatherings included in the introductory box
at the top of the document clarifying information regarding the State’s exceptions to its prohibition
28 of gatherings.
19
27

Declaration of Dr. Sara H. Cody in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-3 Filed 12/23/20 Page 20 of 36

1

the State’s August 28 Order permitted counties to issue and enforce more restrictive measures: “[a]

2

local health jurisdiction may continue to implement or maintain more restrictive public health

3

measures if the jurisdiction’s Local Health Officer determines that health conditions in that

4

jurisdiction warrant such measures.”

5

54.

Given ongoing community transmission and the continuing risk facing county

6

residents, as well as the research establishing the significantly elevated risk associated with indoor

7

gatherings, I decided to maintain the prohibition on indoor gatherings after the County moved to Tier

8

2. Both the State and the County orders continued to prohibit singing and to require face coverings

9

and social distancing of at least six feet at all gatherings. I maintained the prohibition on indoor

10

gatherings because evidence shows that SARS-CoV-2 is spread primarily from person to person

11

through respiratory droplets and aerosols, and, as explained above, that the risk of transmission is

12

higher with indoor activities than outdoor activities.

13

55.

The evidence also suggests that indoor gatherings may pose a higher risk of

14

transmission than other kinds of activities that remain subject to different restrictions, including

15

because they are of a sustained duration. For example, when people from different households are

16

together in a grocery or retail store, they typically arrive and depart at different times, and they are

17

together for a shorter duration of time as compared to attendees at a coordinated gathering where

18

attendees linger. Further, grocery and retail shoppers may be less likely to be in close proximity to

19

other shoppers, as opposed to attendees at a gathering who have social connections to one another

20

and therefore may be inclined to have extended conversations in close proximity or physically hug

21

or touch one another. These shoppers are also less likely to engage in higher-risk activities like

22

singing or chanting, as opposed to attendees at an indoor gathering like a church congregation or

23

community sponsored music concert. Thus, the risk of transmission is generally lower in a setting

24

with brief contact between individuals, particularly ones who do not personally know one another

25

and are less likely to speak to or closely interact with one another, as compared to a setting such as a

26

gathering that promotes sustained contact.

27
28

56.

Although I decided not to remove the prohibition on indoor gatherings after the

County moved to Tier 2 on September 8, 2020, I revised the Mandatory Directive for Gatherings on
20
Declaration of Dr. Sara H. Cody in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-3 Filed 12/23/20 Page 21 of 36

1

September 5, 2020, to relax restrictions on outdoor gatherings consistent with developing research

2

regarding transmission risks and the experiences in other jurisdictions easing certain restrictions.41

3

Specifically, I removed the prohibition on singing, chanting, and shouting at outdoor gatherings,

4

provided that people wore face coverings and maintained social distancing at all times when engaged

5

in those activities. The directive also permitted playing wind instruments at outdoor gatherings,

6

provided that people placed a cloth covering over the mouth of the instrument. Additionally, I

7

revised the directive to allow the use of canopies, awnings, umbrellas, tents, and other structures for

8

outdoor gatherings provided that three sides or 75% of the structure were open to the air. Finally, I

9

eased restrictions to make it easier for entities to host simultaneous but separate outdoor gatherings

10

of 60 or fewer people by allowing use of the same restroom facilities, provided that there was

11

sufficient restroom capacity or a system of use in place to avoid participants in different gatherings

12

interacting with one another while using the restrooms.
October 5, 2020 Revised Risk Reduction Order

13

57.

14

On October 5, 2020, I issued a revised risk reduction order that would go into effect

15

and supersede the July 2 Order the day after the California Department of Public Health re-assigned

16

Santa Clara County from Tier 2 to Tier 3 (Orange), classified as “moderate” risk of community

17

disease transmission. On October 13, 2020, the State moved Santa Clara County into Tier 3. Thus,

18

the revised risk reduction order went into effect at 12:01 a.m. on October 14, 2020, and remains in

19

effect as of the date of this declaration.
58.

20

To better align the County’s rules with the State’s rules, the October 5 Order allowed

21

many businesses and activities to resume to the extent allowed under the State’s rules for Tier 3

22

counties. However, I decided to maintain stricter restrictions on activities that pose a particularly

23

high risk of a superspreader event, including indoor gatherings.
October 13, 2020 Revised Mandatory Directives

24

59.

25

On October 13, 2020, the day Santa Clara County moved into Tier 3, I revised a

26
27
28

41

On September 8, 2020, I revised the Mandatory Directive for Gatherings to make clarifying
changes to the introductory box at the top of the document.
21
Declaration of Dr. Sara H. Cody in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-3 Filed 12/23/20 Page 22 of 36

1

number of directives. I did so based on the trends of new cases and hospitalizations in the County,

2

growing evidence regarding the virus and how it is transmitted, and the experiences of other

3

jurisdictions that similarly eased certain restrictions.
60.

4

At that time, I revised the Mandatory Directive for Gatherings to further relax

5

restrictions on outdoor gatherings and to remove the prohibition on indoor gatherings. The directive

6

limited outdoor gatherings to 200 people (up from 60 in the prior directive) and required that such

7

gatherings take place in an area large enough to allow for social distancing of all attendees.

8

Although they were strongly discouraged in the directive, I also allowed indoor gatherings to resume

9

at the level provided in the State’s restrictions applicable to Tier 2 counties, which limits such

10

gatherings to 100 people or 25% of the facility’s capacity, whichever is fewer. There is growing

11

evidence that reopening facilities at reduced capacity is an effective way to reduce the risk of

12

transmission indoors.42 Under the October 13 directive, face coverings were almost always required

13

at all times at all gatherings. Although attendees at outdoor gatherings could temporarily remove

14

their face coverings to eat or drink, food and drink could not be served at any indoor gatherings

15

except as necessary to carry out a religious ceremony given the high risk of transmission indoors.

16

For similar reasons, although permitted at outdoor gatherings subject to specific requirements,

17

singing, chanting, and playing wind instruments remained strictly prohibited at indoor gatherings

18

under this directive. However, singing was allowed indoors if it was for a livestream production,

19

presentation, or service without an audience present, and if the singer remained physically distant

20

from other persons present (who had to keep their face coverings on). As with outdoor gatherings, a

21

venue could host multiple indoor gatherings at the same time subject to specific requirements. If a

22

venue hosted multiple indoor gatherings at the same time, each gathering had to comply with the

23

requirements of the October 5 Order and directive—which included submitting and implementing a

24

Social Distancing Protocol, mandating the use of face coverings in all circumstances required by the

25

State’s guidance, complying with the capacity limitations described above, maximizing ventilation,

26
27
28

42

Chang, Serina, et al., Mobility network models of COVID-19 explain inequities and inform
reopening, Nature, Nov. 10, 2020, https://doi.org/10.1038/s41586-020-2923-3.
22

Declaration of Dr. Sara H. Cody in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-3 Filed 12/23/20 Page 23 of 36

1

and designating a host responsible for ensuring compliance with all applicable requirements—and be

2

fully separated by solid floor-to-ceiling walls or other partitions from any other gathering.

3

Participants could not mix or enter common spaces with participants from any other gatherings.
61. Subsequent studies published since the summer have continued to identify indoor

4
5

singing—especially without risk mitigation measures like face coverings and social distance—as an

6

activity with a high risk of disease transmission. For example, one study published by Aerosol

7

Science and Technology in September 2020 concluded that “singing in groups is likely to be an

8

activity at risk of transmitting infection” without appropriate measures, which include “distancing,

9

hygiene, ventilation and shielding.” 43 Even with certain risk mitigation measures, however, singing

10

poses an elevated risk of transmission. The study found that although wearing an ordinary surgical

11

face mask reduced the amount of aerosols and droplets a person emitted while singing, the amount

12

was still comparable to the amount emitted by a person speaking without a mask.44 And that

13

measurement did not consider the number of particles that may have exited on the sides of masks

14

with a loose fit.45 Another recent study published by the International Journal of Indoor

15

Environment and Health examined the same March 10, 2020 indoor choir rehearsal that was the

16

subject of the CDC study discussed above and likewise concluded that group singing indoors poses a

17

high risk of transmission.46
Orchard Community Church and The Home Church’s Compliance with the
Health Officer’s Orders and Directives

18
19

62.

20
21

I am aware of the lawsuit filed by Gateway City Church, The Home Church, the

Spectrum Church of the San Francisco Bay Area, Orchard Community Church of Campbell, and

22
23
43

Alsved, et al. (September 2020) Exhaled Respiratory Particles During Singing and Talking,
https://www.tandfonline.com/doi/full/10.1080/02786826.2020.1812502.
25 44 Id.
45
Id.
26
46
Miller, et al. (September 2020) Transmission of SARS-CoV-2 by inhalation of respiratory aerosol
27 in the Skagit Valley Chorale superspreading event,
https://onlinelibrary.wiley.com/doi/full/10.1111/ina.12751.
24

28

23
Declaration of Dr. Sara H. Cody in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-3 Filed 12/23/20 Page 24 of 36

1

Trinity Bible Church. I am informed that Orchard Community Church held worship services

2

indoors for six Sundays in direct violation of the County’s Gatherings Directive and has held

3

worship services indoors, without masks and social distancing. I am also informed that The Home

4

Church held indoor worship services for at least three weeks where the church did not enforce social

5

distancing or require congregants to wear masks while seated next to one another.

6

63.

Based on this understanding, it is my view that activities like those of the Orchard

7

Community Church and The Home Church in violation of State and County public health orders is

8

unsafe, detrimental to public health, and poses a significant risk of new infections, leading to

9

potential hospitalization and death for members of the churches as well as others in the broader

10

County community to whom they may spread the disease. It also may encourage other businesses

11

and religious institutions to similarly violate the orders and applicable directives and guidance.

12

Given the ongoing and now rapidly rising community transmission of SARS-CoV-2 in the County, it

13

is only a matter of time before large, indoor gatherings without social distancing or face coverings

14

result in disease transmission; and, unfortunately, these conditions could result in a superspreader

15

event, if they have not done so already. Adverse outcomes from a superspreader event may include

16

multiple infections, hospitalizations, chronic health problems, and even deaths. Consistent with

17

well-established public health principles, this pandemic has demonstrated that community members’

18

adherence to or disregard for public health measures, can either prevent or increase the likelihood of

19

superspreader events, here in the County and across the globe. Even one or two superspreader

20

events could set off multiple chains of transmission with far reaching and deleterious downstream

21

consequences.

22

64. I am aware that Plaintiffs in this litigation have argued there is no evidence that indoor

23

worship has led to COVID-19 in the County generally or at their churches specifically. Even if

24

Plaintiffs are not aware of any COVID-19 cases connected to their churches, that does not mean

25

there have not been any such cases or will not be any such cases. We know that people can have

26

SARS-CoV-2 infection, never develop symptoms (asymptomatic infection), and transmit the virus.

27

An estimated 40% of people with SARS-CoV-2 infection are asymptomatic. I am not aware that

28

any worship services held in the County require testing of congregants for SARS-CoV-2.
24
Declaration of Dr. Sara H. Cody in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-3 Filed 12/23/20 Page 25 of 36

1

Moreover, we know that persons who are asymptomatic, but infected, can spread the SARS-CoV-2

2

infection to others—meaning that a person could become infected by SARS-CoV-2 at a worship

3

service held indoors, remain asymptomatic, and unknowingly transmit the infection to persons who

4

may have never set foot into any of the place of worship’s facilities. And some of those persons

5

could become ill, hospitalized, and/or die from COVID-19. Thus, even if Plaintiffs had some type of

6

data that could actually show that none of the persons who have attended their services in the last 6-7

7

months have become ill or died from SARS-CoV-2, they still cannot conclude that no person in the

8

wider community has been infected, because virus from an asymptomatic church member could

9

have been, or could be, transmitted to members of the wider community.

10

65. We need to keep the level of community transmission of SARS-CoV-2 low to protect

11

our most vulnerable residents. By way of example, we have seen a persistent and concerning

12

infection, hospitalization and mortality rate among residents of long term care facilities—both

13

skilled nursing facilities and assisted living facilities—once SARS-CoV-2 is introduced into the

14

facility. During the month of October 2020, the majority of deaths from COVID-19 occurred in

15

residents of our County’s long-term care facilities. We know from experience that once a COVID-

16

19 outbreak starts within a facility, it is exceedingly difficult to control. One pattern that we have

17

seen frequently at long-term care facilities is that a person who works at the facility becomes

18

infected in the community, remains asymptomatic, and unknowingly spreads the infection to others

19

working at or being cared for at the facility. The higher the level of transmission in the community

20

as a whole, the higher the probability that a person who works at that facility will become infected in

21

the community and introduce the virus into a long-term facility and cause an outbreak. Many of

22

these outbreaks lead to death of vulnerable residents. By suppressing community transmission to the

23

greatest extent possible, we can offer greater protection to our most vulnerable residents.

24

Fall Surge and Revised Mandatory Directives

25

66. The United States experienced an accelerating surge in COVID-19 cases beginning in

26

early November. As noted above, starting November 4, 2020, the United States has recorded more

27

than 100,000 new cases each day with many days surpassing the previous single-day record and each

28

day’s total eclipsing the summer’s single-day record of 77,300 new cases in mid-July.
25
Declaration of Dr. Sara H. Cody in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-3 Filed 12/23/20 Page 26 of 36

1

67. Unfortunately, case counts, positivity rates, and hospitalizations likewise began to

2

accelerate rapidly in Santa Clara County. For example, as of October 24, 2020, there had been

3

24,014 cases confirmed in the County, the seven-day running average of new cases per day was 114,

4

and 388 County residents had died with COVID-19. In comparison, as of November 29, 2020, there

5

had been 33,732 cases confirmed in the County, the seven-day running average of new cases per day

6

was 417, and 476 County residents had died with COVID-19. In other words, the seven-day running

7

average of new cases in the County more than tripled during that time period. The County also saw

8

a sharp rise in hospitalizations for COVID-19 during the month of November: The number of

9

people hospitalized with COVID-19 went from 86 people on November 1, 2020; to 135 people on

10

November 14, 2020; to 272 people on November 28, 2020. And those numbers have gotten

11

dramatically worse in December: As of December 22, 2020, there had been 57,452 cases confirmed

12

in the County; the most recent seven-day running average of new cases per day was 1,183; 607

13

County residents had died with COVID-19; and 621 people were hospitalized with COVID-19. The

14

seven-day running average of new cases in the County thus almost tripled again from November to

15

December.

16

68. In response to the rapid rise in case rates and increasing positivity rate and

17

hospitalizations in Santa Clara County, the Bay Area, and California, I determined that it was

18

necessary to impose renewed restrictions on certain high-risk activities in order to blunt the rapid

19

rise in case rates and prevent the expected additional hospitalizations and deaths that generally

20

follow. Other Bay Area officials made similar determinations. As one example, effective

21

November 17, 2020, the Mandatory Directive for Dining, Bars, Wineries, and Smoking Lounges

22

prohibits indoor dining and indoor tasting activities at wineries based on the consensus among public

23

health experts that indoor activities, especially without face coverings, pose a higher risk of

24

transmission than outdoor activities.

25

69. On November 16, 2020, the State announced that Santa Clara County would move from

26

Tier 3 (Orange) directly into the most restrictive Tier 1 (Purple), effective November 17, 2020.

27

Impacts of this reassignment included the closure of indoor dining, which had already been planned

28

in the County, as well as the closure of all indoor activities associated with gyms, museums, zoos,
26
Declaration of Dr. Sara H. Cody in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-3 Filed 12/23/20 Page 27 of 36

1

and aquariums. Indoor gatherings, including at places of worship and movie theaters, were also

2

prohibited. In addition, shopping malls and retail establishments were required to reduce their

3

indoor capacity to 25%.
70. In addition, effective November 17, 2020, the new Mandatory Directive on Capacity

4
5

Limitations established capacities for various sectors and activities.47 I issued this directive based on

6

the growing evidence that reducing capacity is an effective way to reduce the risk of transmission

7

indoors.48 I also revised the Mandatory Directive on Gatherings to specify that the State’s

8

determination that the County has been assigned to the Purple Tier resulted in the prohibition of all

9

indoor gatherings, effective November 16, 2020.

10

November 19, 2020 State Public Health Order

11

71. On November 19, 2020, the State Public Health Officer issued a temporary order

12

referred to as the “Limited Stay at Home Order.” This order, which was issued to address the

13

unprecedented fall surge of COVID-19 cases described above, took effect on November 21, 2020,

14

and is scheduled to remain in effect until December 21, 2020, unless extended or revised by the State

15

Public Health Officer.
72. To reduce opportunities for transmission of COVID-19 in the community, the State’s

16
17

Limited Stay at Home Order placed additional restrictions on counties in Tier 1 (Purple) of the

18

State’s Blueprint for a Safer Economy. In those affected counties, the State’s Limited Stay at Home

19

Order prohibited all activities involving interaction or gathering—either indoors or outdoors—with

20

members of other households between the hours of 10:00 p.m. and 5:00 a.m., except (a) for certain

21

activities associated with the operation, maintenance, or use of critical infrastructure, as specified on

22

the State’s Essential Critical Infrastructure Workers list, or (b) for those activities required by law.

23

73. The stated intent of the State’s Limited Stay at Home Order was to decrease the amount

24

of time individuals would be mixing in the community with people outside their own households, as

25
26

47

Before this directive, businesses and community members had to refer to multiple directives, as
well as State guidance, to determine applicable capacity limitations (if any) for particular sectors or
27 activities.
48
Chang, supra.
28
27
Declaration of Dr. Sara H. Cody in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-3 Filed 12/23/20 Page 28 of 36

1

such interactions present opportunities for disease transmission. The Limited Stay at Home Order

2

placed restrictions from 10:00 p.m. to 5:00 a.m. because the State Public Health Officer determined

3

that activities and gatherings that occur during that timeframe are often non-essential, social

4

activities during which reduced inhibitions would more likely lead to disregard of COVID-19

5

preventative measures, such as maintaining physical distance or using face coverings. Thus, under

6

this Limited Stay at Home Order, individuals in Tier 1 (Purple) counties were prohibited from

7

engaging in non-essential activities—like dining outdoors at a restaurant or going to an outdoor

8

movie—between the hours of 10:00 p.m. and 5:00 a.m.
November 30, 2020 Revised Mandatory Directives and Travel Directive

9

74.

10

By late November, the number of Santa Clara County residents contracting COVID-

11

19 and the number of patients hospitalized with COVID-19 had continued to rise significantly. On

12

November 28, 2020, there were 760 new cases of COVID-19 and 239 COVID-related

13

hospitalizations, 71 of whom were in the ICU. Based on infectious disease models by colleagues at

14

UCSF and Stanford, the rapidly rising numbers of patients needing hospitalization for COVID was

15

projected to exceed the available staffed hospital beds by the second or third week of December if

16

actions to dramatically decrease levels of community transmission were not taken immediately.
75.

17

To reduce the likelihood of a surge in hospitalizations that would exceed the capacity

18

of hospitals in the County, I made several changes to the Mandatory Directives, including requiring

19

retail stores, limited service facilities, and most other facilities open to the public to be limited to

20

10% capacity indoors49; requiring facilities open to the public to establish a “metering system” to

21

ensure applicable capacity limits are not exceeded; and closing cardrooms; among other changes. I

22

also reduced the maximum number of people who could attend an outdoor gathering from 200

23

people to 100 people.
76.

24
25

The risk of COVID-19 transmission in Santa Clara County increases as people travel

in and out of the county because those travelers interact with members of other communities,

26
27
28

49

Grocery stores, drug stores, and pharmacies were allowed to operate at 25% capacity indoors to
ensure adequate access to food and medicine.
28
Declaration of Dr. Sara H. Cody in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-3 Filed 12/23/20 Page 29 of 36

1

including communities where the prevalence of COVID-19 may be higher than in Santa Clara

2

County. Therefore, in a further attempt to stem the significant increases in COVID-19 cases and

3

related hospitalizations in Santa Clara County, I issued, on November 28, 2020, a Mandatory

4

Directive on Travel discouraging all travel, especially for non-essential purposes. This Mandatory

5

Directive on Travel requires most travelers who nevertheless travel into Santa Clara County from

6

more than 150 miles away to quarantine, meaning they are prohibited from having contact with

7

individuals from outside of their household or their immediate traveling party. Quarantine after

8

travel will ensure that long-distance travelers do not introduce new COVID-19 cases (and,

9

potentially, subsequent chains of transmission) into the Santa Clara County community from their

10

location of origin. And requiring long-distance travelers to quarantine will lower the risk that

11

asymptomatic or pre-symptomatic COVID-19-positive travelers will unwittingly transmit the disease

12

to others in the county.
77.

13

These revised and new Mandatory Directives took effect on Monday, November 30,

14

at 12:01 a.m. and will remain in effect until at least December 21, 2020 at 5:00 a.m. unless they are

15

extended.50
December 3, 2020 State Regional Stay At Home Order

16

78.

17

In response to the continuing fall surge of COVID-19 cases in California, which had

18

led to a dramatic increase in hospitalizations throughout the state, the State issued a Regional Stay at

19

Home Order on December 3, 2020, in an attempt to keep hospitals across the state from being

20

overwhelmed.
79.

21

Under the Regional Stay at Home Order, the State monitors the hospital intensive

22

care unit (“ICU”) capacity in each of five geographic regions established by the State. The State

23

placed Santa Clara County in the “Bay Area” region with Alameda, Contra Costa, Marin, Monterey,

24

Napa, San Francisco, San Mateo, Santa Clara, Santa Cruz, Solano, Sonoma Counties. If a region’s

25

hospital ICU capacity falls below 15%, it triggers the Regional Stay at Home Order’s restrictions on

26
27
28

50

On December 2, 2020, I issued an amended Mandatory Directive on Travel that clarified the
exemptions from the mandatory quarantine requirement for some travelers.
29
Declaration of Dr. Sara H. Cody in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-3 Filed 12/23/20 Page 30 of 36

1

the types of activities permitted in the region. Once a region falls below the 15% trigger, residents

2

are prohibited from gathering with members of other households—indoors or outdoors—at any time

3

of day, with limited outdoor exceptions for worship services, political activities, and cultural

4

ceremonies. Residents in the region must stay at home or at their place of residence at all times,

5

except for (a) certain activities associated with the operation, maintenance, or use of critical

6

infrastructure, as specified on the State’s Essential Critical Infrastructure Workers list, (b) activities

7

required by law, or (c) activities specifically permitted in the Regional Stay at Home Order.
80.

8
9

When a region falls below the 15% hospital ICU capacity trigger, the Regional Stay

at Home Order prohibits most activities that would otherwise be permitted in the region, even under

10

Tier 1 (Purple), which is the most restrictive tier in the State’s Blueprint for a Safer Economy. For

11

example, the following activities would be prohibited in a region that has fallen under the 15%

12

trigger, even though such activities would otherwise be permitted even under Tier 1: dining outdoors

13

at a restaurant; receiving personal care services, such as a haircut, a manicure, or a tattoo; going to

14

an outdoor zoo or museum; and gaming at an outdoor cardroom. In my opinion, restricting these

15

types of activities is important to slow the rate of disease transmission and to keep the region’s

16

healthcare system from becoming overwhelmed in this moment when the region’s healthcare system

17

is under significant strain.
81.

18

In addition to prohibiting certain activities in regions that have hit the 15% hospital

19

ICU capacity trigger, the Regional Stay at Home Order also imposes further restrictions on those

20

businesses that are allowed to continue operating in those regions. For example, the Regional Stay

21

at Home Order imposes stricter capacity limitations on retailers. Retailers, other than stand-alone

22

grocery stores, are required to reduce the number of people inside their indoor facility to 20% of

23

normal capacity, down from the 25% capacity limit in Tier 1 (Purple). Stand-alone grocery stores

24

must reduce their capacity to 35% of normal, down from the 50% capacity limit in Tier 1 (Purple).51

25
26

51

The Regional Stay at Home Order issued on December 3, 2020, originally limited all retailers,
including
stand-along grocers, to a 20% capacity. However, the State amended the capacity
27
limitation on stand-alone grocery store, increasing it to 35%, in its December 6, 2020, Supplement to
28 Regional Stay at Home Order.
30
Declaration of Dr. Sara H. Cody in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-3 Filed 12/23/20 Page 31 of 36

1

In my opinion, reducing the capacity of indoor retail spaces is an important tool to lower the

2

opportunities for disease transmission, because reducing the number of people in an indoor space

3

reduces the volume of respiratory droplets and aerosols being released into that space, and provides

4

more room for individuals to stay physically distanced from one another. The use of occupancy or

5

capacity limits is recommended by the CDC,52 and its efficacy is supported by current models of

6

mobility and disease transmission.53
December 4, 2020 Mandatory Directive Implementing
State’s Regional Stay at Home Order

7
8

82.

9

On December 4, 2020, I, along with the Health Officers for the Counties of Alameda,

10

Contra Costa, Marin, and San Francisco, as well as the City of Berkeley, jointly announced that our

11

respective jurisdictions would implement the State’s Regional Stay at Home Order early, rather than

12

waiting for our Bay Area region to fall below the 15% hospital ICU capacity trigger, which at that

13

time was expected to occur in mid- to late-December.
83.

14

I made this decision for Santa Clara County based on the dramatically rising case

15

rates and hospitalization rates in the county. While the Bay Area Region’s hospital ICU capacity was

16

still above the 15% trigger at the time of my decision, Santa Clara County’s hospital ICU capacity

17

had already fallen below 15%. Furthermore, because of the significant lag between when people

18

become infected with COVID-19 and when they may need to be hospitalized, I was concerned that

19

Santa Clara County’s healthcare system was at imminent risk of being overwhelmed. Thus, I

20

determined that immediate further action was necessary to slow the spread of COVID-19 in the

21

county. Since the December 4, 2020 announcement, ICU capacity has continued to fall, as reflected

22

in the data published on the County’s COVID-19 Hospitalizations Dashboard as of December 23,

23
24
25

52

Honein MA, et al., Summary of Guidance for Public Health Strategies to Address High Levels of
Community
Transmission of SARS-CoV-2 and Related Deaths, December 2020. MMWR Morb
26
Mortal Wkly Rep 2020;69:1860-1867. DOI: http://dx.doi.org/10.15585/mmwr.mm6949e2.
27 53 Chang S., et al., Mobility network models of COVID-19 explain inequities and inform reopening.
Nature (2020). https://doi.org/10.1038/s41586-020-2923-3
28

31
Declaration of Dr. Sara H. Cody in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-3 Filed 12/23/20 Page 32 of 36

1

2020:

2

;~

•

Hospitals' Occupancy Relative to Current Capacity

~ ~-"

Last updated on December 22. 2020

3

Current ICU Bed Availability Trends
Number of ICU Beds
Currently Available

4

Topic:

i=@fMiffiijS

Occupied

Beds

nme Frame.

====:
Fli'l·@h

;;;;.es

HEAL H
Non-ICU Beds
Historical

(includes staffed surge beds)

33

70 "

5

60

Percent of ICU Beds
Currently Available

6

~

10%

]

ii.

Percent of ICU Beds

with COVID-19
Patients

9

40

a

~

8

"~ ,..,

50

(includes staffed surge beds)

~

7

30

I I

20

10

41%

10
11

Dis~aying.

PUBL'C

• ICU Beds Available {incl staffed surge beds) • 7-Dlly Aver~e Bed Availaobil ity

84.

The County’s Mandatory Directive Implementing State’s Regional Stay at Home

12

Order took effect on December 6, 2020, and will remain in place until January 4, 2021, unless

13

otherwise rescinded, modified, or extended.

14

85.

As part of my decision to implement the State’s Regional Stay at Home Order, I also

15

amended the County’s Mandatory Directive on Capacity Limitations. The December 4, 2020,

16

amendments to the Mandatory Directive on Capacity Limitations require all retailers to reduce the

17

number of people inside their indoor facility to 20% of normal capacity, aligning the County’s

18

capacity limitations on retailers with those of the State and the surrounding jurisdictions. Like the

19

State’s Regional Stay at Home Order, the County’s revised Mandatory Directive on Capacity also

20

prohibited or continued to prohibit restaurants, card rooms, personal care businesses, and non-

21

essential limited services, like pet groomers, from operating indoors or outdoors.

22

86.

On December 4, 2020, I also amended the County’s Mandatory Directives on

23

Gathering to clarify that under the Regional Stay at Home Order’s, both indoor and outdoor

24

gatherings with members of other households are prohibited, except for outdoor worship services,

25

political events, car-based gatherings, and cultural ceremonies of up to 100 people.

26
27
28

*
87.

*

*

As the surging case rates demonstrate, there is still ongoing and accelerating

community transmission of SARS-CoV-2 in the County, and a recent national seroprevalence study
32
Declaration of Dr. Sara H. Cody in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-3 Filed 12/23/20 Page 33 of 36

1

estimates that the vast majority of California residents—more than 96%—have not been exposed to

2

the virus and still have no immunity.54 As such, our community and the greater Bay Area are still

3

facing the risk of uncontrolled new infections, illnesses, hospitalizations, and deaths. In light of

4

these ongoing risks, accepted public health principles counsel a cautious and incremental approach.

5

Keeping a risk reduction order in place remains critical to our ability to protect the community and

6

control the ongoing surge of COVID-19 cases.
88.

7

I understand that a minority of public commentators have called for a more hands-off

8

approach than the one I have taken. Some of these commentators urge a “herd immunity” approach,

9

relying on the assumption that uncontrolled spread of the virus will create widespread immunity

10

against later infection and eventually bring the pandemic to an end. I agree with the vast majority of

11

infectious disease epidemiologists and public health professionals who reject the “herd immunity”

12

strategy. Achieving such immunity would take a significant amount of time—some estimate as long

13

as 18 to 24 months55—and would almost certainly result in a staggering number of infections and

14

deaths.
89.

15

Santa Clara County, the Bay Area, the State of California, the United States, and the

16

rest of the world have not seen a public health threat like this in more than 100 years. The SARS-

17

CoV-2 virus has infected persons of all ages and all health conditions. But this public health

18

emergency will not last forever. Progress has been made on therapeutic treatments for COVID-19,

19

including antivirals, monoclonal antibodies, and convalescent plasma therapy.56 In addition, two

20

vaccines for SARS-CoV-2 have recently received Emergency Use Authorization, initial allocations

21

have already arrived in Santa Clara County, and vaccination of healthcare personnel and other

22
23
54

24
25
26
27
28

Shuchi, Anand, et al., Prevalence of SARS-CoV-2 antibodies in a large nationwide sample of
patients on dialysis in the USA: a cross-sectional study, The Lancet, Vol. 396, Issue 10259, pp.
1335–44, Oct. 24, 2020, https://doi.org/10.1016/S0140-6736(20)32009-2.
55
Moore, Kristine A., et al., COVID-19: The CIDRAP Viewpoint, Ctr. For Infectious Disease Res. &
Pol. (Apr. 30, 2020), https://www.cidrap.umn.edu/sites/default/files/public/downloads/cidrapcovid19-viewpoint-part1_0.pdf.
56
Shawn Radcliffe, Here’s Exactly Where We Are with Vaccines and Treatments for COVID-19,
Healthline (Dec. 8, 2020), https://www.healthline.com/health-news/heres-exactly-where-were-atwith-vaccines-and-treatments-for-covid-19.
33
Declaration of Dr. Sara H. Cody in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-3 Filed 12/23/20 Page 34 of 36

1

priority groups has already begun. Numerous potential other vaccines for SARS-CoV-2 are in

2

clinical trials.57
90.

3

My staff and I continue to monitor a variety of public health indicators, including the

4

trend of the number of new cases and hospitalizations per day; the positivity rate; the number of

5

deaths; the location and character of outbreaks; especially those occurring in long-term care

6

facilities; and the capacity of the healthcare system in the County and the region, to provide care

7

during the current surge in cases and hospitalizations. We also continue to monitor our capacity to

8

effectively respond and protect the public, including our capacity to efficiently and accurately test

9

persons for SARS-CoV-2, especially in high-risk populations and settings; to conduct effective case

10

investigation and contact tracing; to support persons who are isolating or quarantining; and to

11

prevent and control outbreaks in long-term care and other settings with a concentrated population of

12

vulnerable persons. We also continue to review the developing research regarding SARS-CoV-2

13

and the disease it causes. Finally, we continue to collaborate with and monitor other jurisdictions

14

implementing various public health measures to address the pandemic.
91.

15

The graph below demonstrates that throughout the pandemic, our shelter-in-place and

16

risk reduction orders, as well as the related mandatory directives, have been responsive both to the

17

state of the pandemic in the County and to the needs of residents to take part in the activities that are

18

important to their lives. As case counts have risen and fallen, my staff and I have adjusted the

19

County guidelines based on established public health principles. In particular, when the growth in

20

new cases slowed, we have been able to ease restrictions on daily activities and gatherings.

21

///

22

///

23

///

24

///

25

///

26

///

27
28

57

Id.

34

Declaration of Dr. Sara H. Cody in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-3 Filed 12/23/20 Page 35 of 36

1
2
3

-

.ol, " lm C9 El l!I CI
COVID-19 Epidemic, Santa Clara County, Jan. 27 - Dec. 21, 2020:
Case count has been increasing since early October, with rapid increase since early November

Figure: Lab-confirmed COVID-19 cases stratified by Long-Term Care Facility, outbreak, and community, reported by date of
speci men collection
November 30; Mandatory Directives Order

•

1600

4

Community

•

other outbreak
-

•

LTCF-Staff

7 Day Rolling Average

•

LTCF-Resident

December 6: Regional Stay At Home Order
I •

LTCF-Role-Unknown

this:h

Specimens collected during
tim• may not y•t b• report•d

i

5

u

I~

6
7

1

I

I

1500
1400
1300
1200
1100
1()00

March 16:

November 17:

Shelter-In-Place Order

~

700

]:

600
500

§
z

400

I

Moved into red tier

900
800

0

Moved into purple tier

September 9:

October 14:
Moved into orange t ier

300
200

8

100
0

._._

9

II, , •,1, "
02106 02/20 03/05 03/19 04/02 04/16 04/30 05114 05/28

..,.,,.,.,.,,...............
,.,...,,.,......._,....._,.......

06/1 1 06/25 07/09 07/23 08/06 08/20 09/03
Date Specimen Collection

10101

10/15

10/29

11/ 12

11/26

12/10

10
11

92.

The graph also reflects that when we have loosened restrictions, case counts have

12

increased. For example, in response to a flattened curve in April and May 2020, on June 5, 2020, we

13

updated our shelter-in-place order to allow additional commercial and other activity. This relaxation

14

was followed by an increase in cases. As cases are again on the rise, now is not the time to ease

15

restrictions on community transmission or lift the Risk Reduction Order and Mandatory Directives.
*

16
17

93.

*

*

I—along with many health officials from all over the world—have concluded that the

18

best course of action for managing the pandemic and preventing a surge in deaths from COVID-19

19

while scientists continue to develop treatments and while recently approved vaccines become

20

available to a greater portion of the population, is to prevent the infection from spreading using the

21

tools we currently have available. These tools include staying at home, maintaining social

22

distancing when outside the home, conducting business and activities outdoors whenever possible,

23

wearing a face covering when interacting with others outside of one’s household, and limiting the

24

number and duration of contact with others to the greatest degree possible. We do not take lightly

25

asking people to take these steps. We understand that people are suffering from real impacts on all

26

aspects of their lives and livelihoods. We each have a part in slowing the spread of this virus. Right

27

now, we all urgently need to reduce the number of people with whom each of us comes in contact

28

and the intensity of those contacts. These actions will save lives. The better we all do today, the
35
Declaration of Dr. Sara H. Cody in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-3 Filed 12/23/20 Page 36 of 36

1

sooner this pandemic will end.
I declare under penalty of perjury under the laws of the State of California that the foregoing

2
3

is true and correct. Executed in San José, California on December 23, 2020.

4

/s/ Sara H. Cody
SARA H. CODY, M.D.

5

.

6
7
8
9

2329525

10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

36
Declaration of Dr. Sara H. Cody in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Exhibit 3

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 1 of 79

1
2
3
4

JAMES R. WILLIAMS, County Counsel (S.B. #271253)
HANNAH KIESCHNICK, Deputy County Counsel (S.B. #319011)
KARAN SINGH DHADIALLA, Deputy County Counsel (S.B. #296313)
OFFICE OF THE COUNTY COUNSEL
70 West Hedding Street, East Wing, Ninth Floor
San José, California 95110-1770
Telephone: (408) 299-5900
Facsimile: (408) 292-7240

5
6

Attorneys for Defendants
COUNTY OF SANTA CLARA, SARA H. CODY

7

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
(San José Division)

8
9
10
11

GATEWAY CITY CHURCH, et al.,
Plaintiffs,

12
13

v.

14

GAVIN NEWSOM, et al.,

15

Defendants.

No. 20-CV-08241-EJD
DECLARATION OF DR. MARC
LIPSITCH IN SUPPORT OF
DEFENDANTS COUNTY OF SANTA
CLARA AND DR. SARA H CODY’S
OPPOSITION TO PLAINTIFFS’ MOTION
FOR A PRELIMINARY INJUNCTION
Date:
Time:
Courtroom:
Judge:

16
17
18

I, DR. MARC LIPSITCH, declare as follows:

19

1.

20

I am a resident of Jamaica Plain, Massachusetts. I have personal knowledge of the

matters set forth below and could testify competently to them if called to do so.

21
22

January 15, 2020
10:00 a.m.
4
Hon. Edward J. Davila

Professional Background
2.

I am the founding Director of the Center for Communicable Disease Dynamics

23

(CCDD) at the Harvard School of Public Health, where I am also a Professor in the Department of

24

Epidemiology and the Department of Immunology and Infectious Diseases. I have a B.A. in

25

Philosophy from Yale University and a DPhil (the Oxford equivalent of a PhD) in Zoology from the

26

University of Oxford, which I attended as a Rhodes Scholar. After receiving my DPhil, I completed

27

a postdoctoral research fellowship in Biology at Emory University working on the population

28

biology of infectious diseases. A copy of my C.V. is attached to this declaration as Exhibit A. I
1
Declaration of Dr. Marc Lipsitch in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 2 of 79

1

have been elected as a Fellow of the American Academy of Microbiology and a member of the

2

National Academy of Medicine for the United States.

3

3.

CCDD is a research center committed to advancing our understanding of infectious

4

disease and training the next generation of scientists. It was founded as a Center of Excellence in the

5

Models of Infectious Disease Agent Study funded by the National Institute of General Medical

6

Sciences of the U.S. National Institutes of Health (NIH). CCDD has been at the leading edge of

7

epidemiology, pioneering new approaches and methodologies for investigating both recurring and

8

emerging problems. The goal of our work at CCDD is to understand why and how infectious

9

disease persists and changes and use that knowledge to lessen its burden on people.

10

4.

CCDD is closely monitoring the progress of COVID-19. CCDD faculty—including

11

me—are conducting research on the novel coronavirus SARS-CoV-2 and COVID-19, the disease it

12

causes. CCDD faculty have published over 50 peer-reviewed articles about SARS-CoV-2 and

13

COVID-19. I am the lead or a contributing author on more than 20 of those articles. CCDD faculty

14

regularly host and contribute to online events about COVID-19; appear in national and international

15

media, including print and broadcast news; participate in scientific conferences, consortia,

16

discussions, debates, and podcasts; and advise local, state, and federal officials and leaders of

17

countries around the world.

18

5.

My own work on COVID-19 has included epidemiology, mathematical modeling,

19

and exploration of ethical issues related to vaccine trials and school reopenings. My research has

20

helped identify countries with undetected cases before they were reported; modeled the effects of

21

various social distancing and quarantine strategies; and contributed to some of the earliest estimates

22

of case-fatality rates. My research has also addressed new methodologies on how to study immunity

23

to COVID-19; and I am a co-lead on a large collaborative effort, led by experts at the University of

24

Chicago and involving multiple European universities, to establish best practices for estimating the

25

contagiousness of the virus. My work has also addressed the ethical aspects of COVID-19 vaccine

26

trial design, including the first published proposal for human challenge studies, which received

27

support from the World Health Organization (WHO) and the NIH, and which was implemented in

28

the U.K.
2
Declaration of Dr. Marc Lipsitch in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 3 of 79

1

6.

I have advised the WHO, the International Monetary Fund, the Prime Minister of

2

Israel, and senior government officials in the U.S., Canada, India, Germany, Austria, and

3

Luxembourg on COVID-19, as well as the U.S. National Governors’ Association and numerous state

4

and local health officials. I am a member of the Massachusetts Governor’s Medical Advisory

5

Committee and the Massachusetts COVID-19 Vaccine Working Group. I am also an ad hoc expert

6

to the COVID-19 Vaccine Working Group, which is part of the WHO Strategic Advisory Group of

7

Experts. Health departments on several continents use software that I helped develop to update their

8

estimates of trends in COVID-19 cases.

9

7.

Over the course of the COVID-19 pandemic, I have been asked to provide and have

10

provided interviews and analysis to national and international media outlets, including CNN, BBC,

11

the Guardian and the Wall Street Journal; and I have published articles explaining aspects of the

12

COVID-19 pandemic in national and international media outlets, including the New York Times and

13

Washington Post. My public science communication efforts also include a Twitter account with an

14

active following. Earlier this year, physicist Jonathan Oppenheim reported that I was the second-

15

most-followed expert by other experts on the COVID-19 pandemic; and I was named by Forbes as

16

one of the “most essential people on Twitter to follow during the COVID-19 outbreak.”

17

8.

More generally, my research has focused on biological and mathematical approaches

18

to infectious disease questions—mainly understanding how our immune systems and medical

19

interventions such as antibiotics and vaccines exert natural selection on pathogens, and how the

20

resulting changes in pathogen populations affect human disease. My more recent work has focused

21

on antimicrobial resistance, epidemiological methods, mathematical modeling of infectious disease

22

transmission, pathogen population genomics, immunoepidemiology of Streptococcus pneumonia,

23

transmission-dynamic simulations, and ethical questions surrounding vaccine trials for infectious

24

disease.

25

9.

My work has addressed a number of issues relevant to modern pandemic responses.

26

My research provided modern evidence of the moderate contagiousness of the 1918 “Spanish flu.”

27

During the first SARS outbreak in 2003, I led a team that provided one of the first estimates of the

28

virus’ reproduction number. During the 2009 H1N1 pandemic, my research produced the first
3
Declaration of Dr. Marc Lipsitch in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 4 of 79

1

reliable estimate of H1N1 flu severity. During the yellow fever outbreak in Angola and Democratic

2

Republic of Congo in 2016, my modeling work helped support fractional dosing vaccination

3

strategies, which helped extend vaccine availability in a shortage situation. I have written

4

extensively on data-driven decision making in public health.
10.

5

I have worked extensively with governments and intergovernmental bodies like WHO

6

to address public health issues including pandemic response and preparedness. For example, in 2003

7

and 2004, I served on the Defense Science Board Task Force on the SARS Quarantine for the U.S.

8

Department of Defense. In 2009, I was a member of the H1N1 Working Group of the U.S.

9

President’s Council of Advisors on Science and Technology; and in 2009 and 2010, I was a member

10

of the Team B Advisory Body to the CDC on the Novel H1N1 Influenza. From 2017 through today,

11

I have been a member of the Biological Agents Containment Working Group of the Board of

12

Scientific Counselors to the Office of Public Health Preparedness and Response at the CDC.
11.

13

I have also worked extensively on the design and analysis of vaccine trials during

14

public health emergencies. In 2015, I served on a scientific advisory board for a major Ebola

15

vaccine trial, and as I mentioned above, I am currently advising Massachusetts and WHO on

16

COVID-19 vaccine issues.
12.

17

I have published more than 330 peer-reviewed articles and a large number of other

18

publications, including book chapters, non-peer-reviewed journal articles, and popular articles in the

19

national press. I have also contributed to a number of reports, including the President’s Council of

20

Advisors on Science and Technology (PCAST) H1N1 Working Group’s 2010 Report to the

21

President on US Preparations for 2009-H1N1 Influenza; three reports from the Center for Infectious

22

Disease Research and Policy (CIDRAP) regarding the development of a vaccine for the Ebola virus;

23

and most recently an April 2020 CIDRAP report on COVID-19.1 CIDRAP is based out of the

24

University of Minnesota and is a global leader in addressing public health preparedness and

25
26
1

Moore, K., et al., COVID-19: The CIDRAP Viewpoint, April 30, 2020, available at
https://www.cidrap.umn.edu/sites/default/files/public/downloads/cidrap-covid19-viewpoint28 part1_0.pdf.
4
27

Declaration of Dr. Marc Lipsitch in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 5 of 79

1

emerging infectious disease response.
13.

2
3

I continue to teach and mentor undergraduate and graduate students at Harvard, as

well as supervising graduate work for doctoral candidates.
Opinions Regarding Dr. Bhattacharya’s Declaration

4

14.

5

The defendants in this case contacted me about responding to the opinions expressed

6

by Dr. Jayanta Bhattacharya in his declaration submitted by the plaintiffs. I agreed to provide a

7

declaration setting forth some of my professional opinions on the issues raised in that declaration. In

8

reaching those opinions, I have relied on my knowledge, training, experience, and the kinds of data

9

regularly relied on by experts in my field. I am working pro bono and not being compensated for my

10

time.
15.

11

I have read the declaration of Dr. Jayanta Bhattacharya submitted by the plaintiffs in

12

this lawsuit. My opinions regarding that declaration are based on the available science regarding the

13

novel coronavirus SARS-CoV-2 and the disease it causes, COVID-19, as well as my training and

14

experience in infectious disease response.
16.

15

As Dr. Bhattacharya discusses in his declaration, he has recommended an approach to

16

COVID-19 that is commonly referred to as “herd immunity with focused protection.” This approach

17

was laid out in the so-called “Great Barrington Declaration,” a document published in October at a

18

ceremony at a libertarian think tank by three scientists, including Dr. Bhattacharya. In this approach,

19

the virus would be allowed to spread among young, healthy people with little attempt to slow it

20

down, while officials would try to keep older, more vulnerable Americans from contracting it. This

21

strategy diverges sharply from the views of most infectious-disease epidemiologists and has been

22

rejected by the National Institute of Allergy and Infectious Diseases Director Dr. Anthony Fauci,2

23

WHO Director-General Tedros Adhanom Ghebreyesus,3 and the more than 6,900 scientists,

24
25

2

Mandavilli A., et al., A Viral Theory Cited by Health Officials Draws Fire From Scientists, New
York Times, Oct. 19, 2020, available at https://www.nytimes.com/2020/10/19/health/coronavirus26 great-barrington.html (accessed Nov. 16, 2020).
3
WHO chief says herd immunity approach to pandemic ‘unethical’, The Guardian, Oct. 12, 2020,
27
available at https://www.theguardian.com/world/2020/oct/12/who-chief-says-herd-immunity28 approach-to-pandemic-unethical (accessed Nov. 16, 2020).
5
Declaration of Dr. Marc Lipsitch in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 6 of 79

1

researchers, and healthcare professionals who have signed a formal response called the John Snow

2

Memorandum.4 Without a vaccine, this strategy also risks the deaths of a million or more

3

Americans. With the FDA’s recent emergency-use approval of Pfizer’s and Moderna’s vaccines,

4

and given the likelihood of FDA approval of additional effective vaccines, the strategy risks

5

significant avoidable illness and death.
COVID-19 Is Not Harmless for Younger Populations

6

17.

7
8

The assumption underlying the herd immunity approach—that COVID-19 is harmless

to most people and risky only for defined groups—is false.
18.

9

The impact of a pandemic on health depends not only on the infection-fatality rate,

10

but also on other measures of severity such as the risk of hospitalization or ICU admission among

11

those infected. Crucially, it also depends on the number of people who become infected, because a

12

small risk of death, ICU or hospitalization multiplied by a large number of people infected can result

13

in large numbers of deaths and high burdens on health care resources. Indeed, the extraordinarily

14

high peak demand for intensive care in Wuhan, China5 and in Northern Italy6 were two of the

15

earliest warnings that uncontrolled SARS-CoV-2 spread could result in horrific burdens on the

16

health care system. The intense stress on even very high-quality health systems is being felt across

17

Europe and in many parts of the U.S. as of December 2020, with overloaded intensive care units in

18

multiple locations due to COVID-19 surges. The U.S. has hit its highest number to date of

19

hospitalizations, with more than 115,000 COVID-19 patients in hospital as of December 21, 2020:7

20

///

21

///

22
23
24
25
26
27
28

4

Available at https://www.johnsnowmemo.com/.
5
Li, R., et al., Beds for Patients With COVID-19 Based on Comparisons With Wuhan and
Guangzhou, China, May 6, 2020, JAMA Netw. Open. 2020;3(5): e208297, available at
https://jamanetwork.com/journals/jamanetworkopen/fullarticle/2765575.
6
Grasselli, G., et al., Critical Care Utilization for the COVID-19 Outbreak in Lombardy, Italy:
Early Experience and Forecast During an Emergency Response, March 13, 2020, JAMA.
2020;323(16):1545-1546, available at https://jamanetwork.com/journals/jama/fullarticle/2763188.
7
The COVID Tracking Project, The Atlantic, available at https://covidtracking.com/data/charts/uscurrently-hospitalized (accessed Nov. 23, 2020).
6
Declaration of Dr. Marc Lipsitch in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

I! [

10 ~

I

(0

....C

::;

C')

0

=i

:::c

C

:E

N

m

r

~

"'tJ

~

z

(/)

:::c
0

-I

:::0
:::0

m

C')

C

~

0
"'

0
0

0

~

2

0
0
-0
0
0

C

1

(/)

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 7 of 79

-

3

---

~

~

<-

C

'<

0

:::,

C

ro

(ii '

=cc

:f

0

cc

s·

ro

;cl.

-0

Cl)

cr

Dl
:::,

cc

ci

Dl

Q

z0

..,,w

Jul 6
Jul 11
Jul 16
Jul 21
Jul 26
Jul 31
Aug 5
Aug 10
Aug 15
Aug 20
Aug 25
Aug 30
Sep 4
Sep9
Sep 14
Sep 19
Sep 24
Sep 29
Oct4
Oct9
Oct 14
Oct 19
Oct 24
Oct 29
Nov 3 _
Nov8
Nov 13
Nov 18
Nov 23
Nov 28
Dec3
Dec8
Dec 13
Dec18 ~

--

--

--

--

ll-

-o-

ID

.2.c

1r.0

~~

12

0 ID

'i'

11

~";j

0

10

Mar3
Mar8
Mar 13
Mar 18 ,
Mar23 §:_
Mar28
Apr2
Apr7
Apr 12 .
Apr 17
Apr 22
Apr21 = May2
May7
May 12
May 17
May22
May27 - Jun 1
Jun 6
Jun 11
Jun16 - Jun 21
Jun 26
Jui, - -

0
0

0

0
"'

9

--

8

---

--

0
0

....0

0

7

....:.~_;

0
0
0
0

0

co
a,

0

6

0

5

0

4

13

19.

14

In this context, academic debates about the risk of severe outcomes per individual,

15

while relevant, are better understood in the context of the total burden created: individual risk times

16

number of individuals infected.
20.

17

COVID-19 is unquestionably worse for someone who is male, older, sicker, or lacks

18

access to health care. Younger, healthier demographics do better than older demographics.8 These

19

facts do not mean, however, that COVID-19 is harmless for younger cohorts. To date, more than

20

52,000 Americans under 65 have died from the disease9—more than four times as many as typically

21

die in that age group from seasonal flu in an entire year10—and we have only had about eleven

22
23
8

CDC, COVID-19 Hospitalization and Death by Age, https://www.cdc.gov/coronavirus/2019ncov/covid-data/investigations-discovery/hospitalization-death-by-age.html (accessed Dec. 12,
25 2020).
9
CDC, Weekly Updates by Select Demographic and Geographic Characteristics, available at
26 https://www.cdc.gov/nchs/nvss/vsrr/covid_weekly/index.htm (accessed Dec. 12, 2020)
24

10

Quandelacy, T., et al., Age- and Sex-related Risk Factors for Influenza-associated Mortality in the
United States Between 1997–2007, Am. J. Epidemiol. 2014 Jan. 15; 179(2): 156–167, doi:
28 10.1093/aje/kwt235, available at https://www.ncbi.nlm.nih.gov/pmc/articles/PMC3873104/.
7
27

Declaration of Dr. Marc Lipsitch in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 8 of 79

1

months of intense COVID-19 activity, so that number will continue to grow.
21.

2

Dr. Bhattacharya’s declaration, by focusing only on those at lowest risk, significantly

3

underestimates the SARS-CoV-2 infection-fatality rate. The best estimate to date of the overall

4

infection-fatality rate for SARS-CoV-2 infection is by Dr. Gideon Meyerowitz-Katz and colleagues,

5

and is approximately 0.7%.11 Importantly, while the risk is age specific, and the infection-fatality

6

rate increases sharply with age, there is no cutoff at age 70; rather, the risk of dying if infected with

7

this virus “increases progressively to 0.4% at age 55, 1.4% at age 65, 4.6% at age 75, and 15% at age

8

85.”12 It is misleading to call the infection-fatality rate below age 70 “vanishingly small” given

9

these risk estimates and given that over 83% of the U.S. population or nearly 274 million people are

10

under 65 (2019 census estimate). Dr. Bhattacharya relies on a meta-analysis by Dr. John P.A.

11

Ioannidis that estimates a lower infection-fatality rate (Para. 18), but Dr. Meyerowitz-Katz’s meta-

12

analysis is distinguished by more rigorous criteria for including studies than that by Dr. Ioannidis.

13

While the former excludes studies expected to be heavily biased by a nonrepresentative sample, the

14

latter does no such quality checks. On this basis, I judge the conclusions of Dr. Meyerowitz-Katz’s

15

meta-analysis more reliable.
22.

16

If COVID-19 were judged on the criteria established for evaluating the severity of an

17

influenza pandemic, it would land at the top—the most severe end—of the scale. The CDC in 2017

18

defined influenza pandemics along a scale of transmissibility (from 1-5) and clinical severity (from

19

1-7). Based on the reproduction number and approximately half of infections being symptomatic,

20

COVID-19 would exceed the specifications for the highest transmissibility category (R0 > 1.8) (for

21
22
23
11

Meyerowitz-Katz, G., A systematic review and meta-analysis of published research data on
COVID-19 infection fatality rates, International Journal of Infectious Diseases, Vol. 101, P138-148,
25 December 01, 2020, available at https://www.ijidonline.com/article/S1201-9712(20)321809/fulltext.
26 12 Levin, A., Assessing the Age Specificity of Infection Fatality Rates for COVID-19: Systematic
Review, Meta-Analysis, and Public Policy Implications medRxiv 2020.07.23.20160895; doi:
27 https://doi.org/10.1101/2020.07.23.2016089, available at
https://www.medrxiv.org/content/10.1101/2020.07.23.20160895v7.
24

28

8
Declaration of Dr. Marc Lipsitch in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 9 of 79

1

COVID-19 R0 is thought to be at least 213 and up to 6 in some places14). It would also likely exceed

2

the specification for the highest clinical severity category, which is a case-fatality ratio of 1% or

3

more.15 (Given the underascertainment of infections relative to cases, this criterion would be

4

satisfied by an observed infection-fatality ratio of well under 1%, consistent with even the

5

downwardly biased estimates of Dr. Ioannidis.) In short, the COVID-19 pandemic is at the upper

6

end, and arguably at the very top, of the severity scale for influenza pandemics. It was for those

7

pandemics that community mitigation strategies based on nonpharmaceutical interventions have

8

been planned at the federal16 and state17 levels. A decade or more of pandemic planning envisioned

9

exactly the kinds of measures being challenged by the defendants in response to a pandemic of a

10

similar viral infection, even with lower severity than COVID-19.
23.

11

In every pandemic, decisions about control must be made before comprehensive

12

evidence is available on the characteristics of the infection in affected populations.18 Evidence-

13

gathering and mitigation efforts must proceed in parallel.19 Waiting for definitive evidence on

14

severity, transmissibility, and other characteristics of the pathogen and the population before

15
16
17
18
19
20
21
22
23
24
25
26
27
28

13

CDC, COVID-19 Pandemic Planning Scenarios, available at
https://www.cdc.gov/coronavirus/2019-ncov/hcp/planning-scenarios.html.
14
Sanche, S., et al., High Contagiousness and Rapid Spread of Severe Acute Respiratory Syndrome
Coronavirus 2, Emerg Infect Dis. 2020;26(7):1470-1477, available at
https://wwwnc.cdc.gov/eid/article/26/7/20-0282_article.
15
Qualls, N., et al., Community Mitigation Guidelines to Prevent Pandemic Influenza — United
States, 2017, Recommendations and Reports / April 21, 2017 / 66(1);1–34 (Table 6), available at
https://www.cdc.gov/mmwr/volumes/66/rr/rr6601a1.htm.
16
Qualls (2017), supra.
17
California Governor’s Office of Emergency Services, Statewide Concept of Operations for
Pandemic Influenza, available at
https://www.caloes.ca.gov/PlanningPreparednessSite/Documents/StatewideConOpsforPandemicInfu
enza%202009.pdf.
18
Lipsitch, M., et al., Managing and Reducing Uncertainty in an Emerging Influenza Pandemic, N.
Engl. J. Med. 2009; 361:112-115, doi: 10.1056/NEJMp0904380, available at
https://www.nejm.org/doi/full/10.1056/nejmp0904380.
19
Lipsitch, M., et al., for the 2009 H1N1 Surveillance Group. Improving the Evidence Base for
Decision Making During a Pandemic: The Example of 2009 Influenza A/H1N1, 2011, Biosecurity
and Bioterrorism: Biodefense Strategy, Practice, and ScienceVol. 9, No. 2, available at
https://www.liebertpub.com/doi/full/10.1089/bsp.2011.0007.
9
Declaration of Dr. Marc Lipsitch in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 10 of 79

1

adopting control measures is not a viable option, because exponential or near-exponential spread of

2

infection in new pandemics in highly susceptible populations can rapidly transform a small public

3

threat into a large one, and the impact of control measures is often delayed. Thus, it is rational to

4

take action to avert possible negative outcomes before there is certainty about the likelihood and

5

timing of these outcomes. There is room for legitimate disagreement about the strength of evidence

6

and the justification for particular control measures. Yet in the face of a growing pandemic with

7

clear ability to cause severe illnesses, to kill, and to cause health care disruption, it would be

8

irresponsible public health policy to await definitive evidence before taking control measures that

9

are expected to blunt the impact of the pandemic. This was the very clear situation in March 2020 in

10

the United States, as we watched the impact of the pandemic in other countries that had been struck

11

earlier.20 Indeed, there is a compelling argument in my view that many state authorities were too

12

slow, not too fast, to impose restrictions to slow the spread of SARS-CoV-2 during the early months

13

of 2020. On this view, California is a model, while other states deserve criticism for slower

14

reactions.21
24.

15

The actions taken by California’s public health authorities appear to have reduced

16

transmission. Not only do seroprevalence estimates indicate that the virus has been less widespread

17

in California than other regions of the U.S.; but a recent analysis showed that states with stricter

18

containment measures to reduce the spread of the virus—like California—had fewer new cases and

19

hospitalizations per capita than states that imposed few restrictions, which developed some of the

20

worst outbreaks:22

21
22
23
24
25
26
27
28

20

Lipsitch, M., We know enough now to act decisively against Covid-19. Social distancing is a good
place to start, March 18, 2020, STAT, available at https://www.statnews.com/2020/03/18/we-knowenough-now-to-act-decisively-against-covid-19/.
21
Sexton, J., et al., Two Coasts. One Virus. How New York Suffered Nearly 10 Times the Number of
Deaths as California, May 16, 2020, ProPublica, available at
https://www.propublica.org/article/two-coasts-one-virus-how-new-york-suffered-nearly-10-timesthe-number-of-deaths-as-california.
22
Leatherby L., et al., States That Imposed Few restrictions Now Have the Worst Outbreaks, New
York Times, Nov. 18, 2020, available at https://www.nytimes.com/interactive/2020/11/18/us/covidstate-restrictions.html?action=click&module=RelatedLinks&pgtype=Article.
10
Declaration of Dr. Marc Lipsitch in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 11 of 79

1

<--

Fewer

Containment measures

More ->

200

2

<--

Fewer

Containment measures

More ->

80
Currently

Avg. new
cases per

hospitalized

100,000

N.D.

per 100,000

Weak recent containment
measu res and many cases.

3
4

150

60
N.D.

Wfo.

5

Minn. Neb.

Neb.

Wis.

Mont.

6

Mont.

Utah

100

Strict recent measures

Ill.

and fewer cases.

Ind .

40

Wis .
Mich.

Coto.

7

Idaho Mo.

R.I.

Alaska

8

Nev.

50

Tenn.

9

Ga.

•

Ky.

s.c.

Calif.

M~ ne

Ohio

eo1/exas

Arif ,J.

Ga_w.va.

Kan.

20

Co~ n-

Ore.

Minn.

Idaho

N.J. Pa.
Mass.
Ariz.
N.C.
Va.

10

Mlss.
N.M.

W.Va.

Ala.
Miss.

Ky.

Tenn .

Ohio

Ark.

Wfo.

Okla.

Mich.

Okla.

Ill.

Mo.Ind .

Nev.

Fla.

R.I.

Pa.
La.

S.C. Va .

N.C.
Ore.

N.)'.

•

Calif.

Wash.
N.H.

Ha; aii

11

D.C.

Maine

Vt.

Note: Cases and hospitalizations are data from Nov. 16. Containment measures are as of Nov. 1. Sources:

Oxford Covid~19 Government Response Tracker, New York Times database of reports from state and local

12

health agencies and hospitals

25.

13

The size of the vulnerable population in the United States is large. Not only are there

14

significant numbers of American over 65—according to the U.S. Census Bureau, about 16.5% of the

15

population was 65 or over in 201923—but the CDC estimates that nearly 50 percent of Americans

16

live with underlying conditions that predispose them to serious outcomes from COVID-19.
26.

17

Letting the virus spread unchecked in younger populations—which include

18

Americans with underlying conditions—will result in more serious illness and deaths, in addition to

19

increasing the risk of transmission to older populations.
There Is No Proven Means to Protect the Vulnerable
Without Restraining Transmission in The General Population

20
21

27.

22

No one has yet devised an effective approach to protecting vulnerable populations

23

when there is widespread community transmission. Vulnerable individuals—including older

24

Americans and those with pre-existing conditions—live and work with, and receive care from,

25

members of the larger community. Many of the vulnerable live in a multigenerational home, are

26
27

23

U.S. Census Bureau, https://www.census.gov/data/tables/time-series/demo/popest/2010s-nationaldetail.html
(accessed Nov. 9, 2020).
28
11
Declaration of Dr. Marc Lipsitch in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 12 of 79

1

cared for by others in nursing and long-term care facilities, and/or are essential workers with

2

comorbidities; and these individuals cannot be completely isolated from the larger community.

3

Nonetheless, scientists, clinicians, and policy makers have been working hard to protect these

4

groups, with little or modest success, for most of the year, while also attempting to minimize the

5

threat that community transmission poses to them and to all of us. This “belt-and-suspenders”

6

approach is the current consensus approach among infectious-disease epidemiologists.
28.

7

Reducing or eliminating community transmission is critical to protecting vulnerable

8

populations, including those in long-term care facilities. The American Health Care Association

9

(AHCA) and the National Center for Assisted Living (NCAL) recently released a report stating that

10

COVID-19 cases in U.S. nursing homes have risen with the community spread of COVID-19 since

11

mid-September.24 That report explicitly links cases in nursing homes to community spread of the

12

virus:

13
14
15
16
17
18
19
20
21
Sources: Centers for Medicare & Medicaid Services (CMS), May 31- October 18 on Nursing Home COVIDCases and Johns Hopkins on COVID Cases in General Population

22

29.

23
24

Without reducing community transmission, strategies focused on protecting

vulnerable populations are unlikely to succeed. Sweden, the best-known exemplar of the “age-

25
26
24

27
28

AHCA and NCAL, Report: COVID-19 Cases In U.S. Nursing Homes, updated Nov. 2, 2020,
available at https://www.ahcancal.org/News-and-Communications/Fact-Sheets/FactSheets/ReportNursing-Homes-Cases-Nov2-2020.pdf (accessed Nov. 10, 2020).
12
Declaration of Dr. Marc Lipsitch in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 13 of 79

1

targeted” approach, was unable to protect people in nursing homes. Ostensibly the goal in Sweden

2

was to protect the elderly and other high-risk groups while slowing viral spread enough to avoid

3

hospitals being overwhelmed; although it has been widely reported that the goal was in fact to

4

develop herd immunity.25 The strategy failed to meet its goal of protecting the elderly: the virus ran

5

rampant in nursing homes, and Stockholm’s nursing homes lost 7% of their residents. Sweden’s

6

polices are now falling back in line with its European neighbors.26 Vulnerable individuals living in

7

multigenerational households present a distinct challenge to “focused protection” in the absence of

8

community control, particularly given that transmission of SARS-CoV-2 in households is

9

common,27 and households are the single greatest known source of transmission in many locales.28
30.

10

The elderly, and nursing home residents in particular, are only a fraction of the truly

11

vulnerable population. As noted above, over 52,000 deaths have occurred in those under 65 in the

12

US, about 18% of the total death toll. Some comorbidities that predispose to severe outcomes, such

13

as diabetes and certain cancers, may be invisible to those who are charged with protecting the

14

vulnerable. Nonwhite race/ethnicity,29 low socioeconomic status,30 and other variables are also

15

associated with high vulnerability to severe outcomes, making the logistics of “shielding the

16
17
25

18
19
20
21
22
23
24
25
26
27
28

Vogel, G., ‘It’s been so, so surreal.’ Critics of Sweden’s lax pandemic policies face fierce
backlash, Science, Oct. 6, 2020, available at https://www.sciencemag.org/news/2020/10/it-s-beenso-so-surreal-critics-sweden-s-lax-pandemic-policies-face-fierce-backlash; Bjorklund, K., The
Swedish COVID-19 Response Is a Disaster. It Shouldn’t Be a Model for the Rest of the World, Time,
Oct. 14, 2020.
26
Vogel 2020, supra.
27
Grijalva, C., Transmission of SARS-COV-2 Infections in Households — Tennessee and Wisconsin,
April–September 2020, Nov. 6, 2020, MMWR, 69(44);1631–1634.
28
Bebinger, M., Mass. Takes Close Look At Cluster Origins To Stop Coronavirus Spread, WBUR,
Oct. 20, 2020, https://www.wbur.org/commonhealth/2020/10/30/massachusetts-covid-cluster-data;
Infektionsumfeld von COVID-19-Ausbrüchen in Deutschland, Epidemiologisches Bulletin, 38 2020,
Sept. 17, 2020,
https://www.rki.de/DE/Content/Infekt/EpidBull/Archiv/2020/Ausgaben/38_20.pdf;jsessionid=B8D1
D66F6ECEC4B21EFDF40B78C8FB74.internet071?__blob=publicationFile.
29
APM Research Lab, The color of coronavirus: COVID-19 deaths by race and ethnicity in the U.S.,
Oct. 15, 2020, available at https://www.apmresearchlab.org/covid/deaths-by-race.
30
Finch, W., et al., Poverty and Covid-19: Rates of Incidence and Deaths in the United States
During the First 10 Weeks of the Pandemic, Front. Sociol., June 15, 2020, available at
https://www.frontiersin.org/articles/10.3389/fsoc.2020.00047/full.
13
Declaration of Dr. Marc Lipsitch in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 14 of 79

1

vulnerable” even more challenging.
31.

2

Until we have a proven means to protect those most at risk and put those safeguards

3

in place, it would be reckless to remove the protections against unmitigated community transmission

4

and plunge ahead in pursuit of herd immunity via massive infection rates. Reducing community

5

transmission remains one of the best ways to protect vulnerable populations.
Any Herd Immunity May Be Short-Lived and Partial

6

32.

7

In the modern era, herd immunity is best achieved by vaccination—that is, when

8

enough people acquire immunity to an infection through a shot in the arm to protect the whole

9

community. That is our public health goal every flu season; and it is the reason we vaccinate infants

10

against many childhood diseases.
33.

11

The “herd immunity with focused protection” approach that Dr. Bhattacharya

12

champions is to allow the spread of COVID-19 in younger populations in order to create immunity

13

against later infection—the theory being that previously infected individuals will carry COVID-19

14

antibodies that will prevent reinfection. If carrying COVID-19 antibodies confers immunity, then

15

half31 or more32 of the population must be seropositive—i.e., COVID-19 antibody carriers—before

16

we can control the virus without special measures, such as face coverings, social distancing,

17

surveillance, and contact tracing.
34.

18

It is possible that letting the virus spread uncontrolled in the younger population will

19

build up some level of herd immunity and reduce further spread—for some period of time and with

20

the significant cost of serious illness and death discussed above. However, the process of building

21

up herd immunity could take a significant amount of time. The length of the pandemic could be 18

22

to 24 months or more, as herd immunity gradually develops in the human population.33 The

23
24
31

Britton, T., et al., A mathematical model reveals the influence of population heterogeneity on herd
immunity to SARS-CoV-2, Science 14 Aug 2020; 846-849.
26 32 Sanche S, et al.. High Contagiousness and Rapid Spread of Severe Acute Respiratory Syndrome
Coronavirus 2. Emerg Infect Dis. 2020;26(7):1470-1477.
27 https://dx.doi.org/10.3201/eid2607.200282.
25

28

33

Moore 2020, supra.
14

Declaration of Dr. Marc Lipsitch in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 15 of 79

1

serosurveillance data available to date suggests that a relatively small fraction of the population has

2

been infected and infection rates likely vary substantially by geographic area. In late September

3

2020, CDC Director Robert Redfield told Congress that over 90 percent of the U.S. population

4

remains susceptible to this coronavirus,34 citing published data.35 Another recent seroprevalence

5

study estimated that that the percentage of people exposed to the virus ranged from 1% to 23%

6

depending on jurisdiction, and that overall less than 10% of people had detectable SARS-CoV-2

7

antibodies.36 Given the transmissibility of SARS-CoV-2, half to two-thirds of the population may

8

need to be immune to reach a critical threshold of herd immunity to halt the pandemic.37
35.

9

Unfortunately, however, coronavirus immunity is notoriously short-lived and partial.

10

Other coronaviruses are called “seasonal” because, like the flu, they circulate every year. Based on

11

seasonal coronaviruses, we can anticipate that even if immunity declines after exposure, there may

12

still be some protection against disease severity and reduced contagiousness, but this remains to be

13

assessed for SARS-CoV-2.38 As a result, widespread infection in the general population is unlikely

14

to eliminate the disease but will more likely result in a persistent problem until an effective vaccine

15

is available and widely adopted.
36.

16

The quality of the seroprevalence studies conducted to date has varied widely, as have

17

their results. The widely varying results of early seroprevalence studies emphasized the very local

18

nature of the pandemic. For example, in a study that received extensive criticism for its sampling

19

///

20

///

21
22
23
24
25
26
27
28

34

C-SPAN, CDC Director Redfield Says 90% U.S. Population Susceptible to Coronavirus Infection,
Sept. 23, 2020, https://www.c-span.org/video/?c4909117/cdc-director-redfield-90-us-populationsusceptible-coronavirus-infection.
35
Anand, S., et al., Prevalence of SARS-CoV-2 antibodies in a large nationwide sample of patients
on dialysis in the USA: a cross-sectional study, The Lancet, Vol. 396, Issue 10259, pp. 1335-1344,
October 24, 2020, DOI: https://doi.org/10.1016/S0140-6736(20)32009-2.
36
Bajema K. et al., Estimated SARS-CoV-2 Seroprevalence in the US as of September 2020, JAMA
Intern Med. (published online Nov. 24, 2020), doi:10.1001/jamainternmed.2020.7976.
37
Britton 2020, supra; Sanche 2020; supra.
38
Moore 2020, supra.
15
Declaration of Dr. Marc Lipsitch in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 16 of 79

1

methods, statistics, and biased interpretation of the data obtained,39 Dr. Bhattacharya and his co-

2

authors found that 1.5 percent of Santa Clara County’s population sampled tested positive for

3

antibodies in the spring of 2020.40 Other locales—in studies reflecting different kinds of

4

imperfections in sampling—have shown much more widespread evidence of past infection,

5

including 21 percent of those tested in New York City41 and nearly a third in Chelsea, Massachusetts

6

in April 2020.42
37.

7

More recent national studies have continued to show regional variation in

8

seroprevalence. The CDC conducted a commercial laboratory seroprevalence survey using blood

9

samples collected from 10 U.S. sites from March to July 2020. The surveys estimated

10

seroprevalence of 0.7% (San Francisco Bay Area) to as high as 23.2% (New York City Metro

11

Area).43 Another seroprevalence study of dialysis patients estimated that during the first wave of the

12

COVID-19 pandemic, fewer than 10% of the U.S. adult population formed antibodies against SARS-

13

CoV-2, with large regional variances.44 In California, the study estimated seroprevalence of 3.8%.45

14

The low seroprevalence estimates in California and the Bay Area suggest both that those regions

15

have been more successful in limiting community transmission and that any measure of herd

16

immunity is a distant prospect.

17

///

18
19

39

Vogel, G., Antibody surveys suggesting vast undercount of coronavirus infections may be
unreliable.
Science, Apr. 21, 2020, https://www.sciencemag.org/news/2020/04/antibody-surveys20
suggesting-vast-undercount-coronavirus-infections-may-be-unreliable.
21
40

22
23
24
25
26
27
28

Bendavid, E., et al., COVID-19 Antibody Seroprevalence in Santa Clara County, California,
medRXiv, doi: https://doi.org/10.1101/2020.04.14.20062463.
41
Goodman, J., et al., 1 in 5 New Yorkers May Have Had Covid-19, Antibody Tests Suggest,
https://www.nytimes.com/2020/04/23/nyregion/coronavirus-antibodies-test-ny.html.
42
Saltzman, J., Nearly a third of 200 blood samples taken in Chelsea show exposure, Boston Globe,
Apr. 17, 2020, https://www.bostonglobe.com/2020/04/17/business/nearly-third-200-blood-samplestaken-chelsea-show-exposure-coronavirus/.
43
CDC, Commercial Laboratory Seroprevalence Surveys, https://www.cdc.gov/coronavirus/2019ncov/cases-updates/commercial-lab-surveys.html#surveymap
44
Anand 2020, supra.
45
Id.
16
Declaration of Dr. Marc Lipsitch in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 17 of 79

Risks of Indoor Gatherings

1

38.

2

SARS-CoV-2 spreads through contact (via larger droplets and aerosols), and longer-

3

range transmission via aerosols, especially in conditions where ventilation is poor. This makes

4

large, indoor gatherings particularly high-risk activities for transmission of the virus, especially

5

where mitigation measures like the use of face coverings and social distancing are not being

6

observed. I understand that the plaintiffs in this lawsuit want to hold church services indoors, and

7

that some of them have done so in the past few months without requiring face coverings and social

8

distancing, and while permitting singing. These circumstances present a relatively high risk of

9

transmission. I disagree with Dr. Bhattacharya’s assertion that that permitting high risk activities

10

like large, indoor gatherings is consistent with good public health practice at this point in the

11

COVID-19 pandemic.
39.

12

A number of factors make this type of conduct particularly high risk. First, longer

13

duration contacts increase the risk of transmission. For direct interpersonal interactions—that is,

14

close contact without social distancing—the risk of transmission is proportional to the duration of

15

the interaction. Longer duration contacts create a higher risk of transmission. Epidemiologists often

16

distinguish between contacts below fifteen minutes (lower risk) and at or beyond fifteen minutes

17

(higher risk)—hence the “fifteen-minute rule.” For viruses like SARS-CoV-2 that are spread though

18

respiratory droplets and aerosols, microbial risk assessment experts use estimates of breathing rates

19

and duration of exposure to develop control strategies to reduce transmission.46 Models of COVID-

20

19 transmission using cell phone mobility data identify locations associated with longer duration

21

indoor contacts—including full-service restaurants and religious organizations—as producing the

22

largest predicted increases in infections when reopened.47 In contrast, shorter duration and more

23

transitory interpersonal interactions—such as those one would expect in grocery stores, retail stores,

24

and while transiting at an airport—would be expected to create a lower risk of transmission. Dr.

25
26
46

Hass C, Action Levels for SARS-CoV-2 in Air: Preliminary Approach, Preprint (Aug. 14, 2020).
Chang S, et al., Mobility network models of COVID-19 explain inequities and inform reopening.
Nature
(2020), doi: https://doi.org/10.1038/s41586-020-2923-3.
28
17
27

47

Declaration of Dr. Marc Lipsitch in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 18 of 79

1

Bhattacharya does not address the relative risks of transmission associated with different activities.
40.

2

The aerosol component of COVID-19 transmission would also be expected to

3

increase this risk of transmission over time. Simply stated, the longer people are in an enclosed

4

space, the more viral particles will build up and be available to infect others. The amount of virus

5

per liter of air will depend on a number of factors, including the size of the space, the number of

6

people in that space, and the frequency of air changes. For these reasons, more crowded gatherings,

7

and poor ventilation would both be expected to increase the risk of transmission in an indoor space.
41.

8

Second, larger gatherings in indoor spaces increase the risk of transmission both for

9

the reasons explained above, and because the larger the gathering, the more likely that infectious

10

individuals will in fact be present, depending on the prevalence of the disease in the community.
42.

11

Third, singing is a well-described risk factor for transmitting respiratory disease.48

12

Dr. Bhattacharya previously opined in another lawsuit, on behalf of another church plaintiff, that

13

churchgoers can “safely” hold indoor services that include “singing and chanting.” Dr. Bhattacharya

14

appears to have retreated from this prior opinion, which was not supported by the research on

15

singing. It is understood that singing, chanting, shouting, and similar vocalizations can cause the

16

release of a larger number of virus-bearing respiratory droplets and aerosols and may also increase

17

the distance that droplets or aerosolized particles can travel compared to speaking at a normal

18

volume. There are documented COVID-19 outbreaks where singing is presumed to have been a

19

factor, including one involving a choir practice in Skagit County, Washington.49 Because COVID-

20

19 is spread via respiratory droplets and aerosols, singing indoors is not a safe activity at multi-

21

household gatherings, particularly where there is widespread community transmission of the disease

22

and the use of social distancing and face coverings are not required.

23

///

24
25
48

Buonanno G., et al., Quantitative assessment of the risk of airborne transmission of SARS-CoV-2
infection: Prospective and retrospective applications, Environ Int. (2020) Sep. 6;145:106112, doi:
10.1016/j.envint.2020.106112.
27
49
Hamner, L., High SARS-CoV-2 Attack Rate Following Exposure at a Choir Practice - Skagit
County,
Washington, March 2020. Morbidity and Mortality Weekly Report 69.
28
26

18
Declaration of Dr. Marc Lipsitch in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 19 of 79

43.

1

Instead, Dr. Bhattacharya now argues that the psychological benefits of communal

2

singing should be considered against the costs of gathering indoors (Para. 47), and that permitting in-

3

person worship is consistent with good public health practice (Para. 49). Again, Dr. Bhattacharya

4

does not appear to consider the research on singing or the COVID-19 outbreaks that have been

5

traced back to gatherings where attendees sang together. He also appears to ignore the CDC

6

guidance for people hosting holiday gatherings: “avoid singing or shouting, especially indoors” and

7

“[k]eep music levels down so people don’t have to shout or speak loudly to be heard.”50
44.

8
9

I understand that some of the plaintiffs have been permitting singing at their services.

This would increase the risk of transmission, especially where mitigation measures including face

10

coverings and social distancing are not enforced consistently. Public health measures to limit or

11

prohibit indoor singing, chanting, shouting, and similar vocalizations, would decrease the risk of

12

transmission of COVID-19, which is principally spread by respiratory droplets and aerosols.
45.

13

While face coverings and social distancing would mitigate the risk of COVID-19

14

transmission from singing indoors, it would not eliminate that risk. Wearing a surgical mask while

15

singing can reduce the amount of measured exhaled aerosol particles and droplets to levels

16

comparable with normal talking,51 but that still presents a risk of transmission indoors.
46.

17

Dr. Bhattacharya states in his declaration that he has reviewed the CDC’s May 23,

18

2020 guidance titled “Considerations for Communities of Faith.” The current version of that

19

guidance was updated on October 29, 2020.52 The CDC offers this guidance to faith communities

20

“in the course of preparing to reconvene for in-person gatherings while still working to prevent the

21

spread of COVID-19.” As this prefatory statement indicates, the CDC guidance begins with the

22

understanding that many faith communities have not been gathering during the pandemic and

23
24
50

CDC, Holiday Celebrations and Small Gatherings, https://www.cdc.gov/coronavirus/2019ncov/daily-life-coping/holidays.html (accessed Dec. 21, 2020).
26 51 Alsved, M., et al., Exhaled respiratory particles during singing and talking, Aerosol Sci. & Tech.,
Vol. 54, No. 11, pp. 1245–48, Sept. 17, 2020, https://doi.org/10.1080/02786826.2020.1812502.
27
52
CDC, Considerations for Communities of Faith, updated Oct. 29, 2020, available at
https://www.cdc.gov/coronavirus/2019-ncov/community/faith-based.html
(visited Dec. 12, 2020).
28
25

19
Declaration of Dr. Marc Lipsitch in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 20 of 79

1

provides instructions on how to begin to gather again safely. The first point in the guidance under

2

the heading “Scaling Up Operations,” advises faith communities to “[e]stablish and maintain

3

communication with local and State authorities to determine current mitigation levels in your

4

community.” In response to the current surge in COVID-19 cases and the pressure on hospital

5

resources and ICU capacity in California and Santa Clara County in particular, it is my

6

understanding that the current mitigation measures prohibit indoor gatherings, including church

7

services. I do not understand the CDC’s guidance to instruct faith communities to ignore or act

8

contrary to the current local mitigation strategy.
47.

9

The CDC recently published a Summary of Guidance for Public Health Strategies to

10

Address High Levels of Community Transmission of SARS-CoV-2 and Related Deaths.53 That

11

guidance lists recommended public health strategies as well as recommendations for community-

12

level implementation. The guidance recommends the “universal use of face masks” as a public

13

health strategy, and for that strategy recommends the following community-level implementation:

14

“Issue policies or directives mandating universal use of face masks in indoor (nonhousehold)

15

settings.” The CDC guidance also recommends “[a]void[ing] nonessential indoor spaces and

16

crowded outdoor settings” as a public health strategy, and for that strategy recommends the

17

following community-level implementation: “Promoting flexible worksites (e.g., telework); apply

18

limits to occupancy of indoor spaces and to the size of social gatherings.” In my view, these are

19

critical national and local strategies to mitigate the risk of COVID-19 transmission.
48.

20

Any region experiencing moderate, high, or increasing levels of community

21

transmission should do everything possible to lower transmission. The path to low transmission in

22

other countries has included adherence to stringent community control measures—including closure

23

of nonessential indoor work and recreational spaces.54 Such measures along with universal mask

24
25
53

Honein M., et al., Summary of Guidance for Public Health Strategies to Address High Levels of
Community Transmission of SARS-CoV-2 and Related Deaths, December 2020. MMWR Morb
27 Mortal Wkly Rep 2020;69:1860-1867, doi: http://dx.doi.org/10.15585/mmwr.mm6949e2.
54
Couzin-Frankel J, Vogel G, Weiland M., School openings across globe suggest ways to keep
28 coronavirus at bay, despite outbreaks, American Association for the Advancement of Science.
20
26

Declaration of Dr. Marc Lipsitch in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 21 of 79

1

wearing (with specific exceptions55) are essential to bring case numbers down to safe levels for

2

communities to reopen.56
49.

3

The United States is in the midst of a large surge in cases, recording over 200,000

4

new cases and more than 3,000 deaths per day. These levels of transmission threaten to overwhelm

5

hospitals and ICU capacity in many areas. As the CDC reported last week, all age groups have

6

reached their highest weekly hospitalization rate since the start of the pandemic, with those rates

7

expected to increase as additional data are reported.57 And ICU capacity is dwindling in many areas,

8

including Santa Clara County, where ICU beds have been filling up and available capacity has

9

dropped from around 25% to under 15% in the past month.58 Given these circumstances, it would be

10

reckless to lift restrictions on community transmission, for example, by permitting the large, indoor

11

gatherings that may include singing that plaintiffs want to hold.
50.

12

“Flatten the curve” was a good idea when the world first heard the concept in March,

13

and it is a particularly good one right now. A flatter curve, with more infections delayed, will help

14

the health-care system better cope with the cases it does have. Whereas an overwhelmed health-care

15

system will mean there is little reserve to care for the seriously ill, including all the other diseases

16

hospitals were created to treat. Finally, the first vaccine is here, and more vaccines appear to be on

17

their way. These vaccines appear to be effective enough to protect us, if we can stay uninfected long

18

enough to get our shots.

19
20

July 7, 2020, available at https://www.sciencemag.org/news/2020/07/school-openings-across-globe21 suggest-ways-keep-coronavirus-bay-despite-outbreaks.
22
23
24
25
26
27

55

CDC, Coronavirus Disease 2019 (COVID-19), Frequently Asked Questions, available at
https://www.cdc.gov/coronavirus/2019ncov/faq.html?CDC_AA_refVal=https%3A%2F%2Fwww.cdc.gov%2Fcoronavirus%2F2019ncov%2Fneed-extra-precautions%2Fpeople-with-seasonal-allergies-faqs.html#People-withSeasonal-Allergies.
56
Levinson, M., Reopening Primary Schools during the Pandemic (2020) N. Engl. J. Med. 2020;
383:981-985, DOI: 10.1056/NEJMms2024920.
57
CDC, COVIDView, Key Updates for Week 49, ending December 5, 2020, available at
https://www.cdc.gov/coronavirus/2019-ncov/covid-data/covidview/index.html.
58

Santa Clara County Public Health Department, COVID-19 Hospitalizations Dashboard, available
at
https://www.sccgov.org/sites/covid19/Pages/dashboard-hospitals.aspx.
28
21
Declaration of Dr. Marc Lipsitch in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 22 of 79

I declare under penalty of perjury under the laws of the United States that the foregoing is

1
2

true and correct. Executed at Jamaica Plain, Massachusetts on December 22, 2020.

3

/s/ Marc Lipsitch
MARC LIPSITCH

4
5
6
2329409

7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

22
Declaration of Dr. Marc Lipsitch in Support of Opposition to
Plaintiffs’ Motion for a Preliminary Injunction

20-CV-08241-EJD

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 23 of 79

Exhibit A

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 24 of 79

CURRICULUM VITAE

DATE:

October 9, 2020

NAME:

Marc Lipsitch

ADDRESS:

Department of Epidemiology
Harvard T.H. Chan School of Public Health
677 Huntington Avenue
Boston, MA 02115

DATE & PLACE OF BIRTH: November 15, 1969, New Haven, CT, USA
EDUCATION:
Date

Discipline

Degree

Institution

1991
1995

Philosophy
Zoology

B.A. summa cum laude
D.Phil.

Yale University
University of Oxford

POSTDOCTORAL TRAINING:
1995-1999

Biology

Postdoc with Dr. Bruce Levin

Emory University

ACADEMIC APPOINTMENTS:
1997-1999

Visiting Scientist, Respiratory Diseases Immunology Section, Centers for
Disease Control and Prevention

1999-2004

Assistant Professor, Department of Epidemiology, Harvard School of
Public Health

2004-2006

Associate Professor, Department of Epidemiology and Department of
Immunology and Infectious Diseases, Harvard School of Public Health

2006-present Professor, Department of Epidemiology and Department of Immunology
and Infectious Diseases, Harvard School of Public Health
2009-present Director, Center for Communicable Disease Dynamics, Harvard School of
Public Health
2009-present Associate Member, Broad Institute, Cambridge, MA
2012-2018

External Faculty Member, Santa Fe Institute, Santa Fe, NM

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 25 of 79
Lipsitch, Marc

HONORS AND DISTINCTIONS:
1991
1992-1995
2002
2002
2002
2006
2009
2011
2012
2013
2014
2015
2016
2018
2019
2020

Phi Beta Kappa, Yale College
Rhodes Scholar, University of Oxford, England
Ellison Medical Foundation New Scholar in Global Infectious Disease
PhRMA Foundation Research Starter Award in Health Outcomes
ICAAC Young Investigator Award, American Academy of Microbiology
Mentoring Award, Harvard School of Public Health
Thompson Science Hall of Fame, Westminster Schools, Atlanta, GA
Kenneth Rothman Award, Best Paper in Epidemiology in 2010
Junior Faculty Mentoring Award, Harvard School of Public Health
Reviewer of the Year in Epidemiology in 2012
Member, winning team (PI Shaman), CDC Predict the Influenza Season
Challenge
Elected Fellow, American Academy of Microbiology
Robert Austrian Lecturer, International Symposium on Pneumococci and
Pneumococcal Diseases
2017 Article of the Year, American Journal of Epidemiology
23rd Annual Robert M. Fekety, Jr., MD Lecturer, University of Michigan
Elected Member, National Academy of Medicine

PROFESSIONAL SERVICE:
1999
2000, 2002
2001-2003
2002
2003
2003-2004
2005
2005
2006, 2007
2007, 2008,
2012
2007-2011
2008
2008-2009
2009
2009
2009
2009-2010

Temporary Advisor, WHO. Priorities for Pneumococcal and Hib Vaccine
Development and Introduction. Geneva, Switzerland
National Institutes of Health, National Center for Research Resources,
Special Emphasis Panel, Centers of Biomedical Research Excellence
Consultant and invited speaker for three public meetings, FDA Center for
Veterinary Medicine. Topic: regulation of antimicrobial drugs in veterinary
medicine
Member, WHO Pneumococcal Vaccine Trials Nasopharyngeal Carriage
Study Group
Member, WHO Working Group on SARS Epidemiology and Modeling
US Department of Defense, Defense Science Board Task Force on
SARS Quarantine
Consultant, Ministry of Foreign Affairs, Canada – Pandemic Influenza
Consultant, Congressional Budget Office – Pandemic Influenza
National Institutes of Health Study Section on Genetic Variation and
Evolution
National Institutes of Health Special Emphasis Panels, various
Report reviewer, National Research Council, NEIDL Risk Assessments
Food and Drug Administration, Antiviral Advisory Committee, guest
member
Member, World Economic Forum Global Agenda Council on Pandemics
Consultant, Mexico Ministry of Health, Pneumococcal Conjugate Vaccine
US President’s Council of Advisors on Science and Technology (PCAST)-H1N1 Working Group
Massachusetts Department of Public Health H1N1 Advisory Group
Team B Advisory Body to CDC on Novel H1N1 Influenza

2

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 26 of 79
Lipsitch, Marc

2010-2013

Member, Informal Advisory Group on 2009 Pandemic Influenza Mortality,
WHO

2010-

Member, Pneumococcal Serotype Replacement Technical Advisory
Group, WHO
Member, Scientific Advisory Board, Pneumococcal Global Sequencing
Project (Gates Foundation, Keith Klugman, PI)
Member, CIDRAP/Wellcome Trust Team B on Ebola Vaccines
Member, Scientific Advisory Group, Norwegian Institute of Public
Health/WHO/MSF Ebola Virus Vaccine Trial
Member, Scientific Review Committee, Wellcome Trust Sanger Institute
5-Year Review (4-day evaluation visit)
Member, Biological Agents Containment Working Group, Board of
Scientific Counselors, Office of Public Health Preparedness and
Response, CDC
Member, Advisory Board, Vaccines and Immunotherapies, CARB-X
Member, Technical Advisory Group, Pneumococcal Serotype
Replacement and Distribution Project (PSERENADE), International
Vaccine Action Center
Co-chair, WHO Working Group on Vaccines and Antimicrobial Resistance
(VAC-AMR)
Member, Steering Committee, Scorecard on Progress on
Recommendations of the Review of Antimicrobial Resistance, Chatham
House
Member, Massachusetts Governor’s Medical Advisory Committee
Member, Massachusetts COVID-19 Vaccine Working Group
Ad hoc expert, WHO Strategic Advisory Group of Experts, COVID-19
Vaccine Working Group

20112014-2016
2015
2015
20172018201820192019
2020
2020
2020

EDITORIAL BOARDS:
2002-2012
2004-2008
2009-2010
2006-2016
2008-2011
2008-2011
2009-2010
2009-present
2015-present

Associate Editor, American Journal of Epidemiology
Associate Faculty Editor, Emerging Themes in Epidemiology
Member, Faculty of 1000 Biology
Editorial Board, PLoS Medicine
Associate Editor, Epidemics
Editorial Board, Emerging Health Threats
Board of Editorial Advisors, Journal of Infectious Diseases
Editorial Board, Epidemiology
Board of Reviewing Editors, eLife

PROFESSIONAL SOCIETIES:
Society for Epidemiologic Research
American Society for Microbiology
National Center for Science Education
Union of Concerned Scientists

3

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 27 of 79
Lipsitch, Marc

PUBLIC HEALTH ORGANIZATIONS:
Founder, Cambridge Working Group, 2014
Founder, Society for Safe Science, 2014
SCIENTIFIC COMMITTEES AND CONFERENCE ORGANIZING:
Scientific Committee: 4th International Symposium on Pneumococci and Pneumococcal
Diseases, Helsinki, Finland, May 2004
Scientific Committee: 5th International Symposium on Pneumococci and Pneumococcal
Diseases, Alice Springs, Australia, May 2006
Scientific Committee: 6th International Symposium on Pneumococci and Pneumococcal
Diseases, Reykjavik, Iceland, June 2008
Scientific Committee: 7th International Symposium on Pneumococci and Pneumococcal
Diseases, Tel Aviv, Israel, March 2010
Scientific Committee: 9th International Symposium on Pneumococci and Pneumococcal
Diseases, Hyderabad, India, March 2014
Conference Chair: First Annual Center for Communicable Disease Dynamics
Symposium: Surveillance for Decision Making in Emerging Diseases:
Lessons from the 2009 H1N1 Pandemic Influenza. Boston, June 2010
Organizing Committee: Epistemology of Modeling and Simulation. University of
Pittsburgh, April 2011.
Conference Chair: Second Annual Center for Communicable Disease Dynamics
Symposium: Antimicrobial Resistance: Biology, Population Dynamics and
Policy Options. Boston, October 2011
Conference Chair: Epidemics3, Boston, November 2011
Scientific Committee: Epidemics4, Amsterdam, November 2013
Conference organizer: Workshop on Modeling and Simulation for Infectious Disease
Trial Design, Seattle, August 2016 (with Betz Halloran)
Workshop organizer: Ethical Design of Vaccine Trials in Emerging Infections, ETHOX,
Oxford, UK, July 2017 (with Rebecca Kahn, Nir Eyal, Annette Rid)
Scientific Committee: 12th International Symposium on Pneumococci and Pneumococcal
Diseases, Toronto, 2020
Advisory group on COVID-19, Science Philanthropy Alliance, August 2020
GRANT REVIEWER SINCE 2003:
Research Fund for the Control of Infectious Disease (RFCID), Hong Kong SemiAutonomous Region, China
UK Medical Research Council
Wellcome Trust (UK)
Department of Veterans Affairs, USA
Alliance for the Prudent Use of Antibiotics
Swiss National Science Foundation
RIVM (National Institute of Health and Environment), Netherlands
Innovational Research Incentives Scheme, Royal Netherlands Academy of Sciences
National Institutes of Health, ad hoc member, GVE study section (4x), IRAP study
section (1x), several telephone special review groups
Health Research Council of New Zealand

4

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 28 of 79
Lipsitch, Marc

AXA Foundation Fellowships
Canadian Institutes of Health Research
Royal Society of New Zealand
French National Research Agency (ANR)
Royal Society (UK)
NIH Special Emphasis Panels (2013/01 ZRG1 IDM-A (02) S; 2014/08 ZRG1 RPHB-W
(53) R - RFA-RM-13-009: NIH Director's Early Independence Awards
Review)
Dutch Research Council NOW (2011, 2017)
NIH Special Emphasis Panel (2014/10 ZRG1 IDM-S (02) M)
Chair of NIH Infectious Diseases and Microbiology Integrated Review Group, ZRG1 IDM
S02 10/2014 council
NIH CRFS Study section, ad hoc member, 2015
UK Medical Research Council (2016)
INVITED TALKS (SINCE 2015):
01/2015
01/2015
01/2015
02/2015
03/2015
04/2015
04/2015
05/2015
06/2015
06/2015
07/2015
07/2015
09/2015
01/2016
02/2016
02/2016
05/2016
05/2016
06/2016
07/2016
07/2016

Otto Wolff Lecture, Institute of Child Health, University College London
London School of Hygiene and Tropical Medicine, invited lecture
Centre for the Study of Existential Risk, Cambridge University, UK, invited
lecture
Public Health England, Colindale, London UK, invited lecture
London School of Hygiene and Tropical Medicine, Health Protection
Research Unit Annual Conference, Invited Lecture
University of Bristol Department of Social Medicine
University of Pittsburgh Marcella L. Finegold Memorial Public Debate
Series
Applied Bioinformatics and Public Health Conference, Wellcome Trust
Sanger Institute, Keynote Lecture
Médecins sans Frontières Science Day, Panel Discussion, Paris, France
Eijkman Lecture, UMC Utrecht, Netherlands
ETH Zurich Latsis Symposium, plenary talk
Jenner Lecture, Jenner Vaccine Institute, Oxford University, UK
[popular presentation] HubWeek Four Global Health Threats, Four Global
Health Opportunities, Harvard University
National Science Advisory Board on Biosecurity
WHO Technical Expert Consultation: Alternate Dosing Schedules of
Pneumococcal Conjugate Vaccines, Geneva (by videolink)
PATH Scientific Advisory Board, PATHwSP Vaccine Trial, Geneva (by
videolink)
Department of Microbiology and Immunology, Emory University, Atlanta
Causal Inference in the Presence of Interference, Department of
Biostatistics, Harvard T.H. Chan School of Public Health, Boston, MA
Robert Austrian Award Lecture, International Symposium on
Pneumococci and Pneumococcal Diseases-10
Glaxo SmithKline Vaccines, Rockville, MD
White House Pandemic Prediction and Forecasting Science and
Technology Working Group (PPFST WG)

5

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 29 of 79
Lipsitch, Marc

09/2016
01/2017
02/2017
03/2017
03/2017
03/2017
04/2017
05/2017
06/2017
06/2017
09/2017
12/2017
3/2018
3/2018
4/2018
5/2018
6/2018
6/2018
6/2018
8/2018
8/2018
11/2018
6/2019
6/2019
6/2019
7/2019
10/2019
10/2019
3/2020
3/2020
3/2020
4/2020
4/2020
4/2020

Keynote Address, Project Prometheus Workshop on Multi-Strain
Modeling, RIVM (National Institute of Public Health and the Environment),
Bilthoven, Netherlands
Postdocs in Complexity Conference, Santa Fe Institute, NM (not delivered
due to travel delays)
Department of Epidemiology of Microbial Diseases, Yale School of Public
Health, New Haven, CT
Department of Mathematics, University of Utah
The Value of Vaccines in the Avoidance of Antimicrobial Resistance,
Chatham House, London
WHO Workshop on Vaccines and Antimicrobial Resistance, London, UK
National Math Festival, Washington, DC (two talks)
Memorial Symposium for Ellis McKenzie, Fogarty International Center,
NIH, Bethesda, MD
EA Global, Society for Effective Altruism, Cambridge, MA
Panelist, Surveillance workshop, Simons Foundation, New York, NY
Emerging Leaders in Biosecurity meeting, Johns Hopkins Center for
Health Security (held Cambridge, MA)
Risk in Complex Systems: Models, Applications, Perceptions, and Policy
Implications, Centre de Recherches Mathematiques, University of
Montreal
Department of Ecology and Evolutionary Biology, Princeton University
17th Annual Symposium, Institute for Systems Biology, Seattle
Gates Vaccine Impact Modeling Consortium, Keynote Address, annual
meeting in Cambridge, MA
”Antibiotic resistance: Evolutionary concepts versus clinical realities,”
Wenner-Gren Center, Stockholm
London School of Hygiene and Tropical Medicine
Institut Pasteur, Paris
Big Data Institute, University of Oxford
PRISM (Policy relevant infectious disease simulation and mathematical
modelling) Annual Meeting, Palm Cove, Australia
David Danks Seminar, Murdoch Children’s Research Institute,
Melbourne, Australia
Berkman-Klein Center, Harvard Law School, Data and Health Seminar
Chan-Zuckerberg Biohub, San Francisco
Stanford Medical School, Stanford, CA
Proctor Foundation, UC San Francisco, CA
Wellcome Meeting on the Global Burden of Disease from Antimicrobial
Resistance, London
23rd Annual Robert M. Fekety, MD Lecture, Department of Medicine,
Division of Infectious Diseases, University of Michigan
Microbiology and Infectious Diseases Seminar, University of Geneva,
Switzerland
National Academy of Medicine/American Public Health Association First
Webinar on COVID-19, Washington DC (via Zoom)
Harvard Kennedy School Growth Lab, Cambridge, MA (via Zoom)
White House Modeling Consortium, Washington DC (via Zoom)
European Central Bank (via Zoom)
USA Today Editorial Board (via Zoom)
New York Times Editorial Board (via Zoom)

6

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 30 of 79
Lipsitch, Marc

4/2020
5/2020
5/2020
5/2020
5/2020
5/2020
5/2020
5/2020
5/2020
5/2020
5/2020
5/2020
5/2020
5/2020
5/2020
6/2020
6/2020
7/2020
7/2020
7/2020
7/2020
7/2020
7/2020
8/2020
8/2020
8/2020
8/2020
8/2020
9/2020
9/2020
9/2020

Harvard Medical School Department of Medicine Grand Rounds (one of
many short talks, via Zoom)
Massachusetts Coalition for Pathogen Research (one of many short talks,
via Zoom)
Covid symposium, National Institute of Statistical Science/American
Statistical Association
Private briefing, Deputy Prime Minister Chrystia Freeman, Ottawa,
Canada
Briefing, New Democrat Coalition, by Zoom
Isaac Newton Institute, Cambridge University, UK, by Zoom
Futureproofing Public Health, University of Stellenbosch, by Zoom
Private briefing, Rahul Gandhi, Leader, Congress Party, India
Harvard Club of Boston, by Zoom
Tsinghua University / AAAS Symposium, Beijing, by Zoom
Institute for Genome Sciences, University of Maryland, by Zoom
National Academy of Sciences, Section 43, by Zoom
Medical Grand Rounds, Boston Children’s Hospital, by Zoom
Vaccine Research Center, Beth Israel Deaconess Medical Center, by
Zoom
COVID-19 and the Role of Modeling, American Statistical Association and
the National Institute of Statistical Sciences (via Zoom)
International Monetary Fund, by Zoom
Webinarium: Role of a Medical University in a Pandemic, Karolinska
Institutet, Stockholm, by Zoom
Bipartisan Commission on Biosecurity, by Zoom
National Bureau of Economic Research, by Zoom
SAGE Working Group on COVID-19 Vaccines, by Zoom (panelist)
Congressional Briefing on Human Challenge Trials, organized by
1DaySooner and Rep. Bill Foster, by Zoom
International Symposium on Novel Ideas in Science and Ethics of
Vaccines against COVID-19 Pandemic, India Council of Medical
Research, by Zoom
Private and Public Science, Advisory, and Consumer Food Policy Group
(PAPSAC), Harvard Kennedy School, by Zoom
National Academies (NASEM) Committee on Equitable Allocation of
Vaccine for the Novel Coronavirus (panel), by Zoom
Mathematical Sciences Research Institute, University of California,
Berkeley, by Zoom
Coronavirus Conversations, Science and Society, Duke University
(panel), by Zoom
Giving Pledge Meeting – Q&A with Scott Dowell, Bill and Melinda Gates
Foundation, by Zoom
Janelia Farm, Howard Hughes Medical Institute, via Zoom
COVID-19, Public Health Ethics, and Policy for Pandemics, Harvard
Medical School Center for Bioethics, Cambridge MA (via Zoom)
From testing to distribution: the importance of, and challenges to,
estimating the protective effects of vaccines, National Institute of
Statistical Sciences, Research Triangle, NC (via Zoom)
Epidemiology of COVID-19: Implications for Control, American Physical
Society, College Park, MD (via Zoom)

7

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 31 of 79
Lipsitch, Marc

10/2020
10/2020

COVID-19 and Vaccines: Clinical Trials, Immunity and Immunization,
American Lung Association, Chicago, IL (via Zoom)
Board of Directors, Blue Cross-Blue Shield of Massachusetts

RESEARCH SUPPORT:
Past Funding
1997-1999

NIH postdoctoral fellowship 1 F32 GM019182 Population Genetics of
Bacterial Infection and Treatment. Role: PI

1997-1999

SmithKlineBeecham unrestricted educational grant. Effects of Antiviral
Usage on Resistance in Herpes Simplex Virus, Type 1. Bruce R. Levin,
PI. Role: Co-PI

2001-2005

NIH research grant R01 AI051929. Drug Resistance in Tuberculosis:
Genetics and Dynamics. Eric Rubin, PI. Role: Co-PI

2001-2006

NIH research grant R01 AI48935. Vaccination and the Evolutionary
Dynamics of Pneumococci. Role: PI

2001-2011

NIH research grant R01 AI048935 Mechanisms of Capsular Diversity in
Streptococcus pneumoniae. Role: PI

2002

PhRMA Foundation Research Starter Grant. Planning and Assessing
Antimicrobial Cycling and Other Interventions to Control Resistance in
Hospitals. Role: PI

2002-2006

Ellison Foundation New Scientist in Global Infectious Diseases Award.
Antibiotic Resistance in Streptococcus pneumoniae: Transmission
Dynamics and Consequences for Public Health. Role: PI

2003-2006

NIH research grant 5 R21 AI055825. Epidemiologic Methods: Resistant
Nosocomial Infections. Role: PI

2004-2013

NIH/NIAID R01 AI058736 (Freedberg). Optimizing HIV care in less
developed countries. Role: Consortium Co-Investigator

2006

Taplin Foundation Equipment Grant, Harvard School of Public Health.

2006

NIAID/TIGR Pathogen Functional Genomics Resource Center grant of
access to free microarrays. Effects of Host Immunity on Pneumococcal
Gene Expression. Role: PI

2006-2009

NIH cooperative agreement U01 GM076497. Methodological
Approaches to Planning and Analysis of New Infectious Diseases. Role:
PI. Replaced by U54 GM088558.

8

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 32 of 79
Lipsitch, Marc

2006-2016

NIH/NIAID R01 AI066304 (Finkelstein). Conjugate Vaccine Impact of
Pneumococcal Carriage, Disease, and Population (SPARC2). Role:
Consortium PI

2010-2014

NIH/NIMH R01 MH087328 (Seage). Modeling the Impact of HIV
Prevention Interventions (CEPAC Dynamic). Role: Co-PI

2011-2016

NIH/NIGMS R01 GM100467 (Shaman). Influenza Outbreak Prediction:
Applying Data Assimilation Methodologies to Make Skillful Forecasts of
an Inherently Chaotic, Nonlinear System. Role: Consortium PI

2012-2018

NIH/NIAID R01 AI048935-15 NCE. Mechanisms and Population
Genomics of Pneumococcal Antigenic Diversity. Role: PI

2013-2019

NIH/NIGMS R01 AI106786-05 NCE (PI: Hanage). Ecological and Genetic
Contributions to the Spread of Resistance in Pnumococcus. Role: Co-PI

2014-2018

Pfizer Inc. (No number). Modeling serotype replacement with Prevnar13
using an agent-based model (Phase 2). Role: PI

2014-2018

NIH/NIGMS R01 GM116525-03 (Seage). Calibration and Simulation of
the Botswana Combination Prevention Project. Role: Co-PI

2014-2018

Program for Appropriate Technology in Health. 1773-00460733-COL.
Modeling pneumococcal population dynamics under serotype-nonspecific
vaccination. Role: PI

2015-2018

NIH/NIAID R21 AI112991-02 NCE (Huttenhower). Staphylococcus
Aureus Carriage and the Nasal Microbiome. Role: Co-PI

2015-2020

NIH/NIGMS R01 GM113233 (Wargo). The impacts of host vaccination
and selective breeding for disease resistance on pathogen transmission
and ecology in freshwater aquaculture. Role: Consortium PI

2017-2019

Pfizer Inc. CP147216 (Lipsitch/Lewnard). Quantifying pneumococcal
conjugate vaccine impact against otitis media. Role: Co-PI

2017-2020

CDC 1 U01 CK000538-01 (Samore). Modeling and simulation to support
antibiotic stewardship and epidemiological decision-making in healthcare
settings. Role: Consortium PI

Current Funding
2014-2021

NIH/NIGMS U54 GM088558-10 NCE. MIDAS Center for Communicable
Disease Dynamics. Role: PI

2018-2022

NIH/NIAID 5 R01 AI128344-01 (Hanage). Deep sequencing of pathogens
to precisely define transmission networks using rare variants. Role: Co-PI

9

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 33 of 79
Lipsitch, Marc

2018-2021

National Institute for Health Research. PR-OD-1017-20006 (PI: Cooper /
University of Oxford). Leveraging Pathogen Sequence Data and Adaptive
Designs to Improve Vaccine Trials in Emerging Epidemics in LMICs.
Role: Consortium PI

2018-2020

Pfizer Inc. A34479 (Lewnard). Changes in antimicrobial prescribing for
otitis media in the era of pneumococcal conjugate vaccination. Role: CoPI

2019-2024

CDC U01 IP001121-02 (PI: Rosenfeld / Carnegie Mellon University).
Delphi Influenza Forecasting Center of Excellence. Role: Consortium PI

2020-2022

Wellcome Trust. 219759/Z/19/Z. Vaccine-avertable antimicrobial
prescribing from influenza and RSV: a mixed-methods observational
study. Role: PI

2020-2022

Wellcome Trust. 219812/Z/19/Z (Grad). Reducing antibiotic prescribing
through a prioritized vaccination strategy. Role: Co-PI

2020-2023

Open Philanthropy Project / Silicon Valley Community Foundation. 2020211809. Research and Policy Activities on Biosafety and Biosecurity.
Role: PI

2020-2022

NIH/NCI U01 CA261277-01. Causal, Statistical and Mathematical
Modeling with Serologic Data

2020-2025

CDC U01 CK000585-01 (Samore). Modeling and Simulation to support
Epidemiological decision-making in Healthcare settings. Role: Consortium
PI

2020-2022

Morris-Singer Foundation. Morris-Singer Fund for the Center for
Communicable Disease Dynamics. Role: PI

TEACHING EXPERIENCE:
Full Courses
Biostatistics 516: Inferential Methods for Infectious Diseases. Co-developer and coinstructor of course.
Taught 2011 (Spring 2)
Epidemiology 260: Mathematical Models of Infectious Diseases: Developed course, sole
instructor.
Taught 2001, 2002, 2003, 2005, 2007, 2009, 2011, 2014, 2016, 2018, 2020 always d
period (Spring 2).
Interdepartmental 267-268: Seminar in Infectious Disease Epidemiology: Developed and
taught course jointly with Dr. Megan Murray in 2000; sole instructor in 2001 and 2002.
Taught 2000-2001 as full year; taught 2001 and 2002 as fall only (ID267ab).

10

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 34 of 79
Lipsitch, Marc

Interdepartmental 298: Inference in Infectious Disease Epidemiology. Developed
course, sole instructor.
Taught 2005, 2007 winter session.
Epidemiology 502: Biology and Epidemiology of Antibiotic Resistance. Co-developed
and co-taught course with Dr. Gili Regev-Yochay.
Taught 2008, 2010, 2012, 2014, 2016, 2018, 2020 winter session.
Participation
Epidemiology 201: Introduction to Epidemiology. One week each year (2 2-hr. lectures).
Taught 2000-2007; coinstructor 2005-7.
Epidemiology 200: Principles of Epidemiology. One lecture per year.
Taught 2000-2005; coinstructor 2005-7.
Epidemiology 289: two lectures on Infectious Disease Epidemiology, 2010
Interdepartmental 229: Epidemiology of Infectious Diseases of Importance in Developing
Countries (and predecessors). One lecture per year.
Taught 2000-2006.
DBS205: Biological Sciences Seminars. One presentation of research per year.
Taught 2002, 2005, 2015.
RDS281 (now 285): Decision Analysis Methods in Public Health and Medicine. One
lecture on infectious diseases and dynamic modeling.
Taught 2002-2007, 2010.
IMI225 Design and Development of a vaccine. One lecture per year.
Taught 2007.
IMI227 Genetics of Infectious Disease. One lecture per year.
Taught 2007-8.
Epidemiology 205: Practice of Epidemiology. Supervised one student.
Participated 2000.
Epidemiology 294: Screening. Two lectures on introductory Infectious Disease
Epidemiology
2011, (Spring 2)
ID517 Public Health Response to Mass Emergencies. One lecture.
Taught 2008.
Life Sciences 120 (Harvard College): Global Health Threats.
One to three lectures, 2011, 2012, 2016
Probabilistic Risk Analysis (HSPH Continuing Education). One lecture per year.
Taught 2002-2004.

11

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 35 of 79
Lipsitch, Marc

Health Science & Technology Microbiology (HMS). One lecture per year.
Taught 2002, 2003, 2005, 2007, 2008, 2009.
Modern Medical Microbe Hunters (HMS). One lecture per year.
Taught 2000, 2001, 2002, 2004.
Epidemiology 513: Issues in the Reporting of Clinical Trials. Guest lecture 2011.
Epidemiology 203. Four, 2-hour lectures per year on infectious disease epidemiology
2012, 2014, 2016, 2017, 2018,2019
ID250 Ethical Basis of Public Health Practice. One lecture per year
Guest lecture 2015
GHP539 Control of Infectious Diseases in Low/Mid Income Countries: Social, Political
and Economic dimensions
Guest lecture 2017
MPH100
Guest lecture 2019, 2020 (Spring and Fall)
Harvard College Gen Ed 1098 Natural Disasters
Guest lecture 2020
Short Courses Outside Harvard
Harvard-Karolinska Summer School on Modern Methods in Biostatistics and
Epidemiology, Treviso, Italy. Infectious Disease Epidemiology. Developed a 1-week
intensive introductory course with exercises and was sole instructor. Taught 2005.
Hong Kong Centre for Health Protection Short Course in Mathematical Modelling of
Infectious Diseases. Participated in course development and taught three lectures.
Taught 2006.
Infection and Immunity in Children, Department of Paediatrics, Oxford University, UK.
Delivered 1 lecture by videolink. Taught June 2010.
Winter Forum – Pandemic 2011. Duke Global Health Institute and Office for
Undergraduate Education, Durham, NC. Delivered one lecture by videolink. Taught
January 2011.
Practical Short Course in Infectious Disease Modeling. National Center for
Immunization and Respiratory Diseases, US Centers for Disease Control & Prevention
(CDC). Course director (collaboratively with Hong Kong University and Imperial College
London) and instructor. Taught June 2011.
Erasmus Summer Program, Erasmus University, Rotterdam, Netherlands. Master Class
taught by videolink. Taught August 2011.

12

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 36 of 79
Lipsitch, Marc

Short Course in Infectious Disease Modeling: Hong Kong University and HSPH CCDD:
Kuala Lumpur 2014, Bangkok 2012
Course organizer and faculty: Short Course in Infectious Disease Modeling: HSPH
CCDD, Imperial College London, Hong Kong University
Centers for Disease Control and Prevention 2011, 2014
Faculty Guest Lecturer: ICARe (International course on Antibiotic Resistance), Pasteur
Institute, at Fondation Merieux, Les Pensieres, France.
2018, 2019
Online Modules
Herd Immunity in: Vaccines 101, Harvard School of Public Health online course
Recorded Summer 2014
Heterogeneity in: Epidemics, University of Hong Kong HKUx EdX course
Recorded Summer 2014
Guest Teaching Outside Harvard
Georgetown University Department of Microbiology and Immunology: guest lecture in
Science Diplomacy and World Health, Tomoko Steen instructor (2014, 2016)
Princeton University Woodrow Wilson School: guest lecture in Topics in Development:
Global Challenges of Infection, Burden and Control, Adel Mahmoud and Bryan Grenfell
instructors (2016, 2018)
Supervision
Research Scientist supervisor:
2005-2008
2008-2009
2008-2010
2010-2018
2019-present

Krzysztof Trzcinski, D.V.M., Ph.D., Research Scientist
Krzysztof Trzcinski, D.V.M., Ph.D., Senior Research Scientist
(now Assistant Professor, University of Utrecht, Netherlands)
Edward Goldstein, Ph.D., Research Scientist
Edward Goldstein, Ph.D., Senior Research Scientist
Rene Niehus, Ph.D, Research Associate

Postdoctoral supervisor:
2001-2005
2001-2002
2001-2002

Krzysztof Trzcinski, D.V.M., Ph.D. Assistant Professor, University
of Utrecht, Netherlands.
Noman Siddiqi, Ph.D. (Co-supervisor with Eric Rubin). Currently
BL3 Manager, Harvard School of Public Health
Susan Huang, M.D., M.P.H. (Secondary advisor) (currently
Professor of Infectious Disease, University of California, Irvine).

13

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 37 of 79
Lipsitch, Marc

2002-2003
2003-2005
2004-2008
2006-2008
2008
2010
2009-2011
2010-2013
2010-2014
2010-2014
2011-2013
2013-2016
2013-2019
2014-2016
2014
2015-2017
2015-2018
2015-2018

Ben Cooper, Ph.D. Professor, Nuffield Department of Medicine,
Mahidol-Oxford Tropical Research Unit, Bangkok, Thailand
Michael Palmer, Ph.D. Currently working in the IT Industry
Gili Regev-Yochay, M.D. Currently Assistant Professor, Tel Aviv
University and Head of Infectious Diseases Epidemiology Unit,
Gertner Institute, Tel Aviv, Israel.
Debby Bogaert, M.D., Ph.D. Professor of Pediatric Infectious
Diseases, University of Edinburgh
Edward Goldstein, Ph.D. Senior Research Scientist, HSPH
Daniel Weinberger, Ph.D. Assistant Professor, Yale School of
Public Health
Joel Miller, Ph.D. Currently Senior Research Scientist, Institute for
Disease Modeling, Seattle
Sarah Cobey, Ph.D. Associate Professor of Ecology and
Evolution, University of Chicago
Yuan Li, Ph.D. Epidemiologist, CDC
Yonatan Grad, M.D., Ph.D. Assistant Professor, Harvard TH Chan
School of Public Health
Nicholas Croucher, Ph.D. (co-advisor with W. Hanage). Senior
Lecturer and Henry Dale Fellow, Imperial College
Colin Worby, Ph.D. (co-advisor with W. Hanage) Staff Scientist,
Broad Institute.
Hsiao-Han Chang, Ph.D. (co-advisor with C. Buckee). Starting
2019: Assistant Professor, National Tsing Hua University, Taiwan
Nadia Abuelezam, Sc.D. (secondary advisor with George Seage).
Currently Assistant Professor, Boston College School of Nursing.
Ben Althouse, Ph.D. (external faculty advisor for his Santa Fe
Institute Postdoc)
Kate Langwig, Ph.D. Assistant Professor of Ecology, Virginia Tech
Taj Azarian, Ph.D. Assistant Professor of Medicine, Burnett
School of Biomedical Sciences, Department of Molecular
Microbiology, University of Central Florida College of Medicine
Brian Arnold, Ph.D. Bioinformatics Scientist, Faculty of Arts

and Sciences, Harvard University
2015-2018
2016-present
2017-2018
2017-2018
2017-2019
2018-present
2019-present
2019-present
2020
2020-present

Maria Georgieva, Ph.D. Postdoctoral Fellow, Department of
Physiology, University of Lausanne
Samantha Palace, Ph.D. (co-supervisor with Y. Grad)
Lucy Li, Ph.D. Bioinformatics Scientist I, Chan Zuckerberg Biohub
Joseph Lewnard, Ph.D. Assistant Professor, Department of
Epidemiology, UC Berkeley
Ayesha Mahmud, Ph.D. (Co-advisor with C. Buckee). Assistant
Professor, Department of Demography, UC Berkeley
Pamela Martinez, Ph.D. (Co-advisor with C. Buckee)
Xueting Qiu, Ph.D. (Co-advisor with W. Hanage)
Lerato Magosi, D.Phil.
Lee Kennedy-Shaffer, Ph.D., Assistant Professor, Vassar College
Rebecca Kahn, Ph.D.

Doctoral student supervisor:

14

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 38 of 79
Lipsitch, Marc

2000-2001
2000-2005
2000-2001
2001-2006
2002-2005
2002-2011
2003-2008
2004-2012
2006-2012
2006-2010
2007-2008
2007-2008
2014-2018
2016-present
2016-present
2018-2020
2019-present

Ivo Foppa (Epi). Currently Epidemiologist, Influenza Division,
CDC
Hailay Teklehaimenot (Epi). Currently at Ministry of Health, Addis
Ababa, Ethiopia
Robert Suruki (Epi): completed doctoral studies with another
advisor; currently at GlaxoSmithKline.
Christina Mills (Epi). Currently Attending Physician, Boston
Children’s Hospital Boston
Alethea McCormick (Epi). Currently Research Associate, Harvard
School of Public Health
Sibel Ascioglu (Epi). Currently at Glaxo SmithKline
Virginia Pitzer (Epi). Currently Assistant Professor, Yale School of
Public Health
Jessica Hartman Jacobs (Epi)
Justin O’Hagan (Epi). Currently Head of Outcomes Research,
Dengue, Merck.
Daniel Weinberger (BPH). Currently Assistant Professor, Yale
School of Public Health
Chris Ford (BPH). Currently Postdoc, Broad Institute.
Karell Pelle (BPH)
Matthew Hitchings (Epi). Currently postdoctoral fellow, Emerging
Pathogens Institute, University of Florida
Christine Tedijanto (Population Health Sciences/Epi)
Emma Accorsi (Population Health Sciences/Epi)
Rebecca Kahn (Population Health Sciences/Epi)
Keya Joshi (Population Health Sciences/Epi)

Master’s student supervisor:
2000-2002
2000-2008
2001-2002
2001-2002
2002-2004
2003-2005
2004-2005
2004-2005
2004-2005
2005-2006
2005-2006
2005-2006
2006-2007
2006-2007
2006-2007
2006-2007
2007-2008
2007-2008
2007-2008
2005-2006

Alison Han (MPH)
Catherine Laine (Epi MSc). Currently Founder and Deputy
Director, Appropriate Infrastructure Development Group.
Benjamin Ip, MD (MPH)
Rajneesh Hazarika, MD (MPH)
Hoa Nguyen, MD (MS)
Dereje Dengela (MS)
Heather Green (MS)
Wei-yen Lim, MD (MPH)
Phil James, MD (MPH)
Jeffrey Cloud, MD (MPH)
Yen-Tsung Huang, MD (MPH)
Minghua Chen, MD (MPH)
Chou-Cheng Lai, MD (MS)
Jennifer Shuford, MD (MPH)
Chih-Hao Chen, MD (MS)
Mark Brady (MPH)
Indrajit Hazarika, MD (MPH)
Hyun Joon Shin, MD (MPH)
Amit Vora (MPH)
Christie Jeon (MS)

15

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 39 of 79
Lipsitch, Marc

2004-2007
2009-2011
2010-2012
2011-2013
2011-2013
2013-2014
2016-2017
2016-2018
2016-2018
2016-2018
2017-2019
2018-2020
2019-2020
2019-present

Gili Regev-Yochay, MD (MS)
Weixiong Ke
Karen Aanensen
Talia Quandelacy
Patrick Mitchell
Fausto Bustos
Say Tat Ooi, MD (MPH)
Michael Martin (MS)
Inga Holmdahl (MS)
Rebecca Kahn (MS)
Sarah Lapidus (MS)
Nancy Li (MS)
Eva Rumpler (MS)
Rafia Bosan (MS)

Undergraduate supervisor:
Summer 2001
Fall 2001
2016-2018
Summer 2018

Eneida Villanueva (Summer Minority Intern)
Jonathan Burton-MacLeod (Bio 91r supervised reading, FAS)
Alan Yang (Supervised research)
Tara E. Gallagher, Dartmouth College (Summer intern)

Thesis committees:
2000-2001
2004-2007
2004-2005
2005
2005-2007
2007-2010
2008-2011
2010-2013
2010-2013
2011
2011-2017
2011-2012
2011-2013
2013
2014
2015-2017
2015-2016
2016
2016
2015-2017
2017-2019
2017-present

Megan Murray (Dr. P.H., completed 2000-1)
Eben Kenah (Epidemiology)
Y. Claire Wang (Health Policy and Management)
Seema Thakore Meloni (Ph.D., Biological Sciences in Public
Health)
Mary Farrow (Ph.D., Biological Sciences in Public Health)
Kevin Chan (Population & International Health)
Amy Bei (Ph.D., Biological Sciences in Public Health)
Chris Ford (Ph.D., Biological Sciences in Public Health)
Regina Joice (Ph.D., Biological Sciences in Public Health)
Rachel Daniels (Ph.D., Biological Sciences in Public Health)
Freeman Suber MD (Ph.D., Biological Sciences in Public Health)
Tami Lieberman (Ph.D., Systems Biology)
Wei Wu (Epidemiology)
Opponent, PhD of Rolf Ypma, University of Utrecht
Clare Louise Kinnear, PhD, The University of Melbourne (external
examiner)
Corey Peak (SD, Epidemiology)
Patrick Mitchell (SD, Epidemiology)
Hattie Chung (PhD, Systems Biology, Harvard GSAS),
examination committee
Nicole Espy (PhD, BPH, defense committee)
Quizhi Chang (SD, Epidemiology)
Eric Mooring (SD, Epidemiology)
Rebecca Mandt (PhD, BPH)

16

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 40 of 79
Lipsitch, Marc

2017-2020
2018-2020

Sarah McGough (PhD, Population Health Sciences)
Lee Kennedy-Shaffer (Biostatistics)

Oral exam committees:
2001
2001
2002
2004
2004
2004
2007
2008
2009
2009
2009
2011
2011
2012
2016
2016

Yemane Yihdego (IID)
Chris Mores (IID)
Pride Chigwedere, MD (IID)
Beth Ann Griffin (Biostatistics)
Eben Kenah (Epidemiology)
Laura Forsberg (Biostatistics)
Kevin Chan (Population & International Health)
Hsien-Ho Lin (Epidemiology)
Regina Joice (BPH)
Celene Chang (BPH)
Kathleen Wirth (Epi)
Freeman Suber (BPH)
Wei Wu (Epi)
Nicanor Rodriguez, DVM (IID)
Corey Peak (Epi)
Qiuzhi Chang (Epi)

Laboratory rotations supervised:
2000
2004
2006
2006
2008
2009
2010
2011
2016

Chun Chao (MS student, Immunology & Infectious Diseases)
Adam MacNeil (PhD, Biological Sciences in Public Health)
Daniel Weinberger (PhD, Biological Sciences in Public Health)
Amy Bei (PhD, Biological Sciences in Public Health)
Chris Ford (PhD, Biological Sciences in Public Health)
Richa Gawande (PhD, Biological Sciences in Public Health)
Sri Kalyanamaran (PhD, Biological Sciences in Public Health)
Wen Xie (PhD, Biological Sciences in Public Health)
Rebecca Mandt (PhD, Biological Sciences in Public Health)

SCHOOL AND DEPARTMENTAL SERVICE
Interdisciplinary Program in the Epidemiology of Infectious Disease
 Steering committee, 2000-present
 Seminar Coordinator, 2000-present
 Associate Director, 2004-present
Biological Sciences in Public Health Program
 Admissions interviewer, 2001-present
 Curriculum Committee, 2006-2012
Department of Epidemiology
 Co-leader, department retreat, 2001

17

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 41 of 79
Lipsitch, Marc



Admissions committee, 2001-2014

HSPH Epidemiology and Biostatistics Planning Committee: member, 2003-2004
HSPH Allston Planning Committee: member, 2003-2004
HSPH Information Technology Advisory Committee: member, 2004-2005
HSPH Committee on Educational Policy: member, 2005-2008
HSPH Standing Committee on Appointments, Reappointments, and Promotions:
member, 2008-present, vice-chair 2010-2012, chair 2012-2013
University Pandemic Response Planning Committee: member, 2005-present
Bioinformatics Junior Faculty Search Committee: member, 2007-2008
Epidemiology Methods Junior Faculty Search Committee: member, 2008
Epidemiology Infectious Diseases Junior Faculty Search Committee: chair, 2008
HSPH Committee on the Concerns of Women Faculty: member, 2010-2012
HMS Subcommittee on Admissions for the MD/PhD: member, 2010-2012, 2014present
Harvard University Office of Scholarly Communication Advisory Committee,
member, 2013-present
Harvard T.H. Chan School of Public Health Dean Search Advisory Committee,
member, 2015
Harvard T.H. Chan School of Public Health Faculty Judge, Postdoctoral
Association Travel Awards, member, 2016
Epidemiology Junior Faculty Search Committee, 2017-2018

18

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 42 of 79
Lipsitch, Marc

BIBLIOGRAPHY
Peer-Reviewed Articles
1.
2.
3.
4.
5.
6.
7.
8.
9.
10.

11.
12.
13.
14.

15.

Petrie M, Lipsitch M. Avian polygyny is most likely in populations with high
variability in heritable male fitness. Proc R Soc Lond B. 1994 June
22;256(1347):275-80. doi: 10.1098/rspb.1994.0081.
Lipsitch M, Nowak MA. The evolution of virulence in sexually transmitted
HIV/AIDS. J Theor Biol. 1995 Jun 21;174(4):427-40. doi: 10.1006/jtbi.1995.0109.
PMID: 7666673.
Lipsitch M, Nowak MA, Ebert D, May RM. The population dynamics of vertically
and horizontally transmitted parasites. Proc Biol Sci. 1995 Jun 22;260(1359):3217. doi: 10.1098/rspb.1995.0099. PMID: 7630898.
Lipsitch M, Herre EA, Nowak MA. Host Population Structure and the Evolution of
Virulence: A “Law Of Diminishing Returns”. Evolution. 1995 Aug;49(4):743-748.
doi: 10.1111/j.1558-5646.1995.tb02310.x. PMID: 28565133.
Mangin KL, Lipsitch M, Ebert D. Virulence and transmission modes of two
microsporidia in Daphnia magna. Parasitology. 1995;111(2):133-142. doi:
10.1017/S0031182000064878.
Lipsitch M, Siller S, Nowak MA. The Evolution of Virulence in Pathogens With
Vertical and Horizontal Transmission. Evolution. 1996 Oct;50(5):1729-1741. doi:
10.1111/j.1558-5646.1996.tb03560.x. PMID: 28565576.
Lipsitch M, Moxon ER. Virulence and transmissibility of pathogens: what is the
relationship? Trends Microbiol. 1997 Jan;5(1):31-7. doi: 10.1016/S0966842X(97)81772-6. PMID: 9025233.
Antia R, Lipsitch M. Mathematical models of parasite responses to host immune
defences. Parasitology. 1997;115 Suppl:S155-67. doi:
10.1017/s003118209700200x. PMID: 9571700.
Levin BR, Lipsitch M, Perrot V, Schrag S, Antia R, Simonsen L, Walker NM,
Stewart FM. The population genetics of antibiotic resistance. Clin Infect Dis. 1997
Jan;24 Suppl 1:S9-16. doi: 10.1093/clinids/24.supplement_1.s9. PMID: 8994776.
Lipsitch M, Levin BR. The within-host population dynamics of antibacterial
chemotherapy: conditions for the evolution of resistance. Ciba Found Symp.
1997;207:112-27; discussion 127-30. doi: 10.1002/9780470515358.ch8. PMID:
9189638.
Lipsitch M, Levin BR. The population dynamics of antimicrobial chemotherapy.
Antimicrob Agents Chemother. 1997 Feb;41(2):363-73. doi:
10.1128/AAC.41.2.363. PMID: 9021193; PMCID: PMC163715.
Lipsitch M. Vaccination against colonizing bacteria with multiple serotypes. Proc
Natl Acad Sci U S A. 1997 Jun 10;94(12):6571-6. doi: 10.1073/pnas.94.12.6571.
PMID: 9177259; PMCID: PMC21091.
Lipsitch M. Evolution in health and disease. Trends Microbiol. 1997
Aug;5(8):303-5. doi: 10.1016/S0966-842X(97)01087-1. PMID: 9263405.
Datta A, Hendrix M, Lipsitch M, Jinks-Robertson S. Dual roles for DNA sequence
identity and the mismatch repair system in the regulation of mitotic crossing-over
in yeast. Proc Natl Acad Sci U S A. 1997 Sep 2;94(18):9757-62. doi:
10.1073/pnas.94.18.9757. PMID: 9275197; PMCID: PMC23263.
Bonhoeffer S, Lipsitch M, Levin BR. Evaluating treatment protocols to prevent
antibiotic resistance. Proc Natl Acad Sci U S A. 1997 Oct 28;94(22):12106-11.
doi: 10.1073/pnas.94.22.12106. PMID: 9342370; PMCID: PMC23718.

19

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 43 of 79
Lipsitch, Marc

16.
17.

18.

19.

20.
21.

22.

23.

24.
25.

26.

27.

Lipsitch M. Transmission Rates and HIV Virulence: Comments to Massad.
Evolution. 1997 Feb;51(1):319-320. doi: 10.1111/j.1558-5646.1997.tb02416.x.
PMID: 28568797.
Levin BR, Antia R, Berliner E, Bloland P, Bonhoeffer S, Cohen M, DeRouin T,
Fields PI, Jafari H, Jernigan D, Lipsitch M, McGowan JE Jr, Mead P, Nowak M,
Porco T, Sykora P, Simonsen L, Spitznagel J, Tauxe R, Tenover F. Resistance
to antimicrobial chemotherapy: a prescription for research and action. Am J Med
Sci. 1998 Feb;315(2):87-94. doi: 10.1097/00000441-199802000-00004. PMID:
9472907.
Lipsitch M, Levin BR. Population dynamics of tuberculosis treatment:
mathematical models of the roles of non-compliance and bacterial heterogeneity
in the evolution of drug resistance. Int J Tuberc Lung Dis. 1998 Mar;2(3):187-99.
PMID: 9526190.
Stewart FM, Antia R, Levin BR, Lipsitch M, Mittler JE. The population genetics of
antibiotic resistance. II: Analytic theory for sustained populations of bacteria in a
community of hosts. Theor Popul Biol. 1998 Apr;53(2):152-65. doi:
10.1006/tpbi.1997.1352. PMID: 9615474.
Levin BR, Lipsitch M, Bonhoeffer S. Population biology, evolution, and infectious
disease: convergence and synthesis. Science. 1999 Feb 5;283(5403):806-9. doi:
10.1126/science.283.5403.806. PMID: 9933155.
Lipsitch M. Bacterial vaccines and serotype replacement: lessons from
Haemophilus influenzae and prospects for Streptococcus pneumoniae. Emerg
Infect Dis. 1999 May-Jun;5(3):336-45. doi: 10.3201/eid0503.990304. Erratum in:
Emerg Infect Dis 1999 Sep-Oct;5(5):734. PMID: 10341170; PMCID:
PMC2640786.
Lipsitch M, Bergstrom CT, Levin BR. The epidemiology of antibiotic resistance in
hospitals: paradoxes and prescriptions. Proc Natl Acad Sci U S A. 2000 Feb
15;97(4):1938-43. doi: 10.1073/pnas.97.4.1938. PMID: 10677558; PMCID:
PMC26540.
Lipsitch M, Dykes JK, Johnson SE, Ades EW, King J, Briles DE, Carlone GM.
Competition among Streptococcus pneumoniae for intranasal colonization in a
mouse model. Vaccine. 2000 Jun 15;18(25):2895-901. doi: 10.1016/s0264410x(00)00046-3. Erratum in: Vaccine 2000 Oct 15;19(4-5):598. PMID:
10812233.
Bergstrom CT, Lipsitch M, Levin BR. Natural selection, infectious transfer and the
existence conditions for bacterial plasmids. Genetics. 2000 Aug;155(4):1505-19.
PMID: 10924453; PMCID: PMC1461221.
Negri MC, Lipsitch M, Blázquez J, Levin BR, Baquero F. Concentrationdependent selection of small phenotypic differences in TEM beta-lactamasemediated antibiotic resistance. Antimicrob Agents Chemother. 2000
Sep;44(9):2485-91. doi: 10.1128/aac.44.9.2485-2491.2000. PMID: 10952599;
PMCID: PMC90089.
Lipsitch M, Bacon TH, Leary JJ, Antia R, Levin BR. Effects of antiviral usage on
transmission dynamics of herpes simplex virus type 1 and on antiviral resistance:
predictions of mathematical models. Antimicrob Agents Chemother. 2000
Oct;44(10):2824-35. doi: 10.1128/aac.44.10.2824-2835.2000. PMID: 10991866;
PMCID: PMC90157.
Ebert D, Lipsitch M, Mangin KL. The Effect of Parasites on Host Population
Density and Extinction: Experimental Epidemiology with Daphnia and Six
Microparasites. Am Nat. 2000 Nov;156(5):459-477. doi: 10.1086/303404. PMID:
29587512.

20

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 44 of 79
Lipsitch, Marc

28.
29.
30.

31.

32.

33.
34.

35.

36.
37.

38.

39.
40.

41.

Lipsitch M. Measuring and interpreting associations between antibiotic use and
penicillin resistance in Streptococcus pneumoniae. Clin Infect Dis. 2001 Apr
1;32(7):1044-54. doi: 10.1086/319604. Epub 2001 Mar 23. PMID: 11264033.
Lipsitch M. Microbiology. Bacterial population genetics and disease. Science.
2001 Apr 6;292(5514):59-60. doi: 10.1126/science.1060498. PMID: 11294216.
Francis KP, Yu J, Bellinger-Kawahara C, Joh D, Hawkinson MJ, Xiao G, Purchio
TF, Caparon MG, Lipsitch M, Contag PR. Visualizing pneumococcal infections in
the lungs of live mice using bioluminescent Streptococcus pneumoniae
transformed with a novel gram-positive lux transposon. Infect Immun. 2001
May;69(5):3350-8. doi: 10.1128/IAI.69.5.3350-3358.2001. PMID: 11292758;
PMCID: PMC98294.
Lipsitch M. Interpreting results from trials of pneumococcal conjugate vaccines: a
statistical test for detecting vaccine-induced increases in carriage of nonvaccine
serotypes. Am J Epidemiol. 2001 Jul 1;154(1):85-92. doi: 10.1093/aje/154.1.85.
PMID: 11427408.
Malley R, Lipsitch M, Stack A, Saladino R, Fleisher G, Pelton S, Thompson C,
Briles D, Anderson P. Intranasal immunization with killed unencapsulated whole
cells prevents colonization and invasive disease by capsulated pneumococci.
Infect Immun. 2001 Aug;69(8):4870-3. doi: 10.1128/IAI.69.8.4870-4873.2001.
PMID: 11447162; PMCID: PMC98576.
Lipsitch M. The rise and fall of antimicrobial resistance. Trends Microbiol. 2001
Sep;9(9):438-44. doi: 10.1016/s0966-842x(01)02130-8. PMID: 11553456.
Bonten MJ, Austin DJ, Lipsitch M. Understanding the spread of antibiotic
resistant pathogens in hospitals: mathematical models as tools for control. Clin
Infect Dis. 2001 Nov 15;33(10):1739-46. doi: 10.1086/323761. Epub 2001 Oct
10. PMID: 11595995.
Lipsitch M, Samore MH. Antimicrobial use and antimicrobial resistance: a
population perspective. Emerg Infect Dis. 2002 Apr;8(4):347-54. doi:
10.3201/eid0804.010312. Erratum in: Emerg Infect Dis 2002 May;8(5):540.
PMID: 11971765; PMCID: PMC2730242.
Lipsitch M, Singer RS, Levin BR. Antibiotics in agriculture: when is it time to close
the barn door? Proc Natl Acad Sci U S A. 2002 Apr 30;99(9):5752-4. doi:
10.1073/pnas.092142499. PMID: 11983874; PMCID: PMC122845.
Harris AD, Samore MH, Lipsitch M, Kaye KS, Perencevich E, Carmeli Y. Controlgroup selection importance in studies of antimicrobial resistance: examples
applied to Pseudomonas aeruginosa, Enterococci, and Escherichia coli. Clin
Infect Dis. 2002 Jun 15;34(12):1558-63. doi: 10.1086/340533. Epub 2002 May
23. PMID: 12032889.
Lipsitch M, Davis G, Corey L. Potential benefits of a serodiagnostic test for
herpes simplex virus type 1 (HSV-1) to prevent neonatal HSV-1 infection. Sex
Transm Dis. 2002 Jul;29(7):399-405. doi: 10.1097/00007435-200207000-00007.
PMID: 12170129.
Lipsitch M, Sousa AO. Historical intensity of natural selection for resistance to
tuberculosis. Genetics. 2002 Aug;161(4):1599-607. PMID: 12196403; PMCID:
PMC1462208.
Fisman DN, Lipsitch M, Hook EW 3rd, Goldie SJ. Projection of the future
dimensions and costs of the genital herpes simplex type 2 epidemic in the United
States. Sex Transm Dis. 2002 Oct;29(10):608-22. doi: 10.1097/00007435200210000-00008. PMID: 12370529.
Singer RS, Finch R, Wegener HC, Bywater R, Walters J, Lipsitch M. Antibiotic
resistance--the interplay between antibiotic use in animals and human beings.

21

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 45 of 79
Lipsitch, Marc

42.

43.

44.

45.
46.

47.

48.

49.
50.

51.

52.

53.

Lancet Infect Dis. 2003 Jan;3(1):47-51. doi: 10.1016/s1473-3099(03)00490-0.
PMID: 12505035.
Lipsitch M, Bergstrom CT, Antia R. Effect of human leukocyte antigen
heterozygosity on infectious disease outcome: the need for allele-specific
measures. BMC Med Genet. 2003 Jan 24;4:2. doi: 10.1186/1471-2350-4-2. Epub
2003 Jan 24. PMID: 12542841; PMCID: PMC149356.
Malley R, Henneke P, Morse SC, Cieslewicz MJ, Lipsitch M, Thompson CM,
Kurt-Jones E, Paton JC, Wessels MR, Golenbock DT. Recognition of
pneumolysin by Toll-like receptor 4 confers resistance to pneumococcal infection.
Proc Natl Acad Sci U S A. 2003 Feb 18;100(4):1966-71. doi:
10.1073/pnas.0435928100. Epub 2003 Feb 4. PMID: 12569171; PMCID:
PMC149942.
O’Brien KL, Nohynek H; World Health Organization Pneumococcal Vaccine
Trials Carraige Working Group. Report from a WHO working group: standard
method for detecting upper respiratory carriage of Streptococcus pneumoniae.
Pediatr Infect Dis J. 2003 Feb;22(2):133-40. doi:
10.1097/01.inf.0000048676.93549.d1. PMID: 12586977.
Lipsitch M, Murray MB. Multiple equilibria: tuberculosis transmission require
unrealistic assumptions. Theor Popul Biol. 2003 Mar;63(2):169-70. doi:
10.1016/s0040-5809(02)00037-0. PMID: 12615499.
McCormick AW, Whitney CG, Farley MM, Lynfield R, Harrison LH, Bennett NM,
Schaffner W, Reingold A, Hadler J, Cieslak P, Samore MH, Lipsitch M.
Geographic diversity and temporal trends of antimicrobial resistance in
Streptococcus pneumoniae in the United States. Nat Med. 2003 Apr;9(4):424-30.
doi: 10.1038/nm839. Epub 2003 Mar 10. PMID: 12627227.
Lipsitch M, Cohen T, Cooper B, Robins JM, Ma S, James L, Gopalakrishna G,
Chew SK, Tan CC, Samore MH, Fisman D, Murray M. Transmission dynamics
and control of severe acute respiratory syndrome. Science. 2003 Jun
20;300(5627):1966-70. doi: 10.1126/science.1086616. Epub 2003 May 23.
PMID: 12766207; PMCID: PMC2760158.
Trzcinski K, Thompson CM, Lipsitch M. Construction of otherwise isogenic
serotype 6B, 7F, 14, and 19F capsular variants of Streptococcus pneumoniae
strain TIGR4. Appl Environ Microbiol. 2003 Dec;69(12):7364-70. doi:
10.1128/aem.69.12.7364-7370.2003. PMID: 14660386; PMCID: PMC309976.
Cooper B, Lipsitch M. The analysis of hospital infection data using hidden
Markov models. Biostatistics. 2004 Apr;5(2):223-37. doi:
10.1093/biostatistics/5.2.223. PMID: 15054027.
Perencevich EN, Fisman DN, Lipsitch M, Harris AD, Morris JG Jr, Smith DL.
Projected benefits of active surveillance for vancomycin-resistant enterococci in
intensive care units. Clin Infect Dis. 2004 Apr 15;38(8):1108-15. doi:
10.1086/382886. Epub 2004 Apr 5. PMID: 15095215.
Trzciński K, Thompson CM, Lipsitch M. Single-step capsular transformation and
acquisition of penicillin resistance in Streptococcus pneumoniae. J Bacteriol.
2004 Jun;186(11):3447-52. doi: 10.1128/JB.186.11.3447-3452.2004. PMID:
15150231; PMCID: PMC415782.
Laine C, Mwangi T, Thompson CM, Obiero J, Lipsitch M, Scott JA. Age-specific
immunoglobulin g (IgG) and IgA to pneumococcal protein antigens in a
population in coastal kenya. Infect Immun. 2004 Jun;72(6):3331-5. doi:
10.1128/IAI.72.6.3331-3335.2004. PMID: 15155637; PMCID: PMC415695.
Teklehaimanot HD, Schwatrz J, Teklehaimanot A, Lipsitch M. Alert threshold
algorithms and malaria epidemic detection. Emerg Infect Dis. 2004

22

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 46 of 79
Lipsitch, Marc

54.

55.
56.

57.

58.
59.

60.
61.

62.

63.
64.

65.

Jul;10(7):1220-6. doi: 10.3201/eid1007.030722. PMID: 15324541; PMCID:
PMC3323320.
Bergstrom CT, Lo M, Lipsitch M. Ecological theory suggests that antimicrobial
cycling will not reduce antimicrobial resistance in hospitals. Proc Natl Acad Sci U
S A. 2004 Sep 7;101(36):13285-90. doi: 10.1073/pnas.0402298101. Epub 2004
Aug 12. PMID: 15308772; PMCID: PMC516561.
Lipsitch M, Bergstrom CT. Invited commentary: real-time tracking of control
measures for emerging infections. Am J Epidemiol. 2004 Sep 15;160(6):517-9;
discussion 520. doi: 10.1093/aje/kwh256. PMID: 15353410.
Teklehaimanot HD, Lipsitch M, Teklehaimanot A, Schwartz J. Weather-based
prediction of Plasmodium falciparum malaria in epidemic-prone regions of
Ethiopia I. Patterns of lagged weather effects reflect biological mechanisms.
Malar J. 2004 Nov 12;3:41. doi: 10.1186/1475-2875-3-41. PMID: 15541174;
PMCID: PMC535540.
Teklehaimanot HD, Schwartz J, Teklehaimanot A, Lipsitch M. Weather-based
prediction of Plasmodium falciparum malaria in epidemic-prone regions of
Ethiopia II. Weather-based prediction systems perform comparably to early
detection systems in identifying times for interventions. Malar J. 2004 Nov
19;3:44. doi: 10.1186/1475-2875-3-44. PMID: 15555061; PMCID: PMC535541.
Mills CE, Robins JM, Lipsitch M. Transmissibility of 1918 pandemic influenza.
Nature. 2004 Dec 16;432(7019):904-6. doi: 10.1038/nature03063. PMID:
15602562; PMCID: PMC7095078.
Lipsitch M, Whitney CG, Zell E, Kaijalainen T, Dagan R, Malley R. Are
anticapsular antibodies the primary mechanism of protection against invasive
pneumococcal disease? PLoS Med. 2005 Jan;2(1):e15. doi:
10.1371/journal.pmed.0020015. Epub 2005 Jan 25. PMID: 15696204; PMCID:
PMC545206.
Lipsitch M. Ethics of rationing the flu vaccine. Science. 2005 Jan 7;307(5706):41.
doi: 10.1126/science.307.5706.41b. PMID: 15637252.
Malley R, Trzcinski K, Srivastava A, Thompson CM, Anderson PW, Lipsitch M.
CD4+ T cells mediate antibody-independent acquired immunity to pneumococcal
colonization. Proc Natl Acad Sci U S A. 2005 Mar 29;102(13):4848-53. doi:
10.1073/pnas.0501254102. Epub 2005 Mar 21. PMID: 15781870; PMCID:
PMC555733.
Trzciński K, MacNeil A, Klugman KP, Lipsitch M. Capsule homology does not
increase the frequency of transformation of linked penicillin binding proteins PBP
1a and PBP 2x in Streptococcus pneumoniae. Antimicrob Agents Chemother.
2005 Apr;49(4):1591-2. doi: 10.1128/AAC.49.4.1591-1592.2005. PMID:
15793147; PMCID: PMC1068637.
Lipsitch M. Pandemic flu: we are not prepared. MedGenMed. 2005 Apr
15;7(2):56. PMID: 16369434; PMCID: PMC1681602.
Huang SS, Finkelstein JA, Lipsitch M. Modeling community- and individual-level
effects of child-care center attendance on pneumococcal carriage. Clin Infect Dis.
2005 May 1;40(9):1215-22. doi: 10.1086/428580. Epub 2005 Mar 23. PMID:
15825020.
Dagan R, Givon-Lavi N, Fraser D, Lipsitch M, Siber GR, Kohberger R. Serum
serotype-specific pneumococcal anticapsular immunoglobulin g concentrations
after immunization with a 9-valent conjugate pneumococcal vaccine correlate
with nasopharyngeal acquisition of pneumococcus. J Infect Dis. 2005 Aug
1;192(3):367-76. doi: 10.1086/431679. Epub 2005 Jun 28. PMID: 15995949.

23

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 47 of 79
Lipsitch, Marc

66.

67.

68.

69.

70.

71.

72.

73.
74.

75.

76.

Trzcinski K, Thompson C, Malley R, Lipsitch M. Antibodies to conserved
pneumococcal antigens correlate with, but are not required for, protection against
pneumococcal colonization induced by prior exposure in a mouse model. Infect
Immun. 2005 Oct;73(10):7043-6. doi: 10.1128/IAI.73.10.7043-7046.2005. PMID:
16177389; PMCID: PMC1230924.
Samore MH, Lipsitch M, Alder SC, Haddadin B, Stoddard G, Williamson J,
Sebastian K, Carroll K, Ergonul O, Carmeli Y, Sande MA. Mechanisms by which
antibiotics promote dissemination of resistant pneumococci in human
populations. Am J Epidemiol. 2006 Jan 15;163(2):160-70. doi:
10.1093/aje/kwj021. Epub 2005 Nov 30. PMID: 16319292.
Asquith B, Edwards CT, Lipsitch M, McLean AR. Inefficient cytotoxic T
lymphocyte-mediated killing of HIV-1-infected cells in vivo. PLoS Biol. 2006
Apr;4(4):e90. doi: 10.1371/journal.pbio.0040090. Epub 2006 Mar 14. PMID:
16515366; PMCID: PMC1395353.
Malley R, Srivastava A, Lipsitch M, Thompson CM, Watkins C, Tzianabos A,
Anderson PW. Antibody-independent, interleukin-17A-mediated, cross-serotype
immunity to pneumococci in mice immunized intranasally with the cell wall
polysaccharide. Infect Immun. 2006 Apr;74(4):2187-95. doi:
10.1128/IAI.74.4.2187-2195.2006. PMID: 16552049; PMCID: PMC1418935.
Trzcinski K, Thompson CM, Gilbey AM, Dowson CG, Lipsitch M. Incremental
increase in fitness cost with increased beta -lactam resistance in pneumococci
evaluated by competition in an infant rat nasal colonization model. J Infect Dis.
2006 May 1;193(9):1296-303. doi: 10.1086/501367. Epub 2006 Mar 17. PMID:
16586368.
Palmer ME, Lipsitch M. The influence of hitchhiking and deleterious mutation
upon asexual mutation rates. Genetics. 2006 May;173(1):461-72. doi:
10.1534/genetics.105.049445. Epub 2006 Feb 19. PMID: 16489233; PMCID:
PMC1461451.
Cohen T, Lipsitch M, Walensky RP, Murray M. Beneficial and perverse effects of
isoniazid preventive therapy for latent tuberculosis infection in HIV-tuberculosis
coinfected populations. Proc Natl Acad Sci U S A. 2006 May 2;103(18):7042-7.
doi: 10.1073/pnas.0600349103. Epub 2006 Apr 21. PMID: 16632605; PMCID:
PMC1459015.
Lipsitch M, Robins JM, Mills CE, Bergstrom CT. Multiple outbreaks and flu
containment plans. Science. 2006 May 12;312(5775):845. doi:
10.1126/science.312.5775.845b. PMID: 16690840.
Mills CE, Robins JM, Bergstrom CT, Lipsitch M. Pandemic influenza: risk of
multiple introductions and the need to prepare for them. PLoS Med. 2006
Jun;3(6):e135. doi: 10.1371/journal.pmed.0030135. PMID: 17214503; PMCID:
PMC1370924.
Wang YC, Lipsitch M. Upgrading antibiotic use within a class: tradeoff between
resistance and treatment success. Proc Natl Acad Sci U S A. 2006 Jun
20;103(25):9655-60. doi: 10.1073/pnas.0600636103. Epub 2006 Jun 13. PMID:
16772381; PMCID: PMC1480462.
Regev-Yochay G, Trzcinski K, Thompson CM, Malley R, Lipsitch M. Interference
between Streptococcus pneumoniae and Staphylococcus aureus: In vitro
hydrogen peroxide-mediated killing by Streptococcus pneumoniae. J Bacteriol.
2006 Jul;188(13):4996-5001. doi: 10.1128/JB.00317-06. PMID: 16788209;
PMCID: PMC1482988.

24

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 48 of 79
Lipsitch, Marc

77.
78.

79.

80.

81.

82.

83.

84.

85.

86.

87.

88.

Lipsitch M, Cohen T, Murray M, Levin BR. Antiviral resistance and the control of
pandemic influenza. PLoS Med. 2007 Jan;4(1):e15. doi:
10.1371/journal.pmed.0040015. PMID: 17253900; PMCID: PMC1779817.
Hanage WP, Huang SS, Lipsitch M, Bishop CJ, Godoy D, Pelton SI, Goldstein R,
Huot H, Finkelstein JA. Diversity and antibiotic resistance among nonvaccine
serotypes of Streptococcus pneumoniae carriage isolates in the post-heptavalent
conjugate vaccine era. J Infect Dis. 2007 Feb 1;195(3):347-52. doi:
10.1086/510249. Epub 2006 Dec 27. PMID: 17205472.
Wallinga J, Lipsitch M. How generation intervals shape the relationship between
growth rates and reproductive numbers. Proc Biol Sci. 2007 Feb
22;274(1609):599-604. doi: 10.1098/rspb.2006.3754. PMID: 17476782; PMCID:
PMC1766383.
Högberg L, Geli P, Ringberg H, Melander E, Lipsitch M, Ekdahl K. Age- and
serogroup-related differences in observed durations of nasopharyngeal carriage
of penicillin-resistant pneumococci. J Clin Microbiol. 2007 Mar;45(3):948-52. doi:
10.1128/JCM.01913-06. Epub 2007 Jan 3. PMID: 17202280; PMCID:
PMC1829115.
McCormick AW, Walensky RP, Lipsitch M, Losina E, Hsu H, Weinstein MC,
Paltiel AD, Freedberg KA, Seage GR 3rd. The effect of antiretroviral therapy on
secondary transmission of HIV among men who have sex with men. Clin Infect
Dis. 2007 Apr 15;44(8):1115-22. doi: 10.1086/512816. Epub 2007 Mar 9. PMID:
17366461; PMCID: PMC2365722.
Hatchett RJ, Mecher CE, Lipsitch M. Public health interventions and epidemic
intensity during the 1918 influenza pandemic. Proc Natl Acad Sci U S A. 2007
May 1;104(18):7582-7. doi: 10.1073/pnas.0610941104. Epub 2007 Apr 6. PMID:
17416679; PMCID: PMC1849867.
Basset A, Trzcinski K, Hermos C, O’Brien KL, Reid R, Santosham M, McAdam
AJ, Lipsitch M, Malley R. Association of the pneumococcal pilus with certain
capsular serotypes but not with increased virulence. J Clin Microbiol. 2007
Jun;45(6):1684-9. doi: 10.1128/JCM.00265-07. Epub 2007 Mar 28. PMID:
17392439; PMCID: PMC1933072.
Pitzer VE, Olsen SJ, Bergstrom CT, Dowell SF, Lipsitch M. Little evidence for
genetic susceptibility to influenza A (H5N1) from family clustering data. Emerg
Infect Dis. 2007 Jul;13(7):1074-6. doi: 10.3201/eid1307.061538. PMID:
18214184; PMCID: PMC2878232.
Pitzer VE, Leung GM, Lipsitch M. Estimating variability in the transmission of
severe acute respiratory syndrome to household contacts in Hong Kong, China.
Am J Epidemiol. 2007 Aug 1;166(3):355-63. doi: 10.1093/aje/kwm082. Epub
2007 May 10. PMID: 17493952; PMCID: PMC7110150.
Regev-Yochay G, Trzcinski K, Thompson CM, Lipsitch M, Malley R. SpxB is a
suicide gene of Streptococcus pneumoniae and confers a selective advantage in
an in vivo competitive colonization model. J Bacteriol. 2007 Sep;189(18):6532-9.
doi: 10.1128/JB.00813-07. Epub 2007 Jul 13. PMID: 17631628; PMCID:
PMC2045178.
Malley R, Lipsitch M, Bogaert D, Thompson CM, Hermans P, Watkins AC, Sethi
S, Murphy TF. Serum antipneumococcal antibodies and pneumococcal
colonization in adults with chronic obstructive pulmonary disease. J Infect Dis.
2007 Sep 15;196(6):928-35. doi: 10.1086/520937. Epub 2007 Aug 7. PMID:
17703425.
Lipsitch M, O’Neill K, Cordy D, Bugalter B, Trzcinski K, Thompson CM, Goldstein
R, Pelton S, Huot H, Bouchet V, Reid R, Santosham M, O’Brien KL. Strain

25

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 49 of 79
Lipsitch, Marc

89.
90.

91.

92.

93.

94.

95.

96.

97.
98.

characteristics of Streptococcus pneumoniae carriage and invasive disease
isolates during a cluster-randomized clinical trial of the 7-valent pneumococcal
conjugate vaccine. J Infect Dis. 2007 Oct 15;196(8):1221-7. doi:
10.1086/521831. Epub 2007 Sep 17. PMID: 17955441; PMCID: PMC3350793.
Lipsitch M, O’Hagan JJ. Patterns of antigenic diversity and the mechanisms that
maintain them. J R Soc Interface. 2007 Oct 22;4(16):787-802. doi:
10.1098/rsif.2007.0229. PMID: 17426010; PMCID: PMC2394542.
Basset A, Thompson CM, Hollingshead SK, Briles DE, Ades EW, Lipsitch M,
Malley R. Antibody-independent, CD4+ T-cell-dependent protection against
pneumococcal colonization elicited by intranasal immunization with purified
pneumococcal proteins. Infect Immun. 2007 Nov;75(11):5460-4. doi:
10.1128/IAI.00773-07. Epub 2007 Aug 13. PMID: 17698570; PMCID:
PMC2168310.
Regev-Yochay G, Malley R, Rubinstein E, Raz M, Dagan R, Lipsitch M. In vitro
bactericidal activity of Streptococcus pneumoniae and bactericidal susceptibility
of Staphylococcus aureus strains isolated from cocolonized versus
noncocolonized children. J Clin Microbiol. 2008 Feb;46(2):747-9. doi:
10.1128/JCM.01781-07. Epub 2007 Nov 26. PMID: 18039795; PMCID:
PMC2238136.
Dagan R, Barkai G, Givon-Lavi N, Sharf AZ, Vardy D, Cohen T, Lipsitch M,
Greenberg D. Seasonality of antibiotic-resistant streptococcus pneumoniae that
causes acute otitis media: a clue for an antibiotic-restriction policy? J Infect Dis.
2008 Apr 15;197(8):1094-102. doi: 10.1086/528995. PMID: 18419528; PMCID:
PMC2652754.
Walensky RP, Wood R, Weinstein MC, Martinson NA, Losina E, Fofana MO,
Goldie SJ, Divi N, Yazdanpanah Y, Wang B, Paltiel AD, Freedberg KA; CEPACInternational Investigators. Scaling up antiretroviral therapy in South Africa: the
impact of speed on survival. J Infect Dis. 2008 May 1;197(9):1324-32. doi:
10.1086/587184. PMID: 18422445; PMCID: PMC2423492.
Kenah E, Lipsitch M, Robins JM. Generation interval contraction and epidemic
data analysis. Math Biosci. 2008 May;213(1):71-9. doi:
10.1016/j.mbs.2008.02.007. Epub 2008 Feb 29. PMID: 18394654; PMCID:
PMC2365921.
Weinberger DM, Dagan R, Givon-Lavi N, Regev-Yochay G, Malley R, Lipsitch M.
Epidemiologic evidence for serotype-specific acquired immunity to pneumococcal
carriage. J Infect Dis. 2008 Jun 1;197(11):1511-8. doi: 10.1086/587941. PMID:
18471062.
Trzciński K, Thompson CM, Srivastava A, Basset A, Malley R, Lipsitch M.
Protection against nasopharyngeal colonization by Streptococcus pneumoniae is
mediated by antigen-specific CD4+ T cells. Infect Immun. 2008 Jun;76(6):267884. doi: 10.1128/IAI.00141-08. Epub 2008 Apr 7. PMID: 18391006; PMCID:
PMC2423086.
Cohen T, Lipsitch M. Too little of a good thing: a paradox of moderate infection
control. Epidemiology. 2008 Jul;19(4):588-9. doi:
10.1097/EDE.0b013e31817734ba. PMID: 18552592; PMCID: PMC2652751.
Regev-Yochay G, Bogaert D, Malley R, Hermans PW, Veenhoven RH, Sanders
EA, Lipsitch M, Rubinstein E. Does pneumococcal conjugate vaccine influence
Staphylococcus aureus carriage in children? Clin Infect Dis. 2008 Jul
15;47(2):289-91; author reply 291-2. doi: 10.1086/589573. PMID: 18564933.

26

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 50 of 79
Lipsitch, Marc

99.
100.

101.
102.
103.

104.

105.

106.

107.

108.

109.

110.

McDonnell Norms Group. Antibiotic overuse: the influence of social norms. J Am
Coll Surg. 2008 Aug;207(2):265-75. doi: 10.1016/j.jamcollsurg.2008.02.035.
Epub 2008 May 12. PMID: 18656057.
Lu YJ, Gross J, Bogaert D, Finn A, Bagrade L, Zhang Q, Kolls JK, Srivastava A,
Lundgren A, Forte S, Thompson CM, Harney KF, Anderson PW, Lipsitch M,
Malley R. Interleukin-17A mediates acquired immunity to pneumococcal
colonization. PLoS Pathog. 2008 Sep 19;4(9):e1000159. doi:
10.1371/journal.ppat.1000159. PMID: 18802458; PMCID: PMC2528945.
Klugman KP, Astley CM, Lipsitch M. Time from illness onset to death, 1918
influenza and pneumococcal pneumonia. Emerg Infect Dis. 2009 Feb;15(2):3467. doi: 10.3201/eid1502.081208. PMID: 19193293; PMCID: PMC2657896.
Lipsitch M, Viboud C. Influenza seasonality: lifting the fog. Proc Natl Acad Sci U
S A. 2009 Mar 10;106(10):3645-6. doi: 10.1073/pnas.0900933106. PMID:
19276125; PMCID: PMC2656132.
Regev-Yochay G, Lipsitch M, Basset A, Rubinstein E, Dagan R, Raz M, Malley
R. The pneumococcal pilus predicts the absence of Staphylococcus aureus cocolonization in pneumococcal carriers. Clin Infect Dis. 2009 Mar 15;48(6):760-3.
doi: 10.1086/597040. PMID: 19207082; PMCID: PMC2674784.
Bogaert D, Weinberger D, Thompson C, Lipsitch M, Malley R. Impaired innate
and adaptive immunity to Streptococcus pneumoniae and its effect on
colonization in an infant mouse model. Infect Immun. 2009 Apr;77(4):1613-22.
doi: 10.1128/IAI.00871-08. Epub 2009 Jan 21. PMID: 19168741; PMCID:
PMC2663178.
Wu JT, Leung GM, Lipsitch M, Cooper BS, Riley S. Hedging against antiviral
resistance during the next influenza pandemic using small stockpiles of an
alternative chemotherapy. PLoS Med. 2009 May 19;6(5):e1000085. doi:
10.1371/journal.pmed.1000085. Epub 2009 May 19. PMID: 19440354; PMCID:
PMC2680070.
Weinberger DM, Trzciński K, Lu YJ, Bogaert D, Brandes A, Galagan J, Anderson
PW, Malley R, Lipsitch M. Pneumococcal capsular polysaccharide structure
predicts serotype prevalence. PLoS Pathog. 2009 Jun;5(6):e1000476. doi:
10.1371/journal.ppat.1000476. Epub 2009 Jun 12. PMID: 19521509; PMCID:
PMC2689349.
Huang SS, Hinrichsen VL, Stevenson AE, Rifas-Shiman SL, Kleinman K, Pelton
SI, Lipsitch M, Hanage WP, Lee GM, Finkelstein JA. Continued impact of
pneumococcal conjugate vaccine on carriage in young children. Pediatrics. 2009
Jul;124(1):e1-11. doi: 10.1542/peds.2008-3099. PMID: 19564254; PMCID:
PMC2782668.
Lipsitch M, Riley S, Cauchemez S, Ghani AC, Ferguson NM. Managing and
reducing uncertainty in an emerging influenza pandemic. N Engl J Med. 2009 Jul
9;361(2):112-5. doi: 10.1056/NEJMp0904380. Epub 2009 May 27. PMID:
19474417; PMCID: PMC3066026.
Lee GM, Huang SS, Rifas-Shiman SL, Hinrichsen VL, Pelton SI, Kleinman K,
Hanage WP, Lipsitch M, McAdam AJ, Finkelstein JA. Epidemiology and risk
factors for Staphylococcus aureus colonization in children in the post-PCV7 era.
BMC Infect Dis. 2009 Jul 11;9:110. doi: 10.1186/1471-2334-9-110. PMID:
19594890; PMCID: PMC2716346.
McCaw JM, Wood JG, McBryde ES, Nolan TM, Wu JT, Lipsitch M, McVernon J.
Understanding Australia’s influenza pandemic policy on the strategic use of the
antiviral drug stockpile. Med J Aust. 2009 Aug 3;191(3):136-7. doi:
10.1186/1471-2334-9-110. PMID: 19645639; PMCID: PMC3073016.

27

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 51 of 79
Lipsitch, Marc

111.

112.

113.

114.

115.

116.

117.

118.

119.

120.

121.

Walensky RP, Wolf LL, Wood R, Fofana MO, Freedberg KA, Martinson NA,
Paltiel AD, Anglaret X, Weinstein MC, Losina E; CEPAC (Cost-Effectiveness of
Preventing AIDS Complications)-International Investigators. When to start
antiretroviral therapy in resource-limited settings. Ann Intern Med. 2009 Aug
4;151(3):157-66. doi: 10.7326/0003-4819-151-3-200908040-00138. Epub 2009
Jul 20. PMID: 19620143; PMCID: PMC3092478.
Goldstein E, Paur K, Fraser C, Kenah E, Wallinga J, Lipsitch M. Reproductive
numbers, epidemic spread and control in a community of households. Math
Biosci. 2009 Sep;221(1):11-25. doi: 10.1016/j.mbs.2009.06.002. Epub 2009 Jun
25. PMID: 19559715; PMCID: PMC2731010.
Lipsitch M, Lajous M, O’Hagan JJ, Cohen T, Miller JC, Goldstein E, Danon L,
Wallinga J, Riley S, Dowell SF, Reed C, McCarron M. Use of cumulative
incidence of novel influenza A/H1N1 in foreign travelers to estimate lower bounds
on cumulative incidence in Mexico. PLoS One. 2009 Sep 9;4(9):e6895. doi:
10.1371/journal.pone.0006895. PMID: 19742302; PMCID: PMC2731883.
Pitzer VE, Lipsitch M. Exploring the relationship between incidence and the
average age of infection during seasonal epidemics. J Theor Biol. 2009 Sep
21;260(2):175-85. doi: 10.1016/j.jtbi.2009.06.008. Epub 2009 Jun 13. PMID:
19527734; PMCID: PMC2745250.
Losina E, Touré H, Uhler LM, Anglaret X, Paltiel AD, Balestre E, Walensky RP,
Messou E, Weinstein MC, Dabis F, Freedberg KA; ART-LINC Collaboration of
International Epidemiological Databases to Evaluate AIDS (IeDEA); CEPAC
International investigators. Cost-effectiveness of preventing loss to follow-up in
HIV treatment programs: a Côte d’Ivoire appraisal. PLoS Med. 2009
Oct;6(10):e1000173. doi: 10.1371/journal.pmed.1000173. Epub 2009 Oct 27.
PMID: 19859538; PMCID: PMC2762030.
Lipsitch M, Hayden FG, Cowling BJ, Leung GM. How to maintain surveillance for
novel influenza A H1N1 when there are too many cases to count. Lancet. 2009
Oct 3;374(9696):1209-11. doi: 10.1016/S0140-6736(09)61377-5. Epub 2009 Aug
11. PMID: 19679345.
White LF, Wallinga J, Finelli L, Reed C, Riley S, Lipsitch M, Pagano M.
Estimation of the reproductive number and the serial interval in early phase of the
2009 influenza A/H1N1 pandemic in the USA. Influenza Other Respir Viruses.
2009 Nov;3(6):267-76. doi: 10.1111/j.1750-2659.2009.00106.x. PMID:
19903209; PMCID: PMC2782458.
Presanis AM, De Angelis D; New York City Swine Flu Investigation Team, Hagy
A, Reed C, Riley S, Cooper BS, Finelli L, Biedrzycki P, Lipsitch M. The severity
of pandemic H1N1 influenza in the United States, from April to July 2009: a
Bayesian analysis. PLoS Med. 2009 Dec;6(12):e1000207. doi:
10.1371/journal.pmed.1000207. Epub 2009 Dec 8. PMID: 19997612; PMCID:
PMC2784967.
Reed C, Angulo FJ, Swerdlow DL, Lipsitch M, Meltzer MI, Jernigan D, Finelli L.
Estimates of the prevalence of pandemic (H1N1) 2009, United States, April-July
2009. Emerg Infect Dis. 2009 Dec;15(12):2004-7. doi: 10.3201/eid1512.091413.
PMID: 19961687; PMCID: PMC3375879.
Lipsitch M, Colijn C, Cohen T, Hanage WP, Fraser C. No coexistence for free:
neutral null models for multistrain pathogens. Epidemics. 2009 Mar;1(1):2-13.
doi: 10.1016/j.epidem.2008.07.001. Epub 2008 Nov 4. PMID: 21352747; PMCID:
PMC3099423.
Goldstein E, Dushoff J, Ma J, Plotkin JB, Earn DJ, Lipsitch M. Reconstructing
influenza incidence by deconvolution of daily mortality time series. Proc Natl

28

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 52 of 79
Lipsitch, Marc

122.

123.

124.

125.

126.

127.

128.

129.

130.

131.

Acad Sci U S A. 2009 Dec 22;106(51):21825-9. doi: 10.1073/pnas.0902958106.
Epub 2009 Dec 18. PMID: 20080801; PMCID: PMC2796142.
Bogaert D, Thompson CM, Trzcinski K, Malley R, Lipsitch M. The role of
complement in innate and adaptive immunity to pneumococcal colonization and
sepsis in a murine model. Vaccine. 2010 Jan 8;28(3):681-5. doi:
10.1016/j.vaccine.2009.10.085. Epub 2009 Nov 3. PMID: 19892042; PMCID:
PMC2810519.
Wallinga J, van Boven M, Lipsitch M. Optimizing infectious disease interventions
during an emerging epidemic. Proc Natl Acad Sci U S A. 2010 Jan
12;107(2):923-8. doi: 10.1073/pnas.0908491107. Epub 2009 Dec 28. PMID:
20080777; PMCID: PMC2818907.
Shaman J, Pitzer VE, Viboud C, Grenfell BT, Lipsitch M. Absolute humidity and
the seasonal onset of influenza in the continental United States. PLoS Biol. 2010
Feb 23;8(2):e1000316. doi: 10.1371/journal.pbio.1000316. Erratum in: PLoS Biol.
2010;8(3). doi: 10.1371/annotation/35686514-b7a9-4f65-9663-7baefc0d63c0.
PMID: 20186267; PMCID: PMC2826374.
Goldstein E, Miller JC, O’Hagan JJ, Lipsitch M. Pre-dispensing of antivirals to
high-risk individuals in an influenza pandemic. Influenza Other Respir Viruses.
2010 Mar;4(2):101-12. doi: 10.1111/j.1750-2659.2009.00128.x. PMID: 20167050;
PMCID: PMC3075926.
Lipsitch M, Tchetgen Tchetgen E, Cohen T. Negative controls: a tool for
detecting confounding and bias in observational studies. Epidemiology. 2010
May;21(3):383-8. doi: 10.1097/EDE.0b013e3181d61eeb. Erratum in:
Epidemiology. 2010 Jul;21(4):589. PMID: 20335814; PMCID: PMC3053408.
Miller JC, Danon L, O’Hagan JJ, Goldstein E, Lajous M, Lipsitch M. Student
behavior during a school closure caused by pandemic influenza A/H1N1. PLoS
One. 2010 May 5;5(5):e10425. doi: 10.1371/journal.pone.0010425. PMID:
20463960; PMCID: PMC2864742.
Goldstein E, Apolloni A, Lewis B, Miller JC, Macauley M, Eubank S, Lipsitch M,
Wallinga J. Distribution of vaccine/antivirals and the ‘least spread line’ in a
stratified population. J R Soc Interface. 2010 May 6;7(46):755-64. doi:
10.1098/rsif.2009.0393. Epub 2009 Oct 14. PMID: 19828505; PMCID:
PMC2874227.
Lau LL, Cowling BJ, Fang VJ, Chan KH, Lau EH, Lipsitch M, Cheng CK, Houck
PM, Uyeki TM, Peiris JS, Leung GM. Viral shedding and clinical illness in
naturally acquired influenza virus infections. J Infect Dis. 2010 May
15;201(10):1509-16. doi: 10.1086/652241. PMID: 20377412; PMCID:
PMC3060408.
Van Kerkhove MD, Asikainen T, Becker NG, Bjorge S, Desenclos JC, dos
Santos T, Fraser C, Leung GM, Lipsitch M, Longini IM Jr, McBryde ES, Roth CE,
Shay DK, Smith DJ, Wallinga J, White PJ, Ferguson NM, Riley S; WHO Informal
Network for Mathematical Modelling for Pandemic Influenza H1N1 2009
(Working Group on Data Needs). Studies needed to address public health
challenges of the 2009 H1N1 influenza pandemic: insights from modeling. PLoS
Med. 2010 Jun 1;7(6):e1000275. doi: 10.1371/journal.pmed.1000275. PMID:
20532237; PMCID: PMC2879409.
Colijn C, Cohen T, Fraser C, Hanage W, Goldstein E, Givon-Lavi N, Dagan R,
Lipsitch M. What is the mechanism for persistent coexistence of drug-susceptible
and drug-resistant strains of Streptococcus pneumoniae? J R Soc Interface.
2010 Jun 6;7(47):905-19. doi: 10.1098/rsif.2009.0400. Epub 2009 Nov 25. PMID:
19940002; PMCID: PMC2871802.

29

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 53 of 79
Lipsitch, Marc

132.

133.

134.

135.

136.

137.

138.

139.

140.

141.

Regev-Yochay G, Hanage WP, Trzcinski K, Rifas-Shiman SL, Lee G, Bessolo A,
Huang SS, Pelton SI, McAdam AJ, Finkelstein JA, Lipsitch M, Malley R. Reemergence of the type 1 pilus among Streptococcus pneumoniae isolates in
Massachusetts, USA. Vaccine. 2010 Jul 5;28(30):4842-6. doi:
10.1016/j.vaccine.2010.04.042. Epub 2010 Apr 29. PMID: 20434550; PMCID:
PMC2897942.
Goldstein E, Cowling BJ, O’Hagan JJ, Danon L, Fang VJ, Hagy A, Miller JC,
Reshef D, Robins J, Biedrzycki P, Lipsitch M. Oseltamivir for treatment and
prevention of pandemic influenza A/H1N1 virus infection in households,
Milwaukee, 2009. BMC Infect Dis. 2010 Jul 20;10:211. doi: 10.1186/1471-233410-211. PMID: 20642862; PMCID: PMC2919545.
Walensky RP, Paltiel AD, Losina E, Morris BL, Scott CA, Rhode ER, Seage GR,
Freedberg KA; CEPAC Investigators. Test and treat DC: forecasting the impact
of a comprehensive HIV strategy in Washington DC. Clin Infect Dis. 2010 Aug
15;51(4):392-400. doi: 10.1086/655130. Erratum in: Clin Infect Dis. 2011
Sep;53(5):502. PMID: 20617921; PMCID: PMC2906630.
Lajous M, Danon L, López-Ridaura R, Astley CM, Miller JC, Dowell SF, O’Hagan
JJ, Goldstein E, Lipsitch M. Mobile messaging as surveillance tool during
pandemic (H1N1) 2009, Mexico. Emerg Infect Dis. 2010 Sep;16(9):1488-9. doi:
10.3201/eid1609.100671. PMID: 20735942; PMCID: PMC3294993.
Rydzak CE, Cotich KL, Sax PE, Hsu HE, Wang B, Losina E, Freedberg KA,
Weinstein MC, Goldie SJ; CEPAC Investigators. Assessing the performance of a
computer-based policy model of HIV and AIDS. PLoS One. 2010 Sep
9;5(9):e12647. doi: 10.1371/journal.pone.0012647. PMID: 20844741; PMCID:
PMC2936574.
Uhler LM, Kumarasamy N, Mayer KH, Saxena A, Losina E, Muniyandi M, Stoler
AW, Lu Z, Walensky RP, Flanigan TP, Bender MA, Freedberg KA, Swaminathan
S; CEPAC International investigators. Cost-effectiveness of HIV testing referral
strategies among tuberculosis patients in India. PLoS One. 2010 Sep
16;5(9):e12747. doi: 10.1371/journal.pone.0012747. PMID: 20862279; PMCID:
PMC2940842.
Weinberger DM, Harboe ZB, Sanders EA, Ndiritu M, Klugman KP, Rückinger S,
Dagan R, Adegbola R, Cutts F, Johnson HL, O’Brien KL, Scott JA, Lipsitch M.
Association of serotype with risk of death due to pneumococcal pneumonia: a
meta-analysis. Clin Infect Dis. 2010 Sep 15;51(6):692-9. doi: 10.1086/655828.
PMID: 20715907; PMCID: PMC2927802.
Huang SS, Avery TR, Song Y, Elkins KR, Nguyen CC, Nutter SK, Nafday AA,
Condon CJ, Chang MT, Chrest D, Boos J, Bobashev G, Wheaton W, Frank SA,
Platt R, Lipsitch M, Bush RM, Eubank S, Burke DS, Lee BY. Quantifying
interhospital patient sharing as a mechanism for infectious disease spread. Infect
Control Hosp Epidemiol. 2010 Nov;31(11):1160-9. doi: 10.1086/656747. PMID:
20874503; PMCID: PMC3064463.
Goldhaber-Fiebert JD, Lipsitch M, Mahal A, Zaslavsky AM, Salomon JA.
Quantifying child mortality reductions related to measles vaccination. PLoS One.
2010 Nov 4;5(11):e13842. doi: 10.1371/journal.pone.0013842. PMID: 21079809;
PMCID: PMC2973966.
Shaman J, Goldstein E, Lipsitch M. Absolute humidity and pandemic versus
epidemic influenza. Am J Epidemiol. 2011 Jan 15;173(2):127-35. doi:
10.1093/aje/kwq347. Epub 2010 Nov 16. PMID: 21081646; PMCID:
PMC3011950.

30

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 54 of 79
Lipsitch, Marc

142.

143.

144.

145.

146.

147.

148.

149.
150.

151.

152.

Yildirim I, Hanage WP, Lipsitch M, Shea KM, Stevenson A, Finkelstein J, Huang
SS, Lee GM, Kleinman K, Pelton SI. Serotype specific invasive capacity and
persistent reduction in invasive pneumococcal disease. Vaccine. 2010 Dec
16;29(2):283-8. doi: 10.1016/j.vaccine.2010.10.032. Epub 2010 Oct 26. PMID:
21029807; PMCID: PMC3139683.
Weinberger DM, Harboe ZB, Flasche S, Scott JA, Lipsitch M. Prediction of
serotypes causing invasive pneumococcal disease in unvaccinated and
vaccinated populations. Epidemiology. 2011 Mar;22(2):199-207. doi:
10.1097/EDE.0b013e3182087634. PMID: 21646962; PMCID: PMC3142570.
Hanage WP, Bishop CJ, Huang SS, Stevenson AE, Pelton SI, Lipsitch M,
Finkelstein JA. Carried pneumococci in Massachusetts children: the contribution
of clonal expansion and serotype switching. Pediatr Infect Dis J. 2011
Apr;30(4):302-8. doi: 10.1097/INF.0b013e318201a154. PMID: 21085049;
PMCID: PMC3175614.
Ciaranello AL, Lockman S, Freedberg KA, Hughes M, Chu J, Currier J, Wood R,
Holmes CB, Pillay S, Conradie F, McIntyre J, Losina E, Walensky RP; CEPACInternational and OCTANE Investigators. First-line antiretroviral therapy after
single-dose nevirapine exposure in South Africa: a cost-effectiveness analysis of
the OCTANE trial. AIDS. 2011 Feb 20;25(4):479-92. doi:
10.1097/QAD.0b013e3283428cbe. PMID: 21293199; PMCID: PMC3068908.
Hsu HE, Rydzak CE, Cotich KL, Wang B, Sax PE, Losina E, Freedberg KA,
Goldie SJ, Lu Z, Walensky RP; CEPAC Investigators. Quantifying the risks and
benefits of efavirenz use in HIV-infected women of childbearing age in the USA.
HIV Med. 2011 Feb;12(2):97-108. doi: 10.1111/j.1468-1293.2010.00856.x. PMID:
20561082; PMCID: PMC3010302.
Ford CB, Lin PL, Chase MR, Shah RR, Iartchouk O, Galagan J, Mohaideen N,
Ioerger TR, Sacchettini JC, Lipsitch M, Flynn JL, Fortune SM. Use of whole
genome sequencing to estimate the mutation rate of Mycobacterium tuberculosis
during latent infection. Nat Genet. 2011 May;43(5):482-6. doi: 10.1038/ng.811.
Epub 2011 Apr 24. PMID: 21516081; PMCID: PMC3101871.
Lipsitch M, Finelli L, Heffernan RT, Leung GM, Redd SC; 2009 H1n1
Surveillance Group. Improving the evidence base for decision making during a
pandemic: the example of 2009 influenza A/H1N1. Biosecur Bioterror. 2011
Jun;9(2):89-115. doi: 10.1089/bsp.2011.0007. PMID: 21612363; PMCID:
PMC3102310.
Smith J, Lipsitch M, Almond JW. Vaccine production, distribution, access, and
uptake. Lancet. 2011 Jul 30;378(9789):428-38. doi: 10.1016/S01406736(11)60478-9. Epub 2011 Jun 12. PMID: 21664680; PMCID: PMC3164579.
Goldstein E, Cobey S, Takahashi S, Miller JC, Lipsitch M. Predicting the
epidemic sizes of influenza A/H1N1, A/H3N2, and B: a statistical method. PLoS
Med. 2011 Jul;8(7):e1001051. doi: 10.1371/journal.pmed.1001051. Epub 2011
Jul 5. PMID: 21750666; PMCID: PMC3130020.
Mostofsky E, Lipsitch M, Regev-Yochay G. Is methicillin-resistant
Staphylococcus aureus replacing methicillin-susceptible S. aureus? J Antimicrob
Chemother. 2011 Oct;66(10):2199-214. doi: 10.1093/jac/dkr278. Epub 2011 Jul
7. PMID: 21737459; PMCID: PMC3172038.
Shaman J, Jeon CY, Giovannucci E, Lipsitch M. Shortcomings of vitamin Dbased model simulations of seasonal influenza. PLoS One. 2011;6(6):e20743.
doi: 10.1371/journal.pone.0020743. Epub 2011 Jun 3. PMID: 21677774; PMCID:
PMC3108988.

31

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 55 of 79
Lipsitch, Marc

153.

154.

155.

156.

157.

158.

159.

160.

161.

162.

163.

164.

Hernán MA, Lipsitch M. Oseltamivir and risk of lower respiratory tract
complications in patients with flu symptoms: a meta-analysis of eleven
randomized clinical trials. Clin Infect Dis. 2011 Aug 1;53(3):277-9. doi:
10.1093/cid/cir400. Epub 2011 Jun 15. PMID: 21677258; PMCID: PMC3137795.
Goldstein E, Cowling BJ, Aiello AE, Takahashi S, King G, Lu Y, Lipsitch M.
Estimating incidence curves of several infections using symptom surveillance
data. PLoS One. 2011;6(8):e23380. doi: 10.1371/journal.pone.0023380. Epub
2011 Aug 24. PMID: 21887246; PMCID: PMC3160845.
Presanis AM, Pebody RG, Paterson BJ, Tom BD, Birrell PJ, Charlett A, Lipsitch
M, De Angelis D. Changes in severity of 2009 pandemic A/H1N1 influenza in
England: a Bayesian evidence synthesis. BMJ. 2011 Sep 8;343:d5408. doi:
10.1136/bmj.d5408. PMID: 21903689; PMCID: PMC3168935.
Hanage WP, Bishop CJ, Lee GM, Lipsitch M, Stevenson A, Rifas-Shiman SL,
Pelton SI, Huang SS, Finkelstein JA. Clonal replacement among 19A
Streptococcus pneumoniae in Massachusetts, prior to 13 valent conjugate
vaccination. Vaccine. 2011 Nov 8;29(48):8877-81. doi:
10.1016/j.vaccine.2011.09.075. Epub 2011 Sep 29. PMID: 21964059; PMCID:
PMC3221484.
Weinberger DM, Malley R, Lipsitch M. Serotype replacement in disease after
pneumococcal vaccination. Lancet. 2011 Dec 3;378(9807):1962-73. doi:
10.1016/S0140-6736(10)62225-8. Epub 2011 Apr 12. PMID: 21492929; PMCID:
PMC3256741.
O’Hagan JJ, Hernán MA, Walensky RP, Lipsitch M. Apparent declining efficacy
in randomized trials: examples of the Thai RV144 HIV vaccine and South African
CAPRISA 004 microbicide trials. AIDS. 2012 Jan 14;26(2):123-6. doi:
10.1097/QAD.0b013e32834e1ce7. PMID: 22045345; PMCID: PMC3319457.
Shaman J, Lipsitch M. The El Nino-Southern Oscillation (ENSO)-pandemic
influenza connection: coincident or causal? Proc Natl Acad Sci U S A. 2013 Feb
26;110 Suppl 1(Suppl 1):3689-91. doi: 10.1073/pnas.1107485109. Epub 2012
Jan 17. PMID: 22308322; PMCID: PMC3586607.
Grad YH, Lipsitch M, Aiello AE. Secular trends in Helicobacter pylori
seroprevalence in adults in the United States: evidence for sustained race/ethnic
disparities. Am J Epidemiol. 2012 Jan 1;175(1):54-9. doi: 10.1093/aje/kwr288.
Epub 2011 Nov 15. PMID: 22085628; PMCID: PMC3244610.
Scott JR, Millar EV, Lipsitch M, Moulton LH, Weatherholtz R, Perilla MJ, Jackson
DM, Beall B, Craig MJ, Reid R, Santosham M, O’Brien KL. Impact of more than a
decade of pneumococcal conjugate vaccine use on carriage and invasive
potential in Native American communities. J Infect Dis. 2012 Jan 15;205(2):2808. doi: 10.1093/infdis/jir730. Epub 2011 Nov 29. PMID: 22128315; PMCID:
PMC3244367.
Abdullahi O, Karani A, Tigoi CC, Mugo D, Kungu S, Wanjiru E, Jomo J, Musyimi
R, Lipsitch M, Scott JA. The prevalence and risk factors for pneumococcal
colonization of the nasopharynx among children in Kilifi District, Kenya. PLoS
One. 2012;7(2):e30787. doi: 10.1371/journal.pone.0030787. Epub 2012 Feb 20.
PMID: 22363489; PMCID: PMC3282706.
Cobey S, Lipsitch M. Niche and neutral effects of acquired immunity permit
coexistence of pneumococcal serotypes. Science. 2012 Mar 16;335(6074):137680. doi: 10.1126/science.1215947. Epub 2012 Mar 1. PMID: 22383809; PMCID:
PMC3341938.
Scott JR, Hanage WP, Lipsitch M, Millar EV, Moulton LH, Hinds J, Reid R,
Santosham M, O’Brien KL. Pneumococcal sequence type replacement among

32

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 56 of 79
Lipsitch, Marc

165.

166.

167.

168.

169.

170.

171.

172.
173.
174.

American Indian children: a comparison of pre- and routine-PCV7 eras. Vaccine.
2012 Mar 16;30(13):2376-81. doi: 10.1016/j.vaccine.2011.11.004. Epub 2011
Nov 15. PMID: 22094283.
Lipsitch M, Abdullahi O, DʼAmour A, Xie W, Weinberger DM, Tchetgen Tchetgen
E, Scott JA. Estimating rates of carriage acquisition and clearance and
competitive ability for pneumococcal serotypes in Kenya with a Markov transition
model. Epidemiology. 2012 Jul;23(4):510-9. doi:
10.1097/EDE.0b013e31824f2f32. Erratum in: Epidemiology. 2013 Jan;24(1):177.
PMID: 22441543; PMCID: PMC3670084.
Wroe PC, Lee GM, Finkelstein JA, Pelton SI, Hanage WP, Lipsitch M, Stevenson
AE, Rifas-Shiman SL, Kleinman K, Dutta-Linn MM, Hinrichsen VL, Lakoma M,
Huang SS. Pneumococcal carriage and antibiotic resistance in young children
before 13-valent conjugate vaccine. Pediatr Infect Dis J. 2012 Mar;31(3):249-54.
doi: 10.1097/INF.0b013e31824214ac. PMID: 22173142; PMCID: PMC3288953.
Grad YH, Lipsitch M, Feldgarden M, Arachchi HM, Cerqueira GC, Fitzgerald M,
Godfrey P, Haas BJ, Murphy CI, Russ C, Sykes S, Walker BJ, Wortman JR,
Young S, Zeng Q, Abouelleil A, Bochicchio J, Chauvin S, Desmet T, Gujja S,
McCowan C, Montmayeur A, Steelman S, Frimodt-Møller J, Petersen AM, Struve
C, Krogfelt KA, Bingen E, Weill FX, Lander ES, Nusbaum C, Birren BW, Hung
DT, Hanage WP. Genomic epidemiology of the Escherichia coli O104:H4
outbreaks in Europe, 2011. Proc Natl Acad Sci U S A. 2012 Feb 21;109(8):306570. doi: 10.1073/pnas.1121491109. Epub 2012 Feb 6. Erratum in: Proc Natl
Acad Sci U S A. 2012 Apr 3;109(14):5547. PMID: 22315421; PMCID:
PMC3286951.
Pitzer VE, Burgner D, Viboud C, Simonsen L, Andreasen V, Steiner CA, Lipsitch
M. Modelling seasonal variations in the age and incidence of Kawasaki disease
to explore possible infectious aetiologies. Proc Biol Sci. 2012 Jul
22;279(1739):2736-43. doi: 10.1098/rspb.2011.2464. Epub 2012 Mar 7. PMID:
22398170; PMCID: PMC3367771.
Ke W, Huang SS, Hudson LO, Elkins KR, Nguyen CC, Spratt BG, Murphy CR,
Avery TR, Lipsitch M. Patient sharing and population genetic structure of
methicillin-resistant Staphylococcus aureus. Proc Natl Acad Sci U S A. 2012 Apr
24;109(17):6763-8. doi: 10.1073/pnas.1113578109. Epub 2012 Mar 19. PMID:
22431601; PMCID: PMC3340079.
Grad YH, Miller JC, Lipsitch M. Cholera modeling: challenges to quantitative
analysis and predicting the impact of interventions. Epidemiology. 2012
Jul;23(4):523-30. doi: 10.1097/EDE.0b013e3182572581. PMID: 22659546;
PMCID: PMC3380087.
Van Kerkhove MD, Riley S, Lipsitch M, Guan Y, Monto AS, Webster RG,
Zambon M, Nicoll A, Peiris JS, Ferguson NM. Comment on "Seroevidence for
H5N1 influenza infections in humans: meta-analysis". Science. 2012 Jun
22;336(6088):1506; author reply 1506. doi: 10.1126/science.1221434. PMID:
22723396.
Lipsitch M, Plotkin JB, Simonsen L, Bloom B. Evolution, safety, and highly
pathogenic influenza viruses. Science. 2012 Jun 22;336(6088):1529-31. doi:
10.1126/science.1223204. PMID: 22723411; PMCID: PMC3467308.
Goldstein E, Wallinga J, Lipsitch M. Vaccine allocation in a declining epidemic. J
R Soc Interface. 2012 Nov 7;9(76):2798-803. doi: 10.1098/rsif.2012.0404. Epub
2012 Jul 6. PMID: 22772378; PMCID: PMC3479926.
Abdullahi O, Karani A, Tigoi CC, Mugo D, Kungu S, Wanjiru E, Jomo J, Musyimi
R, Lipsitch M, Scott JA. Rates of acquisition and clearance of pneumococcal

33

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 57 of 79
Lipsitch, Marc

175.

176.

177.
178.

179.

–
180.

181.
182.
183.

184.

serotypes in the nasopharynges of children in Kilifi District, Kenya. J Infect Dis.
2012 Oct 1;206(7):1020-9. doi: 10.1093/infdis/jis447. Epub 2012 Jul 24. PMID:
22829650; PMCID: PMC3433858.
Jacobs JH, Archer BN, Baker MG, Cowling BJ, Heffernan RT, Mercer G, Uez O,
Hanshaoworakul W, Viboud C, Schwartz J, Tchetgen Tchetgen E, Lipsitch M.
Searching for sharp drops in the incidence of pandemic A/H1N1 influenza by
single year of age. PLoS One. 2012;7(8):e42328. doi:
10.1371/journal.pone.0042328. Epub 2012 Aug 2. PMID: 22876316; PMCID:
PMC3410923.
Goldstein E, Kirkcaldy RD, Reshef D, Berman S, Weinstock H, Sabeti P, Del Rio
C, Hall G, Hook EW, Lipsitch M. Factors related to increasing prevalence of
resistance to ciprofloxacin and other antimicrobial drugs in Neisseria
gonorrhoeae, United States. Emerg Infect Dis. 2012 Aug;18(8):1290-7. doi:
10.3201/eid1808.111202. PMID: 22840274; PMCID: PMC3414012.
Lipsitch M, Bloom BR. Rethinking biosafety in research on potential pandemic
pathogens. mBio. 2012 Oct 9;3(5):e00360-12. doi: 10.1128/mBio.00360-12.
PMID: 23047752; PMCID: PMC3484391.
Li Y, Gierahn T, Thompson CM, Trzciński K, Ford CB, Croucher N, Gouveia P,
Flechtner JB, Malley R, Lipsitch M. Distinct effects on diversifying selection by
two mechanisms of immunity against Streptococcus pneumoniae. PLoS Pathog.
2012;8(11):e1002989. doi: 10.1371/journal.ppat.1002989. Epub 2012 Nov 8.
PMID: 23144610; PMCID: PMC3493470. Highlighted in the PLoS Pathogens
Tenth Anniversary Collection of the Editors’ Choice of 42 articles from the
first 10 years.
Goldstein E, Viboud C, Charu V, Lipsitch M. Improving the estimation of
influenza-related mortality over a seasonal baseline. Epidemiology. 2012
Nov;23(6):829-38. doi: 10.1097/EDE.0b013e31826c2dda. PMID: 22992574;
PMCID: PMC3516362.
A commentary on this paper was published alongside it, to which we published a
rejoinder: Goldstein E, Viboud C, Charu V, Lipsitch M. The authors respond.
Epidemiology. 2012 Nov;23(6):829-38.
Hyams C, Trzcinski K, Camberlein E, Weinberger DM, Chimalapati S,
Noursadeghi M, Lipsitch M, Brown JS. Streptococcus pneumoniae capsular
serotype invasiveness correlates with the degree of factor H binding and
opsonization with C3b/iC3b. Infect Immun. 2013 Jan;81(1):354-63. doi:
10.1128/IAI.00862-12. Epub 2012 Nov 12. PMID: 23147038; PMCID:
PMC3536142.
Palmer ME, Lipsitch M, Moxon ER, Bayliss CD. Broad conditions favor the
evolution of phase-variable loci. mBio. 2013 Jan 8;4(1):e00430-12. doi:
10.1128/mBio.00430-12. PMID: 23300246; PMCID: PMC3546556.
Cobey S, Lipsitch M. Pathogen diversity and hidden regimes of apparent
competition. Am Nat. 2013 Jan;181(1):12-24. doi: 10.1086/668598. Epub 2012
Nov 27. PMID: 23234842; PMCID: PMC3716377.
Grad YH, Godfrey P, Cerquiera GC, Mariani-Kurkdjian P, Gouali M, Bingen E,
Shea TP, Haas BJ, Griggs A, Young S, Zeng Q, Lipsitch M, Waldor MK, Weill
FX, Wortman JR, Hanage WP. Comparative genomics of recent Shiga toxinproducing Escherichia coli O104:H4: short-term evolution of an emerging
pathogen. mBio. 2013 Jan 22;4(1):e00452-12. doi: 10.1128/mBio.00452-12.
PMID: 23341549; PMCID: PMC3551546.
Koep TH, Enders FT, Pierret C, Ekker SC, Krageschmidt D, Neff KL, Lipsitch M,
Shaman J, Huskins WC. Predictors of indoor absolute humidity and estimated

34

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 58 of 79
Lipsitch, Marc

185.

186.

187.

188.

189.

190.

191.

192.

193.

194.

effects on influenza virus survival in grade schools. BMC Infect Dis. 2013 Feb
5;13:71. doi: 10.1186/1471-2334-13-71. PMID: 23383620; PMCID:
PMC3568414.
O’Hagan JJ, Hernán MA, Walensky RP, Lipsitch M. Apparent declining efficacy
in randomized trials: examples of the Thai RV144 HIV vaccine and South African
CAPRISA 004 microbicide trials. AIDS. 2012 Jan 14;26(2):123-6. doi:
10.1097/QAD.0b013e32834e1ce7. PMID: 22045345; PMCID: PMC3319457.
Grad YH, Lipsitch M, Griggs AD, Haas BJ, Shea TP, McCowan C, Montmayeur
A, FitzGerald M, Wortman JR, Krogfelt KA, Bingen E, Weill FX, Tietze E, Flieger
A, Lander ES, Nusbaum C, Birren BW, Hung DT, Hanage WP. Reply to Guy et
al.: Support for a bottleneck in the 2011 Escherichia coli O104:H4 outbreak in
Germany. Proc Natl Acad Sci U S A. 2012 Dec 26;109(52):E3629-30. doi:
10.1073/pnas.1209419110. PMID: 23479789; PMCID: PMC3535640.
Croucher NJ, Finkelstein JA, Pelton SI, Mitchell PK, Lee GM, Parkhill J, Bentley
SD, Hanage WP, Lipsitch M. Population genomics of post-vaccine changes in
pneumococcal epidemiology. Nat Genet. 2013 Jun;45(6):656-63. doi:
10.1038/ng.2625. Epub 2013 May 5. PMID: 23644493; PMCID: PMC3725542.
Joice R, Lipsitch M. Targeting imperfect vaccines against drug-resistance
determinants: a strategy for countering the rise of drug resistance. PLoS One.
2013 Jul 25;8(7):e68940. doi: 10.1371/journal.pone.0068940. PMID: 23935910;
PMCID: PMC3723804.
Ford CB, Shah RR, Maeda MK, Gagneux S, Murray MB, Cohen T, Johnston JC,
Gardy J, Lipsitch M, Fortune SM. Mycobacterium tuberculosis mutation rate
estimates from different lineages predict substantial differences in the emergence
of drug-resistant tuberculosis. Nat Genet. 2013 Jul;45(7):784-90. doi:
10.1038/ng.2656. Epub 2013 Jun 9. PMID: 23749189; PMCID: PMC3777616.
Link-Gelles R, Thomas A, Lynfield R, Petit S, Schaffner W, Harrison L, Farley
MM, Aragon D, Nicols M, Kirley PD, Zansky S, Jorgensen J, Juni BA, Jackson D,
Moore MR, Lipsitch M. Geographic and temporal trends in antimicrobial
nonsusceptibility in Streptococcus pneumoniae in the post-vaccine era in the
United States. J Infect Dis. 2013 Oct 15;208(8):1266-73. doi:
10.1093/infdis/jit315. Epub 2013 Jul 12. PMID: 23852588; PMCID:
PMC3778966.
Weinberger DM, Bruden DT, Grant LR, Lipsitch M, O’Brien KL, Pelton SI,
Sanders EA, Feikin DR. Using pneumococcal carriage data to monitor
postvaccination changes in invasive disease. Am J Epidemiol. 2013 Nov
1;178(9):1488-95. doi: 10.1093/aje/kwt156. Epub 2013 Sep 7. PMID: 24013204;
PMCID: PMC3813314.
Li Y, Weinberger DM, Thompson CM, Trzciński K, Lipsitch M. Surface charge of
Streptococcus pneumoniae predicts serotype distribution. Infect Immun. 2013
Dec;81(12):4519-24. doi: 10.1128/IAI.00724-13. Epub 2013 Sep 30. PMID:
24082068; PMCID: PMC3837974.
Li Y, Thompson CM, Trzciński K, Lipsitch M. Within-host selection is limited by
an effective population of Streptococcus pneumoniae during nasopharyngeal
colonization. Infect Immun. 2013 Dec;81(12):4534-43. doi: 10.1128/IAI.00527-13.
Epub 2013 Sep 30. PMID: 24082074; PMCID: PMC3837969.
Feikin DR, Kagucia EW, Loo JD, Link-Gelles R, Puhan MA, Cherian T, Levine
OS, Whitney CG, O’Brien KL, Moore MR; Serotype Replacement Study Group.
Serotype-specific changes in invasive pneumococcal disease after
pneumococcal conjugate vaccine introduction: a pooled analysis of multiple
surveillance sites. PLoS Med. 2013;10(9):e1001517. doi:

35

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 59 of 79
Lipsitch, Marc

195.

196.
197.
198.

199.

200.

201.

202.

203.

204.

205.

10.1371/journal.pmed.1001517. Epub 2013 Sep 24. PMID: 24086113; PMCID:
PMC3782411.
Quandelacy TM, Viboud C, Charu V, Lipsitch M, Goldstein E. Age- and sexrelated risk factors for influenza-associated mortality in the United States
between 1997-2007. Am J Epidemiol. 2014 Jan 15;179(2):156-67. doi:
10.1093/aje/kwt235. Epub 2013 Nov 4. PMID: 24190951; PMCID: PMC3873104.
O’Hagan JJ, Lipsitch M, Hernán MA. Estimating the per-exposure effect of
infectious disease interventions. Epidemiology. 2014 Jan;25(1):134-8. doi:
10.1097/EDE.0000000000000003. PMID: 24240656; PMCID: PMC3898464.
Shaman J, Karspeck A, Yang W, Tamerius J, Lipsitch M. Real-time influenza
forecasts during the 2012-2013 season. Nat Commun. 2013;4:2837. doi:
10.1038/ncomms3837. PMID: 24302074; PMCID: PMC3873365.
Huang KE, Lipsitch M, Shaman J, Goldstein E. The US 2009 A(H1N1) influenza
epidemic: quantifying the impact of school openings on the reproductive number.
Epidemiology. 2014 Mar;25(2):203-6. doi: 10.1097/EDE.0000000000000055.
PMID: 24434751; PMCID: PMC3960948.
Grad YH, Kirkcaldy RD, Trees D, Dordel J, Harris SR, Goldstein E, Weinstock H,
Parkhill J, Hanage WP, Bentley S, Lipsitch M. Genomic epidemiology of
Neisseria gonorrhoeae with reduced susceptibility to cefixime in the USA: a
retrospective observational study. Lancet Infect Dis. 2014 Mar;14(3):220-6. doi:
10.1016/S1473-3099(13)70693-5. Epub 2014 Jan 22. PMID: 24462211; PMCID:
PMC4030102.
Patterson-Lomba O, Van Noort S, Cowling BJ, Wallinga J, Gomes MG, Lipsitch
M, Goldstein E. Utilizing syndromic surveillance data for estimating levels of
influenza circulation. Am J Epidemiol. 2014 Jun 1;179(11):1394-401. doi:
10.1093/aje/kwu061. Epub 2014 Apr 18. PMID: 24748609; PMCID:
PMC4036214.
Gomes MG, Lipsitch M, Wargo AR, Kurath G, Rebelo C, Medley GF, Coutinho A.
A missing dimension in measures of vaccination impacts. PLoS Pathog. 2014
Mar 6;10(3):e1003849. doi: 10.1371/journal.ppat.1003849. PMID: 24603721;
PMCID: PMC3946326.
Worby CJ, Lipsitch M, Hanage WP. Within-host bacterial diversity hinders
accurate reconstruction of transmission networks from genomic distance data.
PLoS Comput Biol. 2014 Mar 27;10(3):e1003549. doi:
10.1371/journal.pcbi.1003549. PMID: 24675511; PMCID: PMC3967931.
Grad YH, Newman R, Zody M, Yang X, Murphy R, Qu J, Malboeuf CM, Levin JZ,
Lipsitch M, DeVincenzo J. Within-host whole-genome deep sequencing and
diversity analysis of human respiratory syncytial virus infection reveals dynamics
of genomic diversity in the absence and presence of immune pressure. J Virol.
2014 Jul;88(13):7286-93. doi: 10.1128/JVI.00038-14. Epub 2014 Apr 16. PMID:
24741088; PMCID: PMC4054443.
McCormick AW, Abuelezam NN, Rhode ER, Hou T, Walensky RP, Pei PP,
Becker JE, DiLorenzo MA, Losina E, Freedberg KA, Lipsitch M, Seage GR 3rd.
Development, calibration and performance of an HIV transmission model
incorporating natural history and behavioral patterns: application in South Africa.
PLoS One. 2014 May 27;9(5):e98272. doi: 10.1371/journal.pone.0098272. PMID:
24867402; PMCID: PMC4035281.
Lipsitch M, Galvani AP. Ethical alternatives to experiments with novel potential
pandemic pathogens. PLoS Med. 2014 May 20;11(5):e1001646. doi:
10.1371/journal.pmed.1001646. PMID: 24844931; PMCID: PMC4028196.

36

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 60 of 79
Lipsitch, Marc

206.

207.
208.

209.

210.

211.

212.
213.

214.

215.

216.

217.

Li Y, Thompson CM, Lipsitch M. A modified Janus cassette (Sweet Janus) to
improve allelic replacement efficiency by high-stringency negative selection in
Streptococcus pneumoniae. PLoS One. 2014 Jun 24;9(6):e100510. doi:
10.1371/journal.pone.0100510. PMID: 24959661; PMCID: PMC4068995.
Ascioglu S, Samore MH, Lipsitch M. A new approach to the analysis of antibiotic
resistance data from hospitals. Microb Drug Resist. 2014 Dec;20(6):583-90. doi:
10.1089/mdr.2013.0173. PMID: 25055133.
Johnson SR, Grad Y, Ganakammal SR, Burroughs M, Frace M, Lipsitch M, Weil
R, Trees D. In Vitro selection of Neisseria gonorrhoeae mutants with elevated
MIC values and increased resistance to cephalosporins. Antimicrob Agents
Chemother. 2014 Nov;58(11):6986-9. doi: 10.1128/AAC.03082-14. Epub 2014
Sep 8. PMID: 25199775; PMCID: PMC4249396.
Jacobs JH, Viboud C, Tchetgen ET, Schwartz J, Steiner C, Simonsen L, Lipsitch
M. The association of meningococcal disease with influenza in the United States,
1989-2009. PLoS One. 2014 Sep 29;9(9):e107486. doi:
10.1371/journal.pone.0107486. PMID: 25265409; PMCID: PMC4180274.
Russell CA, Kasson PM, Donis RO, Riley S, Dunbar J, Rambaut A, Asher J,
Burke S, Davis CT, Garten RJ, Gnanakaran S, Hay SI, Herfst S, Lewis NS,
Lloyd-Smith JO, Macken CA, Maurer-Stroh S, Neuhaus E, Parrish CR, Pepin
KM, Shepard SS, Smith DL, Suarez DL, Trock SC, Widdowson MA, George DB,
Lipsitch M, Bloom JD. Improving pandemic influenza risk assessment. Elife. 2014
Oct 16;3:e03883. doi: 10.7554/eLife.03883. PMID: 25321142; PMCID:
PMC4199076.
Worby CJ, Chang HH, Hanage WP, Lipsitch M. The distribution of pairwise
genetic distances: a tool for investigating disease transmission. Genetics. 2014
Dec;198(4):1395-404. doi: 10.1534/genetics.114.171538. Epub 2014 Oct 13.
PMID: 25313129; PMCID: PMC4256759.
Grad YH, Lipsitch M. Epidemiologic data and pathogen genome sequences: a
powerful synergy for public health. Genome Biol. 2014 Nov 18;15(11):538. doi:
10.1186/s13059-014-0538-4. PMID: 25418119; PMCID: PMC4282151.
Abel S, Abel zur Wiesch P, Chang HH, Davis BM, Lipsitch M, Waldor MK.
Sequence tag-based analysis of microbial population dynamics. Nat Methods.
2015 Mar;12(3):223-6, 3 p following 226. doi: 10.1038/nmeth.3253. Epub 2015
Jan 19. PMID: 25599549; PMCID: PMC4344388.
Lipsitch M, Inglesby TV. Reply to "Studies on influenza virus transmission
between ferrets: the public health risks revisited". mBio. 2015 Jan
23;6(1):e00041-15. doi: 10.1128/mBio.00041-15. PMID: 25616376; PMCID:
PMC4323416.
Lipsitch M, Inglesby TV. Moratorium on research intended to create novel
potential pandemic pathogens. mBio. 2014 Dec 12;5(6):e02366-14. doi:
10.1128/mBio.02366-14. Erratum in: MBio. 2015;6(1). pii: e02534-14. doi:
10.1128/mBio.02534-14. PMID: 25505122; PMCID: PMC4271556.
Chang Q, Stevenson AE, Croucher NJ, Lee GM, Pelton SI, Lipsitch M,
Finkelstein JA, Hanage WP. Stability of the pneumococcal population structure in
Massachusetts as PCV13 was introduced. BMC Infect Dis. 2015 Feb 18;15:68.
doi: 10.1186/s12879-015-0797-z. PMID: 25887323; PMCID: PMC4336693.
Chang HH, Cohen T, Grad YH, Hanage WP, O’Brien TF, Lipsitch M. Origin and
proliferation of multiple-drug resistance in bacterial pathogens. Microbiol Mol Biol
Rev. 2015 Mar;79(1):101-16. doi: 10.1128/MMBR.00039-14. PMID: 25652543;
PMCID: PMC4402963.

37

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 61 of 79
Lipsitch, Marc

218.

219.

220.
221.

222.

223.

224.

225.

226.

227.

228.

229.

Croucher NJ, Kagedan L, Thompson CM, Parkhill J, Bentley SD, Finkelstein JA,
Lipsitch M, Hanage WP. Selective and genetic constraints on pneumococcal
serotype switching. PLoS Genet. 2015 Mar 31;11(3):e1005095. doi:
10.1371/journal.pgen.1005095. PMID: 25826208; PMCID: PMC4380333.
Yang W, Lipsitch M, Shaman J. Inference of seasonal and pandemic influenza
transmission dynamics. Proc Natl Acad Sci U S A. 2015 Mar 3;112(9):2723-8.
doi: 10.1073/pnas.1415012112. Epub 2015 Feb 17. PMID: 25730851; PMCID:
PMC4352784.
Lipsitch M, Eyal N, Halloran ME, Hernán MA, Longini IM, Perencevich EN, Grais
RF. Ebola and beyond. Science. 2015 Apr 3;348(6230):46-8. doi:
10.1126/science.aaa3178. PMID: 25838371; PMCID: PMC4408019.
Li Y, Croucher NJ, Thompson CM, Trzciński K, Hanage WP, Lipsitch M.
Identification of pneumococcal colonization determinants in the stringent
response pathway facilitated by genomic diversity. BMC Genomics. 2015 May
9;16(1):369. doi: 10.1186/s12864-015-1573-6. PMID: 25956132; PMCID:
PMC4424882.
Chang Q, Wang W, Regev-Yochay G, Lipsitch M, Hanage WP. Antibiotics in
agriculture and the risk to human health: how worried should we be? Evol Appl.
2015 Mar;8(3):240-7. doi: 10.1111/eva.12185. Epub 2014 Aug 2. PMID:
25861382; PMCID: PMC4380918.
Kunkel A, Colijn C, Lipsitch M, Cohen T. How could preventive therapy affect the
prevalence of drug resistance? Causes and consequences. Philos Trans R Soc
Lond B Biol Sci. 2015 Jun 5;370(1670):20140306. doi: 10.1098/rstb.2014.0306.
PMID: 25918446; PMCID: PMC4424438.
Mitchell PK, Lipsitch M, Hanage WP. Carriage burden, multiple colonization and
antibiotic pressure promote emergence of resistant vaccine escape
pneumococci. Philos Trans R Soc Lond B Biol Sci. 2015 Jun
5;370(1670):20140342. doi: 10.1098/rstb.2014.0342. PMID: 25918447; PMCID:
PMC4424439.
Goldstein E, Greene SK, Olson DR, Hanage WP, Lipsitch M. Estimating the
hospitalization burden associated with influenza and respiratory syncytial virus in
New York City, 2003-2011. Influenza Other Respir Viruses. 2015 Sep;9(5):22533. doi: 10.1111/irv.12325. PMID: 25980600; PMCID: PMC4548992.
Worby CJ, Chaves SS, Wallinga J, Lipsitch M, Finelli L, Goldstein E. On the
relative role of different age groups in influenza epidemics. Epidemics. 2015
Dec;13:10-16. doi: 10.1016/j.epidem.2015.04.003. PMID: 26097505; PMCID:
PMC4469206.
Lipsitch M, Donnelly CA, Fraser C, Blake IM, Cori A, Dorigatti I, Ferguson NM,
Garske T, Mills HL, Riley S, Van Kerkhove MD, Hernán MA. Potential Biases in
Estimating Absolute and Relative Case-Fatality Risks during Outbreaks. PLoS
Negl Trop Dis. 2015 Jul 16;9(7):e0003846. doi: 10.1371/journal.pntd.0003846.
PMID: 26181387; PMCID: PMC4504518. Awarded 2nd Prize for Publication
with Impact on the Field in 2015-6 by International Society for Disease
Surveillance.
Evans NG, Lipsitch M, Levinson M. The ethics of biosafety considerations in
gain-of-function research resulting in the creation of potential pandemic
pathogens. J Med Ethics. 2015 Nov;41(11):901-8. doi: 10.1136/medethics-2014102619. Epub 2015 Aug 28. PMID: 26320212; PMCID: PMC4623968.
Worby CJ, Kenyon C, Lynfield R, Lipsitch M, Goldstein E. Examining the role of
different age groups, and of vaccination during the 2012 Minnesota pertussis

38

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 62 of 79
Lipsitch, Marc

230.

231.

232.

233.

234.

235.

236.
237.

238.

239.

outbreak. Sci Rep. 2015 Aug 17;5:13182. doi: 10.1038/srep13182. PMID:
26278132; PMCID: PMC4538373.
Trzciński K, Li Y, Weinberger DM, Thompson CM, Cordy D, Bessolo A, Malley R,
Lipsitch M. Effect of Serotype on Pneumococcal Competition in a Mouse
Colonization Model. mBio. 2015 Sep 15;6(5):e00902-15. doi:
10.1128/mBio.00902-15. PMID: 26374118; PMCID: PMC4600102.
Althouse BM, Scarpino SV, Meyers LA, Ayers JW, Bargsten M, Baumbach J,
Brownstein JS, Castro L, Clapham H, Cummings DA, Del Valle S, Eubank S,
Fairchild G, Finelli L, Generous N, George D, Harper DR, Hébert-Dufresne L,
Johansson MA, Konty K, Lipsitch M, Milinovich G, Miller JD, Nsoesie EO, Olson
DR, Paul M, Polgreen PM, Priedhorsky R, Read JM, Rodríguez-Barraquer I,
Smith DJ, Stefansen C, Swerdlow DL, Thompson D, Vespignani A, Wesolowski
A. Enhancing disease surveillance with novel data streams: challenges and
opportunities. EPJ Data Sci. 2015;4(1):17. doi: 10.1140/epjds/s13688-015-00540. Epub 2015 Oct 16. PMID: 27990325; PMCID: PMC5156315.
Chang Q, Lipsitch M, Hanage WP. Impact of Host Heterogeneity on the Efficacy
of Interventions to Reduce Staphylococcus aureus Carriage. Infect Control Hosp
Epidemiol. 2016 Feb;37(2):197-204. doi: 10.1017/ice.2015.269. Epub 2015 Nov
24. Erratum in: Infect Control Hosp Epidemiol. 2016 Feb;37(2):244. PMID:
26598029; PMCID: PMC4760641.
Grad YH, Goldstein E, Lipsitch M, White PJ. Improving Control of AntibioticResistant Gonorrhea by Integrating Research Agendas Across Disciplines: Key
Questions Arising From Mathematical Modeling. J Infect Dis. 2016 Mar
15;213(6):883-90. doi: 10.1093/infdis/jiv517. Epub 2015 Oct 30. PMID:
26518045; PMCID: PMC4760416.
García-Albéniz X, Hsu J, Lipsitch M, Logan RW, Hernández-Díaz S, Hernán MA.
Infective endocarditis and cancer in the elderly. Eur J Epidemiol. 2016
Jan;31(1):41-9. doi: 10.1007/s10654-015-0111-9. Epub 2015 Dec 18. PMID:
26683995; PMCID: PMC5354127.
Chang HH, Dordel J, Donker T, Worby CJ, Feil EJ, Hanage WP, Bentley SD,
Huang SS, Lipsitch M. Identifying the effect of patient sharing on betweenhospital genetic differentiation of methicillin-resistant Staphylococcus aureus.
Genome Med. 2016 Feb 13;8(1):18. doi: 10.1186/s13073-016-0274-3. PMID:
26873713; PMCID: PMC4752745.
Lipsitch M, Siber GR. How Can Vaccines Contribute to Solving the Antimicrobial
Resistance Problem? mBio. 2016 Jun 7;7(3):e00428-16. doi:
10.1128/mBio.00428-16. PMID: 27273824; PMCID: PMC4959668.
Lipsitch M, Evans NG, Cotton-Barratt O. Underprotection of Unpredictable
Statistical Lives Compared to Predictable Ones. Risk Anal. 2017 May;37(5):893904. doi: 10.1111/risa.12658. Epub 2016 Jul 9. PMID: 27393181; PMCID:
PMC5222861.
Lipsitch M, Jha A, Simonsen L. Observational studies and the difficult quest for
causality: lessons from vaccine effectiveness and impact studies. Int J Epidemiol.
2016 Dec 1;45(6):2060-2074. doi: 10.1093/ije/dyw124. PMID: 27453361; PMCID:
PMC5841615.
Abuelezam NN, McCormick AW, Fussell T, Afriyie AN, Wood R, DeGruttola V,
Freedberg KA, Lipsitch M, Seage GR 3rd. Can the Heterosexual HIV Epidemic
be Eliminated in South Africa Using Combination Prevention? A Modeling
Analysis. Am J Epidemiol. 2016 Aug 1;184(3):239-48. doi: 10.1093/aje/kwv344.
Epub 2016 Jul 13. PMID: 27416841; PMCID: PMC4967594.

39

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 63 of 79
Lipsitch, Marc

240.

241.
242.

243.

244.

245.

246.

247.

248.

249.

250.
251.

García-Albéniz X, Hsu J, Lipsitch M, Bretthauer M, Logan RW, Hernández-Díaz
S, Hernán MA. Colonoscopy and Risk of Infective Endocarditis in the Elderly. J
Am Coll Cardiol. 2016 Aug 2;68(5):570-571. doi: 10.1016/j.jacc.2016.05.041.
PMID: 27470461; PMCID: PMC5287292.
Lipsitch M, Cowling BJ. Zika vaccine trials. Science. 2016 Sep
9;353(6304):1094-5. doi: 10.1126/science.aai8126. PMID: 27609872.
Grad YH, Harris SR, Kirkcaldy RD, Green AG, Marks DS, Bentley SD, Trees D,
Lipsitch M. Genomic Epidemiology of Gonococcal Resistance to ExtendedSpectrum Cephalosporins, Macrolides, and Fluoroquinolones in the United
States, 2000-2013. J Infect Dis. 2016 Nov 15;214(10):1579-1587. doi:
10.1093/infdis/jiw420. Epub 2016 Sep 16. PMID: 27638945; PMCID:
PMC5091375. Nominee, Charles R. Shepard Science Award, CDC.
Goldstein E, Pitzer VE, O’Hagan JJ, Lipsitch M. Temporally Varying Relative
Risks for Infectious Diseases: Implications for Infectious Disease Control.
Epidemiology. 2017 Jan;28(1):136-144. doi: 10.1097/EDE.0000000000000571.
PMID: 27748685; PMCID: PMC5131868.
Wu JT, Peak CM, Leung GM, Lipsitch M. Fractional dosing of yellow fever
vaccine to extend supply: a modelling study. Lancet. 2016 Dec
10;388(10062):2904-2911. doi: 10.1016/S0140-6736(16)31838-4. Epub 2016
Nov 10. PMID: 27837923; PMCID: PMC5161610.
Lipsitch M, Barclay W, Raman R, Russell CJ, Belser JA, Cobey S, Kasson PM,
Lloyd-Smith JO, Maurer-Stroh S, Riley S, Beauchemin CA, Bedford T, Friedrich
TC, Handel A, Herfst S, Murcia PR, Roche B, Wilke CO, Russell CA. Viral factors
in influenza pandemic risk assessment. Elife. 2016 Nov 11;5:e18491. doi:
10.7554/eLife.18491. PMID: 27834632; PMCID: PMC5156527.
Leung K, Lipsitch M, Yuen KY, Wu JT. Monitoring the fitness of antiviral-resistant
influenza strains during an epidemic: a mathematical modelling study. Lancet
Infect Dis. 2017 Mar;17(3):339-347. doi: 10.1016/S1473-3099(16)30465-0. Epub
2016 Dec 1. PMID: 27914853; PMCID: PMC5470942.
Croucher NJ, Campo JJ, Le TQ, Liang X, Bentley SD, Hanage WP, Lipsitch M.
Diverse evolutionary patterns of pneumococcal antigens identified by
pangenome-wide immunological screening. Proc Natl Acad Sci U S A. 2017 Jan
17;114(3):E357-E366. doi: 10.1073/pnas.1613937114. Epub 2017 Jan 4. PMID:
28053228; PMCID: PMC5255586.
Lehtinen S, Blanquart F, Croucher NJ, Turner P, Lipsitch M, Fraser C. Evolution
of antibiotic resistance is linked to any genetic mechanism affecting bacterial
duration of carriage. Proc Natl Acad Sci U S A. 2017 Jan 31;114(5):1075-1080.
doi: 10.1073/pnas.1617849114. Epub 2017 Jan 17. PMID: 28096340; PMCID:
PMC5293062.
Azarian T, Grant LR, Georgieva M, Hammitt LL, Reid R, Bentley SD, Goldblatt D,
Santosham M, Weatherholtz R, Burbidge P, Goklish N, Thompson CM, Hanage
WP, O’Brien KL, Lipsitch M. Association of Pneumococcal Protein Antigen
Serology With Age and Antigenic Profile of Colonizing Isolates. J Infect Dis. 2017
Mar 1;215(5):713-722. doi: 10.1093/infdis/jiw628. PMID: 28035010; PMCID:
PMC6005115.
Hitchings MD, Grais RF, Lipsitch M. Using simulation to aid trial design: Ringvaccination trials. PLoS Negl Trop Dis. 2017 Mar 22;11(3):e0005470. doi:
10.1371/journal.pntd.0005470. PMID: 28328984; PMCID: PMC5378415.
McCormick AW, Abuelezam NN, Fussell T, Seage GR 3rd, Lipsitch M.
Displacement of sexual partnerships in trials of sexual behavior interventions: A
model-based assessment of consequences. Epidemics. 2017 Sep;20:94-101.

40

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 64 of 79
Lipsitch, Marc

252.
253.

254.

255.
256.

257.

258.

259.

260.

261.

262.

263.

doi: 10.1016/j.epidem.2017.03.007. Epub 2017 Apr 2. PMID: 28416219; PMCID:
PMC5610917.
Eyal N, Lipsitch M. Vaccine testing for emerging infections: the case for individual
randomisation. J Med Ethics. 2017 Sep;43(9):625-631. doi: 10.1136/medethics2015-103220. Epub 2017 Apr 10. PMID: 28396558; PMCID: PMC5577361.
Worby CJ, Wallinga J, Lipsitch M, Goldstein E. Population effect of influenza
vaccination under co-circulation of non-vaccine variants and the case for a
bivalent A/H3N2 vaccine component. Epidemics. 2017 Jun;19:74-82. doi:
10.1016/j.epidem.2017.02.008. Epub 2017 Feb 21. PMID: 28262588; PMCID:
PMC5533618.
Cobey S, Baskerville EB, Colijn C, Hanage W, Fraser C, Lipsitch M. Host
population structure and treatment frequency maintain balancing selection on
drug resistance. J R Soc Interface. 2017 Aug;14(133):20170295. doi:
10.1098/rsif.2017.0295. PMID: 28835542; PMCID: PMC5582124.
Lipsitch M, Eyal N. Improving vaccine trials in infectious disease emergencies.
Science. 2017 Jul 14;357(6347):153-156. doi: 10.1126/science.aam8334. PMID:
28706038; PMCID: PMC5568786.
Corander J, Fraser C, Gutmann MU, Arnold B, Hanage WP, Bentley SD, Lipsitch
M, Croucher NJ. Frequency-dependent selection in vaccine-associated
pneumococcal population dynamics. Nat Ecol Evol. 2017 Dec;1(12):1950-1960.
doi: 10.1038/s41559-017-0337-x. Epub 2017 Oct 16. PMID: 29038424; PMCID:
PMC5708525.
Lee GM, Kleinman K, Pelton S, Lipsitch M, Huang SS, Lakoma M, Dutta-Linn M,
Rett M, Hanage WP, Finkelstein JA. Immunization, Antibiotic Use, and
Pneumococcal Colonization Over a 15-Year Period. Pediatrics. 2017
Nov;140(5):e20170001. doi: 10.1542/peds.2017-0001. Epub 2017 Oct 4. PMID:
28978716; PMCID: PMC5654389.
Langwig KE, Wargo AR, Jones DR, Viss JR, Rutan BJ, Egan NA, Sá-Guimarães
P, Kim MS, Kurath G, Gomes MGM, Lipsitch M. Vaccine Effects on
Heterogeneity in Susceptibility and Implications for Population Health
Management. mBio. 2017 Nov 21;8(6):e00796-17. doi: 10.1128/mBio.00796-17.
PMID: 29162706; PMCID: PMC5698548.
Lewnard JA, Givon-Lavi N, Weinberger DM, Lipsitch M, Dagan R. Pan-serotype
Reduction in Progression of Streptococcus pneumoniae to Otitis Media After
Rollout of Pneumococcal Conjugate Vaccines. Clin Infect Dis. 2017 Nov
13;65(11):1853-1861. doi: 10.1093/cid/cix673. PMID: 29020218; PMCID:
PMC6248775.
Goldstein E, Nguyen HH, Liu P, Viboud C, Steiner CA, Worby CJ, Lipsitch M. On
the Relative Role of Different Age Groups During Epidemics Associated With
Respiratory Syncytial Virus. J Infect Dis. 2018 Jan 4;217(2):238-244. doi:
10.1093/infdis/jix575. PMID: 29112722; PMCID: PMC5853559.
Masala GL, Lipsitch M, Bottomley C, Flasche S. Exploring the role of competition
induced by non-vaccine serotypes for herd protection following pneumococcal
vaccination. J R Soc Interface. 2017 Nov;14(136):20170620. doi:
10.1098/rsif.2017.0620. PMID: 29093131; PMCID: PMC5721164.
Kahn R, Hitchings M, Bellan S, Lipsitch M. Impact of stochastically generated
heterogeneity in hazard rates on individually randomized vaccine efficacy trials.
Clin Trials. 2018 Apr;15(2):207-211. doi: 10.1177/1740774517752671. Epub
2018 Jan 27. PMID: 29374974; PMCID: PMC5891371.
Halloran ME, Auranen K, Baird S, Basta NE, Bellan SE, Brookmeyer R, Cooper
BS, DeGruttola V, Hughes JP, Lessler J, Lofgren ET, Longini IM, Onnela JP,

41

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 65 of 79
Lipsitch, Marc

264.

265.

266.

267.

268.

269.

270.

271.

272.

273.

Özler B, Seage GR, Smith TA, Vespignani A, Vynnycky E, Lipsitch M.
Simulations for designing and interpreting intervention trials in infectious
diseases. BMC Med. 2017 Dec 29;15(1):223. doi: 10.1186/s12916-017-0985-3.
PMID: 29287587; PMCID: PMC5747936.
Lipsitch M, Li LM, Patterson S, Trammel J, Juergens C, Gruber WC, Scott DA,
Dagan R. Serotype-specific immune responses to pneumococcal conjugate
vaccine among children are significantly correlated by individual: Analysis of
randomized controlled trial data. Vaccine. 2018 Jan 25;36(4):473-478. doi:
10.1016/j.vaccine.2017.12.015. Epub 2017 Dec 14. PMID: 29248266; PMCID:
PMC5767551.
Arnold BJ, Gutmann MU, Grad YH, Sheppard SK, Corander J, Lipsitch M,
Hanage WP. Weak Epistasis May Drive Adaptation in Recombining Bacteria.
Genetics. 2018 Mar;208(3):1247-1260. doi: 10.1534/genetics.117.300662. Epub
2018 Jan 12. PMID: 29330348; PMCID: PMC5844334.
Hitchings MDT, Lipsitch M, Wang R, Bellan SE. Competing Effects of Indirect
Protection and Clustering on the Power of Cluster-Randomized Controlled
Vaccine Trials. Am J Epidemiol. 2018 Aug 1;187(8):1763-1771. doi:
10.1093/aje/kwy047. PMID: 29522080; PMCID: PMC6070038.
Worby CJ, Lipsitch M, Hanage WP. Shared Genomic Variants: Identification of
Transmission Routes Using Pathogen Deep-Sequence Data. Am J Epidemiol.
2017 Nov 15;186(10):1209-1216. doi: 10.1093/aje/kwx182. PMID: 29149252;
PMCID: PMC5860558. Selected as one of the 2017 Articles of the Year, The
American Journal of Epidemiology.
Johansson MA, Reich NG, Meyers LA, Lipsitch M. Preprints: An underutilized
mechanism to accelerate outbreak science. PLoS Med. 2018 Apr
3;15(4):e1002549. doi: 10.1371/journal.pmed.1002549. PMID: 29614073;
PMCID: PMC5882117.
Azarian T, Grant LR, Arnold BJ, Hammitt LL, Reid R, Santosham M,
Weatherholtz R, Goklish N, Thompson CM, Bentley SD, O’Brien KL, Hanage
WP, Lipsitch M. The impact of serotype-specific vaccination on phylodynamic
parameters of Streptococcus pneumoniae and the pneumococcal pan-genome.
PLoS Pathog. 2018 Apr 4;14(4):e1006966. doi: 10.1371/journal.ppat.1006966.
PMID: 29617440; PMCID: PMC5902063.
Goldstein E, Worby CJ, Lipsitch M. On the Role of Different Age Groups and
Pertussis Vaccines During the 2012 Outbreak in Wisconsin. Open Forum Infect
Dis. 2018 Apr 16;5(5):ofy082. doi: 10.1093/ofid/ofy082. PMID: 29942818;
PMCID: PMC5961225.
Blanquart F, Lehtinen S, Lipsitch M, Fraser C. The evolution of antibiotic
resistance in a structured host population. J R Soc Interface. 2018
Jun;15(143):20180040. doi: 10.1098/rsif.2018.0040. PMID: 29925579; PMCID:
PMC6030642.
Lewnard JA, Tähtinen PA, Laine MK, Lindholm L, Jalava J, Huovinen P, Lipsitch
M, Ruohola A. Impact of Antimicrobial Treatment for Acute Otitis Media on
Carriage Dynamics of Penicillin-Susceptible and Penicillin-Nonsusceptible
Streptococcus pneumoniae. J Infect Dis. 2018 Sep 22;218(9):1356-1366. doi:
10.1093/infdis/jiy343. PMID: 29873739; PMCID: PMC6151080.
Olesen SW, Barnett ML, MacFadden DR, Lipsitch M, Grad YH. Trends in
outpatient antibiotic use and prescribing practice among US older adults, 201115: observational study. BMJ. 2018 Jul 27;362:k3155. doi: 10.1136/bmj.k3155.
PMID: 30054353; PMCID: PMC6062849.

42

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 66 of 79
Lipsitch, Marc

274.
275.

276.

277.

278.
279.

280.

281.

282.

283.
284.

285.

286.

Kahn R, Rid A, Smith PG, Eyal N, Lipsitch M. Choices in vaccine trial design in
epidemics of emerging infections. PLoS Med. 2018 Aug 7;15(8):e1002632. doi:
10.1371/journal.pmed.1002632. PMID: 30086139; PMCID: PMC6080746.
Eyal N, Lipsitch M, Bärnighausen T, Wikler D. Opinion: Risk to study
nonparticipants: A procedural approach. Proc Natl Acad Sci U S A. 2018 Aug
7;115(32):8051-8053. doi: 10.1073/pnas.1810920115. PMID: 30087210; PMCID:
PMC6094093.
Cai FY, Fussell T, Cobey S, Lipsitch M. Use of an individual-based model of
pneumococcal carriage for planning a randomized trial of a whole-cell vaccine.
PLoS Comput Biol. 2018 Oct 1;14(10):e1006333. doi:
10.1371/journal.pcbi.1006333. PMID: 30273332; PMCID: PMC6181404.
Lewnard JA, Tedijanto C, Cowling BJ, Lipsitch M. Measurement of Vaccine
Direct Effects Under the Test-Negative Design. Am J Epidemiol. 2018 Dec
1;187(12):2686-2697. doi: 10.1093/aje/kwy163. PMID: 30099505; PMCID:
PMC6269249.
Relman DA, Lipsitch M. Microbiome as a tool and a target in the effort to address
antimicrobial resistance. Proc Natl Acad Sci U S A. 2018 Dec 18;115(51):1290212910. doi: 10.1073/pnas.1717163115. PMID: 30559176; PMCID: PMC6304941.
Tedijanto C, Olesen SW, Grad YH, Lipsitch M. Estimating the proportion of
bystander selection for antibiotic resistance among potentially pathogenic
bacterial flora. Proc Natl Acad Sci U S A. 2018 Dec 18;115(51):E11988-E11995.
doi: 10.1073/pnas.1810840115. PMID: 30559213; PMCID: PMC6304942.
Sevilla JP, Bloom DE, Cadarette D, Jit M, Lipsitch M. Toward economic
evaluation of the value of vaccines and other health technologies in addressing
AMR. Proc Natl Acad Sci U S A. 2018 Dec 18;115(51):12911-12919. doi:
10.1073/pnas.1717161115. PMID: 30559203; PMCID: PMC6305008.
Campo JJ, Le TQ, Pablo JV, Hung C, Teng AA, Tettelin H, Tate A, Hanage WP,
Alderson MR, Liang X, Malley R, Lipsitch M, Croucher NJ. Panproteome-wide
analysis of antibody responses to whole cell pneumococcal vaccination. Elife.
2018 Dec 28;7:e37015. doi: 10.7554/eLife.37015. PMID: 30592459; PMCID:
PMC6344088.
Olesen SW, Barnett ML, MacFadden DR, Brownstein JS, Hernández-Díaz S,
Lipsitch M, Grad YH. The distribution of antibiotic use and its association with
antibiotic resistance. Elife. 2018 Dec 18;7:e39435. doi: 10.7554/eLife.39435.
PMID: 30560781; PMCID: PMC6307856.
Georgieva M, Buckee CO, Lipsitch M. Models of immune selection for multi-locus
antigenic diversity of pathogens. Nat Rev Immunol. 2019 Jan;19(1):55-62. doi:
10.1038/s41577-018-0092-5. PMID: 30479379; PMCID: PMC6352731.
Abuelezam NN, McCormick AW, Surface ED, Fussell T, Freedberg KA, Lipsitch
M, Seage GR. Modelling the epidemiologic impact of achieving UNAIDS fasttrack 90-90-90 and 95-95-95 targets in South Africa. Epidemiol Infect. 2019
Jan;147:e122. doi: 10.1017/S0950268818003497. PMID: 30869008; PMCID:
PMC6452860.
Mahmud AS, Lipsitch M, Goldstein E. On the role of different age groups during
pertussis epidemics in California, 2010 and 2014. Epidemiol Infect. 2019
Jan;147:e184. doi: 10.1017/S0950268819000761. PMID: 31063110; PMCID:
PMC6518560.
Olesen SW, Torrone EA, Papp JR, Kirkcaldy RD, Lipsitch M, Grad YH.
Azithromycin Susceptibility Among Neisseria gonorrhoeae Isolates and Seasonal
Macrolide Use. J Infect Dis. 2019 Jan 29;219(4):619-623. doi:
10.1093/infdis/jiy551. PMID: 30239814; PMCID: PMC6350947.

43

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 67 of 79
Lipsitch, Marc

287.
288.

289.

290.

291.

292.

293.

294.

295.

296.

297.

298.

Gallagher T, Lipsitch M. Postexposure Effects of Vaccines on Infectious
Diseases. Epidemiol Rev. 2019 Jan 31;41(1):13-27. doi: 10.1093/epirev/mxz014.
PMID: 31680134; PMCID: PMC7159179.
Kahn R, Hitchings M, Wang R, Bellan SE, Lipsitch M. Analyzing Vaccine Trials in
Epidemics With Mild and Asymptomatic Infection. Am J Epidemiol. 2019 Feb
1;188(2):467-474. doi: 10.1093/aje/kwy239. PMID: 30329134; PMCID:
PMC6357804.
Mitchell PK, Azarian T, Croucher NJ, Callendrello A, Thompson CM, Pelton SI,
Lipsitch M, Hanage WP. Population genomics of pneumococcal carriage in
Massachusetts children following introduction of PCV-13. Microb Genom. 2019
Feb;5(2):e000252. doi: 10.1099/mgen.0.000252. Epub 2019 Feb 19. PMID:
30777813; PMCID: PMC6421351.
Langwig KE, Gomes MGM, Clark MD, Kwitny M, Yamada S, Wargo AR, Lipsitch
M. Limited available evidence supports theoretical predictions of reduced vaccine
efficacy at higher exposure dose. Sci Rep. 2019 Mar 1;9(1):3203. doi:
10.1038/s41598-019-39698-x. PMID: 30824732; PMCID: PMC6397254.
Yang A, Cai F, Lipsitch M. Herd immunity alters the conditions for performing
dose schedule comparisons: an individual-based model of pneumococcal
carriage. BMC Infect Dis. 2019 Mar 5;19(1):227. doi: 10.1186/s12879-019-38336. PMID: 30836941; PMCID: PMC6402138.
Hitchings MDT, Coldiron ME, Grais RF, Lipsitch M. Analysis of a meningococcal
meningitis outbreak in Niger - potential effectiveness of reactive prophylaxis.
PLoS Negl Trop Dis. 2019 Mar 11;13(3):e0007077. doi:
10.1371/journal.pntd.0007077. PMID: 30856166; PMCID: PMC6428357.
Ray GT, Lewis N, Klein NP, Daley MF, Lipsitch M, Fireman B. Depletion-ofsusceptibles Bias in Analyses of Intra-season Waning of Influenza Vaccine
Effectiveness. Clin Infect Dis. 2020 Mar 17;70(7):1484-1486. doi:
10.1093/cid/ciz706. PMID: 31351439; PMCID: PMC7318775.
Lehtinen S, Blanquart F, Lipsitch M, Fraser C; with the Maela Pneumococcal
Collaboration. On the evolutionary ecology of multidrug resistance in bacteria.
PLoS Pathog. 2019 May 13;15(5):e1007763. doi: 10.1371/journal.ppat.1007763.
PMID: 31083687; PMCID: PMC6532944.
McAdams D, Wollein Waldetoft K, Tedijanto C, Lipsitch M, Brown SP. Resistance
diagnostics as a public health tool to combat antibiotic resistance: A model-based
evaluation. PLoS Biol. 2019 May 16;17(5):e3000250. doi:
10.1371/journal.pbio.3000250. PMID: 31095567; PMCID: PMC6522007.
MacFadden DR, Fisman DN, Hanage WP, Lipsitch M. The Relative Impact of
Community and Hospital Antibiotic Use on the Selection of Extended-spectrum
Beta-lactamase-producing Escherichia coli. Clin Infect Dis. 2019 Jun
18;69(1):182-188. doi: 10.1093/cid/ciy978. PMID: 30462185; PMCID:
PMC6771767.
Goldstein E, MacFadden DR, Karaca Z, Steiner CA, Viboud C, Lipsitch M.
Antimicrobial resistance prevalence, rates of hospitalization with septicemia and
rates of mortality with sepsis in adults in different US states. Int J Antimicrob
Agents. 2019 Jul;54(1):23-34. doi: 10.1016/j.ijantimicag.2019.03.004. Epub 2019
Mar 6. PMID: 30851403; PMCID: PMC6571064.
Goldstein E, Olesen SW, Karaca Z, Steiner CA, Viboud C, Lipsitch M. Levels of
outpatient prescribing for four major antibiotic classes and rates of septicemia
hospitalization in adults in different US states - a statistical analysis. BMC Public
Health. 2019 Aug 19;19(1):1138. doi: 10.1186/s12889-019-7431-8. PMID:
31426780; PMCID: PMC6701127.

44

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 68 of 79
Lipsitch, Marc

299.

300.

301.

302.

303.

304.

305.

306.

307.

308.

309.
310.

Lee RTC, Chang HH, Russell CA, Lipsitch M, Maurer-Stroh S. Influenza A
Hemagglutinin Passage Bias Sites and Host Specificity Mutations. Cells. 2019
Aug 22;8(9):958. doi: 10.3390/cells8090958. PMID: 31443542; PMCID:
PMC6770435.
Abuelezam NN, Reshef YA, Novak D, Grad YH, Seage Iii GR, Mayer K, Lipsitch
M. Interaction Patterns of Men Who Have Sex With Men on a Geosocial
Networking Mobile App in Seven United States Metropolitan Areas:
Observational Study. J Med Internet Res. 2019 Sep 12;21(9):e13766. doi:
10.2196/13766. PMID: 31516124; PMCID: PMC6746104.
Eyal N, Kimmelman J, Holtzman LG, Lipsitch M. Regulating impact on
bystanders in clinical trials: An unsettled frontier. Clin Trials. 2019 Oct;16(5):450454. doi: 10.1177/1740774519862783. Epub 2019 Aug 1. PMID: 31368813;
PMCID: PMC6742522.
Goldstein E, Finelli L, O’Halloran A, Liu P, Karaca Z, Steiner CA, Viboud C,
Lipsitch M. Hospitalizations Associated with Respiratory Syncytial Virus and
Influenza in Children, Including Children Diagnosed with Asthma. Epidemiology.
2019 Nov;30(6):918-926. doi: 10.1097/EDE.0000000000001092. PMID:
31469696; PMCID: PMC6768705.
Hicks AL, Kissler SM, Lipsitch M, Grad YH. Surveillance to maintain the
sensitivity of genotype-based antibiotic resistance diagnostics. PLoS Biol. 2019
Nov 12;17(11):e3000547. doi: 10.1371/journal.pbio.3000547. PMID: 31714937;
PMCID: PMC6874359.
Lipsitch M, Goldstein E, Ray GT, Fireman B. Depletion-of-susceptibles bias in
influenza vaccine waning studies: how to ensure robust results. Epidemiol Infect.
2019 Nov 27;147:e306. doi: 10.1017/S0950268819001961. PMID: 31774051;
PMCID: PMC7003633.
Knight GM, Davies NG, Colijn C, Coll F, Donker T, Gifford DR, Glover RE, Jit M,
Klemm E, Lehtinen S, Lindsay JA, Lipsitch M, Llewelyn MJ, Mateus ALP,
Robotham JV, Sharland M, Stekel D, Yakob L, Atkins KE. Mathematical
modelling for antibiotic resistance control policy: do we know enough? BMC
Infect Dis. 2019 Nov 29;19(1):1011. doi: 10.1186/s12879-019-4630-y. PMID:
31783803; PMCID: PMC6884858.
Ryu S, Cowling BJ, Wu P, Olesen S, Fraser C, Sun DS, Lipsitch M, Grad YH.
Case-based surveillance of antimicrobial resistance with full susceptibility
profiles. JAC Antimicrob Resist. 2019 Dec;1(3):dlz070. doi:
10.1093/jacamr/dlz070. Epub 2019 Dec 10. PMID: 32280945; PMCID:
PMC7134534.
Chua H, Feng S, Lewnard JA, Sullivan SG, Blyth CC, Lipsitch M, Cowling BJ.
The Use of Test-negative Controls to Monitor Vaccine Effectiveness: A
Systematic Review of Methodology. Epidemiology. 2020 Jan;31(1):43-64. doi:
10.1097/EDE.0000000000001116. PMID: 31609860; PMCID: PMC6888869.
Tedijanto C, Grad YH, Lipsitch M. Potential impact of outpatient stewardship
interventions on antibiotic exposures of common bacterial pathogens. Elife. 2020
Feb 5;9:e52307. doi: 10.7554/eLife.52307. PMID: 32022685; PMCID:
PMC7025820.
Lipsitch M, Swerdlow DL, Finelli L. Defining the Epidemiology of Covid-19 Studies Needed. N Engl J Med. 2020 Mar 26;382(13):1194-1196. doi:
10.1056/NEJMp2002125. Epub 2020 Feb 19. PMID: 32074416.
Kennedy-Shaffer L, de Gruttola V, Lipsitch M. Novel methods for the analysis of
stepped wedge cluster randomized trials. Stat Med. 2020 Mar 30;39(7):815-844.

45

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 69 of 79
Lipsitch, Marc

311.

312.

313.

314.

315.

316.
317.

318.

319.
320.

321.

322.

doi: 10.1002/sim.8451. Epub 2019 Dec 26. PMID: 31876979; PMCID:
PMC7247054.
Goldstein E, Lipsitch M. Temporal rise in the proportion of younger adults and
older adolescents among coronavirus disease (COVID-19) cases following the
introduction of physical distancing measures, Germany, March to April 2020.
Euro Surveill. 2020 Apr;25(17):2000596. doi: 10.2807/15607917.ES.2020.25.17.2000596. PMID: 32372753; PMCID: PMC7201953.
Wu JT, Leung K, Bushman M, Kishore N, Niehus R, de Salazar PM, Cowling BJ,
Lipsitch M, Leung GM. Estimating clinical severity of COVID-19 from the
transmission dynamics in Wuhan, China. Nat Med. 2020 Apr;26(4):506-510. doi:
10.1038/s41591-020-0822-7. Epub 2020 Mar 19. Erratum in: Nat Med. 2020
Jul;26(7):1149-1150. PMID: 32284616; PMCID: PMC7094929.
McGough SF, Johansson MA, Lipsitch M, Menzies NA. Nowcasting by Bayesian
Smoothing: A flexible, generalizable model for real-time epidemic tracking. PLoS
Comput Biol. 2020 Apr 6;16(4):e1007735. doi: 10.1371/journal.pcbi.1007735.
PMID: 32251464; PMCID: PMC7162546.
MacFadden DR, Coburn B, Břinda K, Corbeil A, Daneman N, Fisman D, Lee RS,
Lipsitch M, McGeer A, Melano RG, Mubareka S, Hanage WP. Using Genetic
Distance from Archived Samples for the Prediction of Antibiotic Resistance in
Escherichia coli. Antimicrob Agents Chemother. 2020 Apr 21;64(5):e02417-19.
doi: 10.1128/AAC.02417-19. PMID: 32152083; PMCID: PMC7179619.
Li R, Rivers C, Tan Q, Murray MB, Toner E, Lipsitch M. Estimated Demand for
US Hospital Inpatient and Intensive Care Unit Beds for Patients With COVID-19
Based on Comparisons With Wuhan and Guangzhou, China. JAMA Netw Open.
2020 May 1;3(5):e208297. doi: 10.1001/jamanetworkopen.2020.8297. PMID:
32374400; PMCID: PMC7203604.
Eyal N, Lipsitch M, Smith PG. Human Challenge Studies to Accelerate
Coronavirus Vaccine Licensure. J Infect Dis. 2020 May 11;221(11):1752-1756.
doi: 10.1093/infdis/jiaa152. PMID: 32232474; PMCID: PMC7184325.
Lehtinen S, Chewapreecha C, Lees J, Hanage WP, Lipsitch M, Croucher NJ,
Bentley SD, Turner P, Fraser C, Mostowy RJ. Horizontal gene transfer rate is not
the primary determinant of observed antibiotic resistance frequencies in
Streptococcus pneumoniae. Sci Adv. 2020 May 20;6(21):eaaz6137. doi:
10.1126/sciadv.aaz6137. PMID: 32671212; PMCID: PMC7314567.
Kissler SM, Tedijanto C, Goldstein E, Grad YH, Lipsitch M. Projecting the
transmission dynamics of SARS-CoV-2 through the postpandemic period.
Science. 2020 May 22;368(6493):860-868. doi: 10.1126/science.abb5793. Epub
2020 Apr 14. PMID: 32291278; PMCID: PMC7164482.
Lipsitch M. Good science is good science: we need specialists, not sects. Eur J
Epidemiol. 2020 Jun;35(6):519-522. doi: 10.1007/s10654-020-00651-2. Epub
2020 Jun 20. PMID: 32564181; PMCID: PMC7305476.
Flasche S, Lipsitch M, Ojal J, Pinsent A. Estimating the contribution of different
age strata to vaccine serotype pneumococcal transmission in the pre vaccine
era: a modelling study. BMC Med. 2020 Jun 10;18(1):129. doi: 10.1186/s12916020-01601-1. PMID: 32517683; PMCID: PMC7285529.
Hicks AL, Kissler SM, Mortimer TD, Ma KC, Taiaroa G, Ashcroft M, Williamson
DA, Lipsitch M, Grad YH. Targeted surveillance strategies for efficient detection
of novel antibiotic resistance variants. Elife. 2020 Jun 30;9:e56367. doi:
10.7554/eLife.56367. PMID: 32602459; PMCID: PMC7326491.
De Salazar PM, Niehus R, Taylor A, Buckee CO, Lipsitch M. Identifying
Locations with Possible Undetected Imported Severe Acute Respiratory

46

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 70 of 79
Lipsitch, Marc

323.

324.
325.

326.

327.

328.
329.

330.

Syndrome Coronavirus 2 Cases by Using Importation Predictions. Emerg Infect
Dis. 2020 Jul;26(7):1465-1469. doi: 10.3201/eid2607.200250. Epub 2020 Jun 21.
PMID: 32207679; PMCID: PMC7323530.
Niehus R, De Salazar PM, Taylor AR, Lipsitch M. Using observational data to
quantify bias of traveller-derived COVID-19 prevalence estimates in Wuhan,
China. Lancet Infect Dis. 2020 Jul;20(7):803-808. doi: 10.1016/S14733099(20)30229-2. Epub 2020 Apr 1. PMID: 32246905; PMCID: PMC7270516.
Kennedy-Shaffer L, Lipsitch M. Statistical Properties of Stepped Wedge ClusterRandomized Trials in Infectious Disease Outbreaks. Am J Epidemiol. 2020 Jul
10:kwaa141. doi: 10.1093/aje/kwaa141. Epub ahead of print. PMID: 32648891.
Eyal N, Lipsitch M. Opinion: It’s ethical to test promising coronavirus vaccines
against less-promising ones. Proc Natl Acad Sci U S A. 2020 Aug
11;117(32):18898-18901. doi: 10.1073/pnas.2014154117. Epub 2020 Jul 22.
PMID: 32699147; PMCID: PMC7431044.
Peak CM, Kahn R, Grad YH, Childs LM, Li R, Lipsitch M, Buckee CO. Individual
quarantine versus active monitoring of contacts for the mitigation of COVID-19: a
modelling study. Lancet Infect Dis. 2020 Sep;20(9):1025-1033. doi:
10.1016/S1473-3099(20)30361-3. Epub 2020 May 20. PMID: 32445710; PMCID:
PMC7239635.
Kahn R, Kennedy-Shaffer L, Grad YH, Robins JM, Lipsitch M. Potential Biases
Arising from Epidemic Dynamics in Observational Seroprotection Studies. Am J
Epidemiol. 2020 Sep 1:kwaa188. doi: 10.1093/aje/kwaa188. Epub ahead of print.
PMID: 32870977; PMCID: PMC7499481.
Levinson M, Cevik M, Lipsitch M. Reopening Primary Schools during the
Pandemic. N Engl J Med. 2020 Sep 3;383(10):981-985. doi:
10.1056/NEJMms2024920. Epub 2020 Jul 29. PMID: 32726550.
Messinger CJ, Lipsitch M, Bateman BT, He M, Huybrechts KF, MacDonald S,
Mogun H, Mott K, Hernández-Díaz S. Association Between Congenital
Cytomegalovirus and the Prevalence at Birth of Microcephaly in the United
States. JAMA Pediatr. 2020 Sep 14:e203009. doi:
10.1001/jamapediatrics.2020.3009. Epub ahead of print. PMID: 32926077;
PMCID: PMC7490747.
Lipsitch M, Grad YH, Sette A, Crotty S. Cross-reactive memory T cells and herd
immunity to SARS-CoV-2. Nat Rev Immunol. 2020 Oct 6. doi: 10.1038/s41577020-00460-4. Epub ahead of print. PMID: 33024281.

Articles in Press
1.
2.

Selection of Macrolide and Non-Macrolide Resistance with Mass Azithromycin
Distribution: A Community-Randomized Trial. N Engl J Med. Forthcoming 2020.
Lipsitch M. COVID-19 vaccines: Understanding the details of how well they work.
Science. Forthcoming 2020.

Data Sets
1. Croucher NJ, Finkelstein JA, Pelton SI, Parkhill J, Bentley SD, Lipsitch M,
Hanage WP. Population genomic datasets describing the post-vaccine
evolutionary epidemiology of Streptococcus pneumoniae. Sci Data. 2015 Oct

47

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 71 of 79
Lipsitch, Marc

27;2:150058. doi: 10.1038/sdata.2015.58. eCollection 2015. PMID: 26528397;
PMCID: PMC4622223.
Preprints
1.

2.
3.

4.

5.

6.
7.

8.

9.

10.
11.

Mooring EQ, Marks M, Mitja O, Castro M, Lipsitch M, Murray MB.
Programmatic goals and spatial epidemiology influence the merit of targeted
versus of population-wide interventions for yaws eradication. bioRxiv [Preprint].
2019 May 17. doi.org/10.1101/640326
Luo W, Majumder MS, Liu D, Poirier C, Mandel KD, Lipsitch M, Santillana M.
The role of absolute humidity on transmission rates of the COVID-19 outbreak.
medRxiv. [Preprint]. 2020 Feb 17. doi.org/10.1101/2020.02.12.20022467
Niehus R, De Salazar PM, Taylor AR, Lipsitch M. Quantifying bias of COVID-19
prevalence and severity estimates in Wuhan, China that depend on reported
cases in international travelers. medRxiv [Preprint]. 2020 Feb
18:2020.02.13.20022707. doi: 10.1101/2020.02.13.20022707. PMID:
32511442; PMCID: PMC7239063.
Azarian T, Martinez PP, Arnold BJ, Grant LR, Corander J, Fraser C, Croucher
NJ, Hammitt LL, Reid R, Santosham M, Weatherholtz, RC, Bentley SD, O’Brien
KL, Lipsitch M, Hanage WP. Predicting evolution using frequency-dependent
selection in bacterial populations. bioRxiv [Preprint]. 2020 Feb 25.
doi.org/10.1101/420315
Li R, Rivers C, Tan Q, Murray MB, Toner E, Lipsitch M. The demand for
inpatient and ICU beds for COVID-19 in the US: lessons from Chinese cities.
medRxiv [Preprint]. 2020 Mar 16:2020.03.09.20033241. doi:
10.1101/2020.03.09.20033241. PMID: 32511447; PMCID: PMC7239072.
Kissler SM, Tedijanto C, Lipsitch M, Grad Y. Social distancing strategies for
curbing the COVID-19 epidemic. medRxiv [Preprint]. 2020 Mar 24:
2020.03.22.20041079v1. doi.org/10.1101/2020.03.22.20041079
Menkir TF, Chin T, Hay JA, Surface E, Martinez de Salazar P, Buckee C, Mina
MJ, Khan K, Watts A, Lipsitch M, Niehus R. Estimating the number of
undetected COVID-19 cases exported internationally from all of China.
medRxiv [Preprint]. 2020 Mar 26:2020.03.23.20038331. doi:
10.1101/2020.03.23.20038331. PMID: 32511613; PMCID: PMC7276040.
Lu FS, Nguyen AT, Link NB, Lipsitch M, Santillana M. Estimating the Early
Outbreak Cumulative Incidence of COVID-19 in the United States: Three
Complementary Approaches. medRxiv [Preprint]. 2020 Jun
18:2020.04.18.20070821. doi: 10.1101/2020.04.18.20070821. PMID:
32587997; PMCID: PMC7310656.
Gostic KM, McGough L, Baskerville E, Abbott S, Joshi K, Tedijanto C, Kahn R,
Niehus R, Hay JA, De Salazar PM, Hellewell J, Meakin S, Munday J, Bosse N,
Sherratt K, Thompson RM, White LF, Huisman J, Scire J, Bonhoeffer S, Stadler
T, Wallinga J, Funk S, Lipsitch M, Cobey S. Practical considerations for
measuring the effective reproductive number, Rt. medRxiv [Preprint]. 2020 Jun
20:2020.06.18.20134858. doi: 10.1101/2020.06.18.20134858. PMID:
32607522; PMCID: PMC7325187.
Olesen SW, Lipsitch M, Grad Y. The role of “spillover” in antibiotic resistance.
bioRxiv [Preprint]. 2020 Jun 30. doi.org/10.1101/536714
Martinez de Salazar P, Gomez-Barroso D, Pampaka D, Gil JM, Penalver B,
Fernandez-Escobar C, Lipsitch M, Larrauri A, Goldstein E, Hernan M.

48

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 72 of 79
Lipsitch, Marc

12.

13.

14.
15.
16.

17.
18.

Lockdown measures and relative changes in the age-specific incidence of
SARS-CoV-2 in Spain. medRxiv [Preprint]. 2020 Jul 2:2020.06.30.20143560.
doi: 10.1101/2020.06.30.20143560. PMID: 32637975; PMCID: PMC7340201.
Goldstein E, Lipsitch M, Cevik M. On the effect of age on the transmission of
SARS-CoV-2 in households, schools and the community. medRxiv [Preprint].
2020 Jul 24:2020.07.19.20157362. doi: 10.1101/2020.07.19.20157362. PMID:
32743609; PMCID: PMC7386533.
Lu FS, Nguyen AT, Link NB, Lipsitch M, Santillana M. Estimating the Early
Outbreak Cumulative Incidence of COVID-19 in the United States: Three
Complementary Approaches. medRxiv [Preprint]. 2020 Jun
18:2020.04.18.20070821. doi: 10.1101/2020.04.18.20070821. PMID:
32587997; PMCID: PMC7310656.
Bubar KM, Kissler SM, Lipsitch M, Cobey S, Grad Y, Larremore DB. Model-informed
COVID-19 vaccine prioritization strategies by age and serostatus. medRxiv
[Preprint]. 2020 Sept 10. doi.org/10.1101/2020.09.08.20190629
Kahn R, Wang R, Leavitt S, Hanage WP, Lipsitch M. Leveraging pathogen sequence
and contact tracing data to enhance vaccine trials in emerging epidemics. medRxiv
[Preprint]. 2020 Sept 16. doi.org/10.1101/2020.09.14.20193789
Hay J, Kennedy-Shaffer L, Kanjilal S, Lipsitch M, Mina M. Estimating
epidemiologic dynamics from single cross-sectional viral load distributions.
Harvard DASH [Preprint]. 2020. https://nrs.harvard.edu/URN3:HUL.INSTREPOS:37365444
de Kraker MEA and Lipsitch M. Burden of antimicrobial resistance: compared
to what? Harvard DASH [Preprint]. 2020. https://nrs.harvard.edu/URN3:HUL.INSTREPOS:37365584
Eyal N and Lipsitch M. Testing SARS-CoV-2 vaccine efficacy through
deliberate natural viral exposure. Harvard DASH [Preprint]. 2020.
https://nrs.harvard.edu/URN-3:HUL.INSTREPOS:37365585

Other Publications
(a)
1.

2.

3.
4.

Book Chapters
Lipsitch M, Levin BR. 1997. The within-host population dynamics of antibacterial chemotherapy: conditions for the evolution of resistance. Pp. 112-127
in Ciba Foundation Symposium No. 207: Antibiotic Resistance: Origins,
Evolution, Selection and Spread. Chichester, UK: John Wiley & Sons.
Bangham C, Anderson R, Baquero F, Bax R, Hastings I, Koella J, Lipsitch M,
McLean A, Smith T, Taddei F, Levin B. 1999. Evolution of infectious diseases:
The impact of vaccines, drugs and social factors. Chapter 13 (pp. 152-160) in
Evolution in Health and Disease, ed. S.C. Stearns. Oxford: Oxford University
Press.
Lipsitch M, Bergstrom CT. Modeling of antibiotic resistance in the ICU. Chapter
18, pp. 231-43 in Infection Control in the ICU Environment, ed. R.A. Weinstein
and M. Bonten. Kluwer Press. 2002.
Lipsitch M. Vaccination against Haemophilus influenzae and Streptococcus
pneumoniae: a problem in virulence management. Chapter 26 in Virulence
Management: The Adaptive Dynamics of Pathogen-Host Interactions, ed. U.

49

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 73 of 79
Lipsitch, Marc

5.
6.
7.
8.
9.

10.

11.

(b)
12.

13.
14.
15.
16.
17.
18.

Dieckmann, H. Metz, M.Sabelis & K. Sigmund. Cambridge: Cambridge
University Press. 2002.
Lipsitch M. Antibiotic resistance: Strategies for managing resistance. Vol. 1, pp.
57-61 in The Oxford Encyclopedia of Evolution, ed. M. Pagel. Oxford University
Press. 2002.
Dagan R, Lipsitch M. Ecological Effects of Vaccines and Antibiotics. Chapter 18
in The Pneumococcus, ed. E. Tuomanen, T. Mitchell, D. Morrison, B. Spratt.
Washington, DC: ASM Press. 2004.
Lipsitch M. Infectious Disease Epidemiology. Chapter 16 in Teaching
Epidemiology, 3rd Edition, ed. J. Olsen, G. Saracci, D. Trichopoulos. New York:
Oxford University 2010.
Chapter 16 in 4th Ed., ed. Olsen J, Greene N, Saracci G, Trichopoulos D. New
York: Oxford University 2015.
Lipsitch M and Smith D. Application of quantitative modeling to influenza virus
transmission dynamics, antigenic and genetic evolution, and molecular structure.
Chapter 27, pp. 434-452 in Webster R et al., eds. Textbook of Influenza. Oxford:
Wiley-Blackwell. 2013.
Lipsitch M. (2018) Why Do Exceptionally Dangerous Gain-of-Function
Experiments in Influenza? In: Yamauchi Y. (eds) Influenza Virus. Methods in
Molecular Biology, vol 1836. Humana Press, New York, NY doi: 10.1007/978-14939-8678-1_29. 2018
Lipsitch M, Santillana M. Enhancing Situational Awareness to Prevent Infectious
Disease Outbreaks from Becoming Catastrophic. Curr Top Microbiol Immunol.
2019 Jul 11. doi: 10.1007/82_2019_172. [Epub ahead of print] PubMed PMID:
31292726.
Non peer-reviewed journal articles and working papers and letters
Levin BR, Antia R, Berliner E, Bloland P, Bonhoeffer S, Cohen M, DeRouin T,
Fields PI, Jafari H, Jernigan D, Lipsitch M, McGowan JE, Mead P, Nowak M,
Porco T, Sykora P, Simonsen L, Spitznagel J, Tauxe R, Tenover F. 1998.
Resistance to antimicrobial chemotherapy: A prescription for research and
action. American Journal of the Medical Sciences 315: 87-94. PMID: 9472907.
Lipsitch M. Evolution in health and disease (meeting report). Trends in
Microbiology 1997; 5: 303-4. PMID: 9263405.
Lipsitch M. Fifty Years of Antimicrobials: Past Perspectives and Future Trends,
ed. P.A. Hunter, G.K. Darby, and N.J. Russell. (review) Quarterly Review of
Biology 1997; 71: 570-1.
Lipsitch M. Modelling the AIDS Epidemic: Planning, Policy and Prevention, ed.
E.H. Kaplan and Margaret L. Brandeau. (review) Quarterly Review of Biology
1995; 70: 123.
Lipsitch M. Microbiology: Bacterial Population Genetics and Disease. Science
2001; 292:59-60. PMID: 11294216.
Lipsitch M, Singer RS, Levin BR. Antibiotics in Agriculture: When is it Time to
Close the Barn Door? Proceedings of the National Academy of Sciences, USA
2002: 99:5752-4. PMID: 11983874. PMCID: PMC122845.
Lipsitch M. Antibiotic Resistance – the Interplay between Antibiotic Use in
Animals and Human Beings (contribution to a “Forum”). Lancet Infectious
Diseases 2003; 3: 51. PMID: 12505035.

50

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 74 of 79
Lipsitch, Marc

19.
20.
21.
22.
23.
24.
25.

26.
27.
28.
29.
30.
31.
32.
33.
34.

35.
36.

Lipsitch M, Bergstrom CT. Real-time tracking of control measures for emerging
infections [commentary]. American Journal of Epidemiology 2004;160(6):517-9.
PMID: 15353410.
Halloran ME, Lipsitch M. Infectious disease modeling contributions to the
American Journal of Epidemiology [commentary]. American Journal of
Epidemiology 2005; 161: 997-8.
Lipsitch M. Pandemic flu: We are not prepared. Medscape General Medicine.
2005; 7(2). http://www.medscape.com/viewarticle/502709. PMID: 16369434.
PMCID: PMC1681602.
Lipsitch M. Ethics of rationing the flu vaccine. [letter]. Science. 2005;
307(5706):41. PMID: 15637252.
Lipsitch M. How Do Antimicrobial Agents Lead to Resistance in Pathogens
Causing Acute Respiratory Tract Infections? Infectious Diseases in Clinical
Practice 2006; 14 Supp 4: S6-S10.
Goossens H, Lipsitch M. Global Burden of Antimicrobial Resistance. Johns
Hopkins Advanced Studies in Medicine 2006; 6(7C): S644-S651.
Regev-Yochay G, Bogaert D, Malley R, Hermans PW, Veenhoven RH, Sanders
EA, Lipsitch M, Rubinstein E. Does pneumococcal conjugate vaccine influence
Staphylococcus aureus carriage in children? [letter] Clin Infect Dis. 2008 Jul
15;47(2):289-91; author reply 291-2. PMID: 18564933.
Cohen T, Lipsitch M. Too little of a good thing: a paradox of moderate infection
control. Epidemiology. 2008 Jul;19(4):588-9. PMID: 18552592. PMCID:
PMC2652751.
Klugman KP, Astley CM, Lipsitch M. Time from illness onset to death, 1918
influenza and pneumococcal pneumonia (letter). Emerg Infect Dis 2009;
15(2):346-7. PMID: 19193293. PMCID: PMC2657896.
Lipsitch M, Viboud C. Influenza seasonality: lifting the fog. Proc Natl Acad Sci U
S A. 2009 Mar 10;106(10):3645-6. PMID: 19276125.
Goldstein E, Lipsitch M. Antiviral usage for H1N1 treatment: pros, cons and an
argument for broader prescribing guidelines in the United States. PLoS Curr.
Influenza 2009 Oct 29:RRN1122.2.
Goldstein E, Lipsitch M. H1N1 vaccination and adults with underlying health
conditions in the US. PLoS Curr. Influenza, 2009 November: RRN1132.
Holmes E, Palese P, Rambaut A, Moscona A, Viboud C, Webby RJ, Riley S,
Katze M, Lipsitch M, Salzberg SL, Garcia-Sastre A, Miller M, Fouchier RA, Wolf
YI, Lipman DJ, Graeff A, Parrish CR, Donis R. PLoS Currents: Influenza: A
moderated collection for rapid and open sharing of useful new scientific data,
analyses, and ideas. PLoS Curr. Influenza 2010 Jan 4:RRN1142.
Hernán MA, Lipsitch M. Reply to cochrane neuraminidase inhibitors review team.
[letter] Clin Infect Dis. 2011 Dec;53(12):1303-4. PMID: 22080125.
Lipsitch M, Hernán MA. Oseltamivir Effect on Antibiotic-Treated Lower
Respiratory Tract Complications in Virologically Positive Randomized Trial
Participants. [letter] Clin Infect Dis. 2013 Aug 9. [Epub ahead of print] PMID:
23883518. PMCID: PMC3792722.
Lipsitch M. Avian influenza: Ferret H7N9 flu model questioned. Nature. 2013 Sep
5;501(7465):33. doi: 10.1038/501033e. PMID: 24005404.
Leung N, Worby C, Hanage WP, Lipsitch M, Cowling BJ. Probable person to
person transmission of novel avian influenza A (H7N9) virus in Eastern China,
2013: epidemiological investigation. BMJ. 2013 Aug 6;347:f4752. doi:
10.1136/bmj.f4752. http://www.bmj.com/content/347/bmj.f4752?tab=responses.

51

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 75 of 79
Lipsitch, Marc

37.
38.
39.
40.
41.

42.

43.

44.

45.

46.

47.

48.

49.
50.

Fisman DN, Leung GM, Lipsitch M. Nuanced risk assessment for emerging
infectious diseases. Lancet. 2014 Jan 18;383(9913):189-90. doi:10.1016/S01406736(13)62123-6. PMID: 24439726.
Lipsitch M. Can limited scientific value of potential pandemic pathogen
experiments justify the risks? MBio. 2014 Oct 14;5(5):e02008-14. doi:
10.1128/mBio.02008-14. PMID: 25316701; PMCID: PMC4205796.
Lipsitch M, Inglesby TV. Moratorium on research intended to create novel
potential pandemic pathogens. MBio. 2014 Dec 12;5(6). pii: e02366-14. doi:
10.1128/mBio.02366-14. PMID: 25505122; PMCID: PMC4271556.
Duprex WP, Fouchier RA, Imperiale MJ, Lipsitch M, Relman DA. Gain-of-function
experiments: time for a real debate. Nat Rev Microbiol. 2015 Jan;13(1):58-64.
doi: 10.1038/nrmicro3405. Epub 2014 Dec 8. PMID: 25482289.
Lipsitch M, Esvelt K, Inglesby T. Calls for Caution in Genome Engineering
Should Be a Model for Similar Dialogue on Pandemic Pathogen Research. Ann
Intern Med. 2015 Sep 8. doi: 10.7326/M15-1048. [Epub ahead of print] PMID:
26344802.
Frank GM, Adalja A, Barbour A, Casadevall A, Dormitzer PR, Duchin J, Hayden
FG, Hirsch MS, Hynes NA, Lipsitch M, Pavia AT, Relman DA. IDSA and Gain-ofFunction Experiments with Pathogens having Pandemic Potential1. J Infect Dis.
2015 Sep 27. pii: jiv474. [Epub ahead of print] PMID: 26416656.
Lipsitch M, Relman DA, Inglesby TV. Six policy options for conducting gain-offunction research [commentary]. CIDRAP. 2016 Mar 8.
http://www.cidrap.umn.edu/news-perspective/2016/03/commentary-six-policyoptions-conducting-gain-function-research
Lipsitch M. Comment on Gain-of-Function Research and the Relevance to
Clinical Practice. J Infect Dis. 2016 Aug 8.
http://jid.oxfordjournals.org/content/early/2016/08/05/infdis.jiw348.full.pdf?keytyp
e=ref&ijkey=3UezwCgIHkSHZlP
Lipsitch M. Zika vaccine trials: There are new and familiar challenges in the race
for timely and effective vaccines. Science. 2016 Sep 9;353(6304):1094-5. doi:
10.1126/science.aai8126.
http://science.sciencemag.org/content/353/6304/1094.full
Lipsitch M. If a Global Catastrophic Biological Risk Materializes, at What Stage
Will We Recognize It? Health Secur. 2017 Jul/Aug;15(4):331-4. doi:
10.1089/hs.2017.0037. Epub 2017 Jul 26. doi:10.1089/hs.2017.0037.[Epub
ahead of print] PMID: 28745911.
MacFadden DR, Lipsitch M, Olesen SW, Grad Yonatan. Multidrug-resistant
Neisseria Gonorrhoeae: Implications for Future Treatment Strategies. The Lancet
Infect Dis. June 2018, Vol 18, No. 6, p.599. Letter to The Editor.
https://www.thelancet.com/journals/laninf/article/PIIS1473-3099(18)302743/fulltext
Atkins KE, Lipsitch M. Can antibiotic resistance be reduced by vaccinating
against respiratory disease? Lancet Respir Med. 2018 Jul 31. pii: S22132600(18)30328-X. doi: 10.1016/S2213-2600(18)30328-X.PubMed PMID:
30076121.
Lipsitch M. Challenges of vaccine effectiveness and waning studies. Clin Infect
Dis. 2018 Sep 10. doi: 10.1093/cid/ciy773. PubMed PMID: 30204853.
Lewnard JA, Tedijanto C, Cowling BJ, Lipsitch M. Accounting for unobserved and
differential susceptible time at risk in retrospective studies: response to Dean
(2019). Am J Epidemiol. 2019 Jan 25. doi: 10.1093/aje/kwz018. [Epub ahead of
print] PMID: 30689694.

52

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 76 of 79
Lipsitch, Marc

51.

52.
53.

54.
55.
56.

57.
58.
59.

(c)
1.
2.
3.
4.

5.
6.

Lipsitch M, Shaman J. Comment on: ‘Antibiotic footprint’ as a communication tool
to aid reduction of antibiotic consumption, J Antimicrob Chemother. 2019 Jul 17.
pii: dkz320. doi: 10.1093/jac/dkz320. [Epub ahead of print] PubMed PMID:
31314102.
Inglesby T and Lipsitch M. 2020. Proposed Changes to US Policy on Potential
Pandemic Pathogen Oversight and Implementation. mSphere 5:e00990-19.
Buckee CO, Balsari S, Chan J, Crosas M, Dominici F, Gasser U, Grad YH,
Grenfell B, Halloran ME, Kraemer MUG, Lipsitch M, Metcalf CJE, Meyers LA,
Perkins TA, Santillana M, Scarpino SV, Viboud C, Wesolowski A, Schroeder A.
Aggregated mobility data could help fight COVID-19. Science. 2020 Apr
10;368(6487):145-146. doi: 10.1126/science.abb8021. Epub 2020 Mar 23.
PubMed PMID: 32205458.
Lipsitch M. Estimating case fatality rates of COVID-19. Lancet Infect Dis.
2020 Mar 31. pii: S1473-3099(20)30245-0. doi: 10.1016/S1473-3099(20)302450. [Epub ahead of print] PubMed PMID: 32243813.
Swerdlow DL, Finelli L, Lipsitch M. Epidemiology of Covid-19. Reply. N Engl J
Med. 2020 Mar 27;382. pii: 10.1056/NEJMc2005157#sa2. doi:
10.1056/NEJMc2005157. [Epub ahead of print] PubMed PMID: 32220201.
Lipsitch M, Kahn R, Mina MJ. Antibody testing will enhance the power and
accuracy of COVID-19-prevention trials. Nat Med. 2020 Apr 27.
doi:10.1038/s41591-020-0887-3. [Epub ahead of print] PubMed PMID:
32341581.
Eyal N, Lipsitch M, Smith PG. Response to Cioffi. J Infect Dis. 2020 Apr 29. pii:
jiaa217. doi: 10.1093/infdis/jiaa217. [Epub ahead of print] PubMed PMID:
32348499.
Thaler DS, Lipsitch M. Coronavirus: sampling now for future analysis. Nature.
2020 Apr;580(7805):590. doi: 10.1038/d41586-020-01267-y. PubMed PMID:
32346142.
Lipsitch M, Perlman S, Waldor MK. Testing COVID-19 Therapies to prevent
progression of mild disease. Lancet Infect Dis. 2020 May 6.
https://doi.org/10.1016/S1473-3099(20)30372-8
Popular Articles
Lipsitch, M. Genetic Tug-of-War May Explain Many of the Troubles of Pregnancy.
New York Times. 1993 Jul 20. Sect. B:6.
Lipsitch, M. Fears Growing over Bacteria Resistant to Antibiotics. New York
Times. 1995 Sept 12. Sect. C:1.
Popular articles on the evolution-creationism debate in School Board News, The
Forward, and The Emory Report.
Lipsitch, M. Prepare Now for the Return of SARS. Project Syndicate, syndicated
to Straits Times, Taiwan Times, Daily Times (Pakistan). 2003 Jul 13. Available
from: https://www.project-syndicate.org/commentary/prepare-now-for-the-returnof-sars?barrier=accesspaylog
Lipsitch M and Bloom BR. Avian flu: Preparing for a Pandemic. Harvard Public
Health Review. 2006. Winter 2006. Available from:
http://www.hsph.harvard.edu/review/rvwwinter06_dean.html
Lipsitch M. The Risk to Academic Freedom That Lurks in Corporate Consulting
Contracts. The Chronicle of Higher Education. 2010 Jun 27.

53

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 77 of 79
Lipsitch, Marc

7.
8.
9.
10.
11.
12.
13.
14.

15.

16.

17.

18.

19.

20.

21.

Lipsitch M, Pavia A, Uyeki T, Beigi R, Bernstein H, Bradley J. Data on Flu
Treatment [Letter]. New York Times. 2012 April 19. Available from:
http://www.nytimes.com/2012/04/20/opinion/data-on-flu-treatment.html
Lipsitch M. Exceptional Risks, Exceptional Precautions. The European 2013 Apr
23. Available from: http://www.theeuropean-magazine.com/marc-lipsitch--2/6691the-risk-from-super-viruses
Lipsitch M. Keine Experimente! Das Züchten neuer Krankheitserreger ist sinnlos
und gefährlich. Es muss aufhören. IPG. 2014 June 10. Available from:
http://www.ipg-journal.de/kommentar/artikel/keine-experimente-458/.
Lipsitch M. Anthrax? That's Not the Real Worry. New York Times. 2014 Jun 30.
Available from: http://www.nytimes.com/2014/06/30/opinion/anthrax-thats-notthe-real-worry.html?ref=opinion
Lipsitch M. Make the Pause on Risky Pathogen Research Permanent. Scientific
American. 2015 Jan 2:312(2).
Lipsitch M and Relman DA. New Game, New Rules: Limiting the Risks of
Biological Engineering. Foreign Affairs. 2015 Aug 31. Available from:
https://www.foreignaffairs.com/articles/2015-08-31/new-game-new-rules
Lipsitch M. Keeping biological research safe. The Hill. 2016 Aug 18. Available
from: https://thehill.com/blogs/congress-blog/healthcare/291831-keepingbiological-research-safe
Hanage W and Lipsitch M. How to Report on the COVID-19 Outbreak
Responsibly. Scientific American. 2020 Feb 23. Available from:
https://blogs.scientificamerican.com/observations/how-to-report-on-the-covid-19outbreak-responsibly/
Lipsitch M and Inglesby T. The U.S. is funding dangerous experiments it doesn’t
want you to know about. Washington Post. 2019 Feb 27. Available from:
https://www.washingtonpost.com/opinions/the-us-is-funding-dangerousexperiments-it-doesnt-want-you-to-know-about/2019/02/27/5f60e934-38ae-11e9a2cd-307b06d0257b_story.html
Lipsitch M. Why it’s so hard to pin down the risk from coronavirus. Washington
Post. 2020 Mar 6. Available from:
https://www.washingtonpost.com/opinions/2020/03/06/why-its-so-hard-pin-downrisk-dying-coronavirus/
Gottlieb S and Lipsitch M. Take smart steps to slow spread of the coronavirus.
USA Today. 2020 Mar 9. Available from:
https://www.usatoday.com/story/opinion/2020/03/06/former-fda-chief-gottliebactions-needed-fight-coronavirus-covid-19-column/4967137002/
Lipsitch M. The interventions we must take to control the coronavirus. Boston
Globe. 2020 Mar 11. Available from:
https://www.bostonglobe.com/2020/03/11/opinion/interventions-we-must-takecontrol-coronavirus/
Lipsitch M and Allen J. Coronavirus reality check: 7 myths about social
distancing, busted. USA Today. 2020 Mar 16. Available from:
https://www.usatoday.com/story/opinion/2020/03/16/coronavirus-socialdistancing-myths-realities-column/5053696002/
Lipsitch M. We know enough now to act decisively against Covid-19. Social
distancing is a good place to start. STAT News. 2020 Mar 18. Available from:
https://www.statnews.com/2020/03/18/we-know-enough-now-to-act-decisivelyagainst-covid-19/
Danzig R and Lipsitch M. Prepare Now for the Long War Against Covid-19.
Bloomberg. 2020 Mar 20. Available from:

54

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 78 of 79
Lipsitch, Marc

22.

23.

24.
25.
26.

27.

28.
29.

30.
31.

32.

https://www.bloomberg.com/opinion/articles/2020-03-20/prepare-now-for-thelong-war-against-coronavirus
Lipsitch M. Far more people in the U.S. have the coronavirus than you think.
Washington Post. 2020 Mar 23. Available from:
https://www.washingtonpost.com/outlook/2020/03/23/coronavirus-countconfirmed-testing/
Allen J and Lipsitch M. 6 things to know if you're living with someone who has
coronavirus, or think you might be. USA Today. 2020 Mar 24. Available from:
https://www.usatoday.com/story/opinion/2020/03/24/coronavirus-testingshortage-take-precautions-just-in-case-column/2899989001/
Lipsitch M and Grad Y. Navigating the Covid-19 pandemic: We’re just clambering
into a life raft. Dry land is far away. STAT News. 2020 Apr 1. Available from:
https://www.statnews.com/2020/04/01/navigating-covid-19-pandemic/
Lipsitch M. Who Is Immune to the Coronavirus? New York Times. 2020 Apr 13.
Available from: https://www.nytimes.com/2020/04/13/opinion/coronavirusimmunity.html
Allen J, Friedman W, Lipsitch M. Keep parks open. The benefits of fresh air
outweigh the risks of infection. Washington Post. 2020 Apr 13. Available from:
https://www.washingtonpost.com/outlook/2020/04/13/keep-parks-open-benefitsfresh-air-outweigh-risks-infection/
Lipsitch M. 'Serology’ is the new coronavirus buzzword. Here’s why it matters.
Washington Post. 2020 May 4. Available from:
https://www.washingtonpost.com/opinions/2020/05/04/serology-is-newcoronavirus-buzzword-heres-why-it-matters/
Lipsitch M. Good Science is Good Science. Boston Review. 2020 May 12.
Available from: http://www.bostonreview.net/science-nature/marc-lipsitch-goodscience-good-science
Malley R and Lipsitch M. Treating Mild Coronavirus Cases Could Help Save
Everyone. New York Times. 2020 May 22. Available from:
https://www.nytimes.com/2020/05/22/opinion/coronavirus-treatment-mildsymptoms.html
Eyal N, Lipstich M, Angell M. The True Cost of Vaccine Studies. New York
Review of Books. 2020 Aug 20. Available from:
https://www.nybooks.com/articles/2020/08/20/true-cost-of-vaccine-studies/
Grad Y and Lipsitch M. How to fix public health weaknesses before the next
pandemic hits. Washington Post. 2020 Sept 24. Available from:
https://www.washingtonpost.com/opinions/2020/09/24/how-fix-public-healthweaknesses-before-next-pandemic-hits/
Lipstich M. Americans, we can fight COVID-19 and save lives now. Wear a
mask! USA Today. 2020 Oct 8. Available from:
https://www.usatoday.com/story/opinion/2020/10/08/wear-mask-fight-covid-19and-save-lives-now-medical-experts-column/5907452002/

(d) Coauthored (group-authored) reports
33.

President’s Council of Advisors on Science and Technology, H1N1 Working
Group [member author]. Report to the President on US Preparations for 2009H1N1 Influenza. 2010 Aug 9. Available from:

55

Case 5:20-cv-08241-EJD Document 53-4 Filed 12/23/20 Page 79 of 79
Lipsitch, Marc

34.

35.

36.

37.

https://www.globalsecurity.org/security/library/report/2009/pcast_h1n1report_090807.htm
Wellcome Trust/CIDRAP Team B [member author]. Recommendations for
Accelerating the Development of Ebola Vaccines, Report & Analysis. 2015 Feb.
Available from:
https://www.cidrap.umn.edu/sites/default/files/public/downloads/ebola_virus_tea
m_b_report-final-021615.pdf
Wellcome Trust/CIDRAP Team B [member author]. Plotting the Course of Ebola
Vaccines: Challenges and Unanswered Questions. 2016 Mar. Available from:
https://www.cidrap.umn.edu/sites/default/files/public/downloads/ebola_team_b_r
eport_2-033116-final.pdf
Wellcome Trust/CIDRAP Team B [member author]. Completing the Development
of Ebola Vaccines: Current Status, Remaining Challenges and
Recommendations. 2017 Jan. Available from:
https://www.cidrap.umn.edu/sites/default/files/public/downloads/ebola_team_b_r
eport_3-011717-final_0.pdf
Moore K, Lipsitch M, Barry JM, Osterholm MT. COVID-19: The CIDRAP
Viewpoint. CIDRAP, University of Minnesota. 2020 Apr 30. Available from:
https://www.cidrap.umn.edu/sites/default/files/public/downloads/cidrap-covid19viewpoint-part1_0.pdf

56

Exhibit 4

Case 5:20-cv-08241-EJD Document 53-1 Filed 12/23/20 Page 166 of 170
May 29, 2020

Federal Aviation
Administration
Information for Airport Sponsors Considering COVID-19 Restrictions or Accommodations
PURPOSE
This document addresses common issues that have arisen or may arise for airport sponsors during the
response to the COVID-19 public health emergency. The Federal Aviation Administration (FAA)
Office of Airports will evaluate specific requests regarding restrictions or accommodations on a caseby-case basis. The FAA retains maximum flexibility to consider unique circumstances during this
public health emergency.
The FAA separately has published frequently asked questions (FAQs) related to the approximately
$10 billion in grants for airports under the Coronavirus Aid, Relief, and Economic Security (CARES)
Act. Those FAQs are available at www.faa. gov/airports.

BACKGROUND
The FAA has been receiving inquiries from airport operators about their authority to implement a
range of restrictions, changes in operations, terminal service consolidations, and other responses to
the COVID-19 public health emergency. Many of these inquiries reflect interest in facilitating social
distancing or adapting to a reduced level of activity at the airport.
The F AA's primary concern is that federally obligated airports remain safe and open to the traveling
public and aircraft. Particularly during this public health emergency, airports play an essential role in
transporting medical and emergency equipment and personnel. The FAA continues to expect all
airports to operate safely and stay open.

APPLICABILITY
The guidance here is not legally binding in its own right and will not be relied upon by the FAA as a
separate basis for affirmative enforcement action or other administrative penalty. Conformity with
this guidance, as distinct from existing statutes, regulations, and grant assurances, is voluntary only,
and nonconformity will not affect existing rights and obligations.

ISSUES
Closing airports: All proposed closing of airport access (i.e., passenger and aircraft access) must be
approved in advance by the FAA. As noted in Compliance Guidance Letter, 2020-01 , in general, the
FAA does not permit temporary closure or restriction of federally obligated airports for nonaeronautical purposes. An airport sponsor must obtain FAA approval to allow airport closure for a
non-aeronautical purpose. (Grant Assurance 19 and 49 U.S .C. § 47107(a)(8)). Grant Assurance 19
1

Case 5:20-cv-08241-EJD Document 53-1 Filed 12/23/20 Page 167 of 170
May 29, 2020
further requires that airport sponsors will not cause or permit any activity or action on the airport that
would interfere with its use for airport purposes. This includes all airport structures and operational
areas. If a proposed action suspends or closes an international Port of Entry, then the sponsor may
also need approval from U.S. Customs and Border Protection (CBP).
Prohibiting certain flights (e.g., certain locations, types of aircraft, and types of operations): As
is normally the case, actions such as these may violate Federal law and the airport's grant assurances,
unless approved in advance by the FAA (and, in some cases, the Office of the Secretary of
Transportation (OST) as well). To seek such approval, the airport sponsor should contact the
applicable FAA Airports District Office to discuss the matter.
Requiring flights to land at certain airports for screening: All such requests would ordinarily
require prior FAA approval under Grant Assurances 19 and 22 and related statutes. Usually, these
restrictions would likely constitute an unreasonable restriction on access; however, FAA has
discretion to consider such requests and recognizes the exceptional situation presented by this public
health emergency. Depending on the circumstances, such requests might be deemed as reasonable
restrictions on access. However, even where FAA is amenable to such a temporary condition, the
airport will need to coordinate with OST with regard to requiring route changes, and with CBP if the
action appears to suspend or close an international Port of Entry.
Closing of sections of the airfield to allow for aircraft parking: Airports should avoid overflow
parking of aircraft on runways except as a last resort. If overflow parking of aircraft is needed,
airports should first consider using gates, aprons, and non-movement areas. Airports should also
consider suggesting that aircraft owners contact other nearby airports where there may be additional
aircraft parking capacity. Based on the location(s) selected, the sponsor must be able to respond with
aircraft rescue and firefighting (ARFF) capability and provide required notice. In all cases, operators
of airports in the National Plan of Integrated Airport Systems should work with local air traffic
facilities (if present) to develop a safe and reasonable parking plan and share that information with
their servicing FAA Airports District Office, local FAA Air Traffic Manager, and FAA's Flight
Standards Service. For part 139 certificated airports, see Cert Alert 20-02 - Temporary Parking of
Overflow Aircraft (updated March 24, 2020).
Closing restaurants or other retail activities in the terminal: The closing of restaurants, retail
stores, or other non-aeronautical functions in a terminal is not likely to violate FAA grant assurances
if driven by public health measures or reduced clientele, and especially if restrictions are applicable
to all business entities within the jurisdiction. However, airports should coordinate with the FAA
Office of Civil Rights with regard to Airport Concession Disadvantaged Business Enterprise
regulations.
Closing gates or sections of terminals: In coordination with airport sponsors, airlines, the
Transportation Security Administration (TSA), and other entities, closing gates or sections of
terminals is likely to be acceptable if the closure is executed in response to reduced passenger
volumes and operations, is not discriminatory, and does not provide an unfair competitive advantage
to one operator. For example, TSA has reduced lanes or consolidated passenger screening
checkpoint operations in numerous airports in response to the reduction in originating passenger
volume.
2

Case 5:20-cv-08241-EJD Document 53-1 Filed 12/23/20 Page 168 of 170
May 29, 2020
Allowing terminals to be used for sheltering of people: This is likely to be acceptable if it does not
interfere with airport access or impact security for the traveling public and aircraft operations.
Screening or quarantining passengers boarding or exiting planes: State, local, or territorial
public health officials may want to screen or quarantine passengers. In most cases, this is likely to be
acceptable as long as passengers are not being categorically refused access to air transportation (e.g.,
through unapproved blanket closures). Airlines may refuse transportation to a passenger because of a
communicable disease if the passenger's condition poses a direct threat to the health or safety of
others. Care must also be taken in coordinating with airport sponsors, airlines, TSA, airport law
enforcement, and other entities on when, where, and how your government conducts this screening
and quarantining, with a goal of minimizing burden and maximizing flexibility for operations. Effort
also should be made to minimize undesirable queueing or the formation of large groups of
passengers.
Rent abatement / minimum annual guarantee: A decision to abate rent (including "minimum
annual guarantees" and also encompassing fees) is a local decision. Rent abatement should be tied to
the changed circumstances caused by the public health emergency, and done in accordance with
Grant Assurances 22 and 24, as well as related statutes. Where abatement results in shifting costs
between various classes of airport tenants and users, the airport sponsor is encouraged to consult with
all affected parties and implement a consensus approach if possible.
If a sponsor (or airport tenant, whether aeronautical or non-aeronautical) desires to renegotiate rent, a
reasonable basis for such an action might be established if the underlying basis for such rent has
temporarily declined or materially altered due to COVID-19. In such circumstances, the offer of
accommodation in the form of rent abatement is not barred by the grant assurances as long as it is
reasonable under the circumstances and reflects the decline in fair market value, loss of
services, and/or changes to volume of traffic and economy of collection.

Sponsors considering such relief are encouraged to consider the business situation of the tenant; the
changed circumstances created by the public health emergency; the desirability of having solvent
tenants that can resume normal operations when the emergency ends; the availability of other
governmental or insurance relief that such entities have or may receive; an appropriate term for such
relief; and possible subsequent conditions that, if triggered, would end the abatement. Such a
condition could be the receipt of other governmental forms of relief; insurance recovery, if any; or an
end to the emergency.
As noted above, where sponsors have residual lease arrangements with aeronautical users, the
reduction of rent for certain non-aeronautical entities may shift costs to the aeronautical users such as
airlines. Achieving the appropriate balance between these users is a local responsibility that should
be managed in consultation with all affected parties. If rent abatement to non-aeronautical users
results in an increase to aeronautical rates, that is not necessarily an impediment from a grant
assurance perspective, but the aeronautical rates must remain reasonable. For any actions that
reallocate costs, FAA encourages sponsors to carefully balance and consider the equities between all
airport users. Additionally, the sponsor is encouraged to consult with all affected parties before
making its decision and reach a consensus where possible.

3

Case 5:20-cv-08241-EJD Document 53-1 Filed 12/23/20 Page 169 of 170
May 29, 2020
Apart from any Federal obligations, the FAA also recommends that airport sponsors consult their
lease agreements to understand their discretion to act, particularly in a residual methodology context.
Airport sponsors should also examine any bond covenants to identify any potential restrictions that
may exist.
Deferral of rental payments or other fees: In cases where bond restrictions or other conditions
may prevent airports from offering rent abatements, the deferrals of rents and/or fees may be
possible. The terms and interest rates applied should be reasonable and applied fairly to similarly
situated businesses. Deferral of rental payments and or fees, if adequately justified, is not likely to
violate FAA's grant assurances. A primary goal of the statutory sustainability principle is to keep the
airport solvent to ensure that the airport can remain open and operate safely. If a deferral exceeds an
annual reporting period, interest should be charged based on Treasury note interest rates beginning
the date of the deferral and reported on FAA Form 127. The deferred rent amount should be reported
in the fiscal year when the rent would have been due but for the deferral. In the event that the rent
payment is deferred and not abated, the deferred rent amount should be reported as unpaid invoices
(accounts receivables) which would be reflected in the amount of revenue reported on the FAA Form
127. Neither airports nor the FAA have the legal authority, however, to allow air carriers to defer the
remittance of collected Passenger Facility Charge (PFC) revenues.
Sponsor's request for reducing hours of operation: If contemplated, it is important that any such
proposed action be part of implementing a legitimate public health initiative related to COVID19. At a minimum, to the extent considered, such an action would require FAA to examine whether
it would result in an undue hardship on emergency response or otherwise unjustly discriminate
against a specific user of the airport. Finally, FAA is unlikely to approve any such reductions that
would restrict either government or emergency operations.
Sheltering-in-place impacts on airport personnel: Because airports are essential in transporting
emergency and medical supplies and personnel during emergencies, a critical number of airport and
Federal employees should be designated as essential to ensure the continuity, safety, and security of
airport operations. Also, airport law enforcement should be informed to facilitate their access to
airport and airport facilities . This is particularly true for part 139 certificated airports, which require
minimum personnel to meet requirements of the regulation. In addition, the Department of
Homeland Security's Cybersecurity and Infrastructure Security Agency has issued guidance that
specifically identifies airport operations personnel as part of the "Essential Critical Infrastructure
Workforce" who should not be impeded from their efforts to keep airports safe and operational.
Recreational aeronautical restrictions: Certain States have issued COVID-19 restrictions on
activities they deem "non-essential," including certain aeronautical activities such as flight schools
and sky diving. With the goal of keeping airports open to ensure access for the traveling public,
emergency and medical equipment and supplies, and emergency transportation, FAA does not object
to temporarily limiting recreational aeronautical activities that are covered by such
restrictions. However, the activities limited by a sponsor should be limited to those falling within the
scope of a public health measure by an authority whose jurisdiction covers the airport's geographic
area (e.g., a State or local government).

4

Case 5:20-cv-08241-EJD Document 53-1 Filed 12/23/20 Page 170 of 170
May 29, 2020

Prohibiting flights from "hotspot" areas: Prohibiting flights from "hotspots" or areas of high
levels of contagion generally is not acceptable. However, a jurisdiction may choose to consider its
authority to impose public health screening or quarantine for passengers entering the jurisdiction.
The FAA has published guidance for consideration when implementing quarantine, screening, or
movement restrictions that impact air transportation.
Sponsor's Use of Airport Revenue for Public Health Activities: Federal law requires that federally
obligated airports must use airport revenue for the capital or operating costs of the airport. CARES Act
grants must be used in the same way as airport revenue and for costs that are directly related to the
airport.
Under the extraordinary circumstances of the COVID-19 public health emergency, some activities
the airport may undertake to minimize the spread of COVID-19 may be legitimate capital or
operating costs of the airport. For example, in this exceptional context, the FAA considers the testing
and health screening of airport employees to be a legitimate operating cost of an airport to sustain the
airport's workforce, upon which the continuity of airport operations depends. Additionally, airport
operating costs may also include the costs of enhanced cleaning of the terminal and other areas of
airport property to minimize transmission of COVID-19. These operating costs may include the
purchase of incidentals and supplies to accomplish these purposes, such as screening and testing
equipment, cloth face covers, and cleaning and disinfection products. In contrast, the use of airport
employees for public health screening is generally not considered a proper use of airport revenue.
Airports should properly account for and document allowable costs incurred because of the COVID19 public health emergency. Airports with specific questions regarding allowable costs related to
COVID-19 should contact their Airport District Office.

Sponsor's Use of Airport Space for Public Health Activities: Under the extraordinary
circumstances of the COVID-19 public health emergency, airports are permitted to allocate terminal
or office space for testing and health screening activities and the related storage of medical equipment
and supplies. In this exceptional context, it is also within an airport sponsor's discretion to allow
tenants to have additional space, beyond what their leases include, for testing and health screening
and for storage of medical equipment and supplies. Because these uses support the continuity of
airport operations, such accommodations can be for no cost as long as they are temporary,
necessitated by the public health emergency, and offered in a way that is not unjustly discriminatory.
CONCLUSION
Airports should be cognizant of, and assume the responsibility for, the implications of their proposed
actions in response to COVID-19. Considerations include, among others: (1) coordination with the
FAA, (2) coordination with other Federal, State, or local agencies as needed, including airport law
enforcement or local law enforcement entities serving the airport; (3) understanding of applicable
Federal obligations, (4) impacts on aeronautical use and airport infrastructure; (5) impact on the safe
and efficient functioning of air traffic and the National Airspace System; (6) communications and
notice requirements; (7) evolving safety and security requirements; (8) the need to document actions;
(9) plans for following up on or amending actions as the situation evolves; and (10) the impact to
emergency services that rely on air transportation.

5

Exhibit 5

Santa Clara County

PUBL!C
HEALTH

MANDATORY
DIRECTIVE:

Travel

Issued: November 28, 2020
sccgov.org/coronavirus

Revised and Effective: January 25, 2021

County of Santa Clara
Public Health Department
Health Officer
976 Lenzen Avenue, 2nd Floor
San José, CA 95126
408.792.5040

MANDATORY DIRECTIVE ON TRAVEL
*Please confirm compliance with the State Order. Where there is a difference between the
local County Order and the State Order, the more restrictive order must be followed. The
State also has specific guidance for certain activities that must be followed in addition to
this mandatory directive.*
Information on the State’s Order and State guidance is available at covid19.ca.gov.
Issued: November 28, 2020
Revised and Effective: January 25, 2021
Effective Upon Release
In light of significant increases in COVID-19 cases and associated hospitalizations
across the United States, the State of California, and within Santa Clara County, this
Mandatory Directive on Travel is in effect until it is rescinded or modified.
This Directive establishes the County Health Officer’s rules for quarantine after travel. The risk
of COVID-19 transmission increases as people travel in and out of Santa Clara County and have
contact with persons from other households and other communities, especially through travel to
regions with significant COVID-19 transmission. To reduce this risk, the County Health Officer
has established this mandatory directive related to travel. This Directive applies to all travel into
Santa Clara County, whether by residents or non-residents.
This Directive is mandatory, and failure to follow it is a violation of the Health Officer’s
Order issued on October 5, 2020 (“Order”).
Travel Is Discouraged
1. The County Health Officer discourages travel, especially for non-essential purposes.
a. Because travel involves mixing between regions and households, and because so
many areas of the State and United States are also currently experiencing significant
surges in COVID-19 cases, travel is discouraged and should be minimized.
Mandatory Directive on Travel (Order issued Oct. 5, 2020)

Page 1 of 2

Board of Supervisors: Mike Wasserman, Cindy Chavez, Otto Lee, Susan Ellenberg, S. Joseph Simitian
County Executive: Jeffrey V. Smith

b. In particular, non-essential travel (i.e., travel for leisure or for non-essential business)
is strongly discouraged and should be postponed until after the current surge in
COVID-19 cases and hospitalizations subsides.
Mandatory Quarantine after Long-Distance Travel into Santa Clara County
2.

Quarantine Requirements
a. Except as otherwise provided in this Directive, all persons traveling into Santa Clara
County, whether by air, car, train, or any other means, directly or indirectly from a
point of origin greater than 150 miles from the county’s borders must quarantine for
at least 10 days after arrival.
b. For the purposes of this Directive, “quarantine” means staying at home or another
place of temporary shelter without contact with any persons other than members of
one’s own immediate traveling party or one’s household.
c. Information, resources, and guidance on quarantine, including recommendations on
when to get tested and what to do in the case of a positive test result are available at
www.sccstayhome.org.

3.

Exemptions from Mandatory Quarantine.
a. Licensed healthcare professionals, as defined by the Order, and all persons working at
acute care hospitals, do not need to quarantine following arrival.
b. Persons traveling solely for the purpose of performing an essential governmental
function, as defined by the governmental entity responsible for that function, do not
need to quarantine following that travel.
c. The following persons are required to quarantine, but may leave their home or place
of quarantine solely for the activities specified in this section:
i.

Persons who perform essential governmental functions, as defined by the
governmental entity responsible for those functions, whose purpose for
travel does not fall within section 3(b), but only to the extent that the
governmental entity determines that it would otherwise lack sufficient
staffing to fulfill that essential function.

ii.

Persons traveling solely for the purpose of performing essential critical
infrastructure work, as defined by the State Public Health Officer, but

Mandatory Directive on Travel
(Order Issued October 5, 2020)

Page 2 of 3

only to the extent that the employer determines that it would otherwise
lack sufficient staffing to perform such work.
iii.

Persons traveling solely for the purpose of work or participation in
collegiate or professional athletic activities, provided they are in
compliance with all applicable directives.

d. Persons solely transiting through Santa Clara County and not staying overnight are
not required to quarantine.
e. Persons traveling to Santa Clara County to obtain services from a Healthcare Facility,
as defined in the Order, are required to quarantine upon arrival, but may leave their
household or place of quarantine to obtain those services.
f. Persons who are otherwise required to quarantine pursuant to this Directive may leave
their household or place of quarantine to the extent necessary to comply with a court
order or make an appearance in a court of law or administrative proceeding.
Notification Requirement for Transit Facilities
4.

Notification Requirements
a. All transit facilities, including but not limited to airports, train stations, bus
stations, and other facilities where persons may be regularly traveling into Santa
Clara County must ensure a copy of this Directive is provided to each passenger
upon arrival from a point of origin more than 150 miles from the County borders.
b. All transit facilities must prominently post notices in such a manner that all
persons transiting through such facilities will become aware of the requirements
of this Directive. Notices are available to print and post here.
Stay Informed

For answers to frequently asked questions about capacity limitations and other topics, please see
the FAQ page. Please note that this Directive may be updated. For up-to-date information on
the Health Officer Order, visit the County Public Health Department’s website at
www.sccgov.org/coronavirus.

Mandatory Directive on Travel
(Order Issued October 5, 2020)

Page 3 of 3

